<html>
<title> - UNMANNED AIRCRAFT SYSTEMS: INNOVATION, INTEGRATION, SUCCESSES,. AND CHALLENGES</title>
<body><pre>[Senate Hearing 115-62]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-62

  UNMANNED AIRCRAFT SYSTEMS: INNOVATION, INTEGRATION, SUCCESSES, AND 
                               CHALLENGES

=======================================================================

                                HEARING

                              BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT



                  U.S. GOVERNMENT PUBLISHING OFFICE                    
26-594 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a> 
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2017...................................     1
Statement of Senator Thune.......................................     1
    Prepared statement...........................................     2
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
Statement of Senator Wicker......................................    27
Statement of Senator Fischer.....................................    37
Statement of Senator Moran.......................................    40
Statement of Senator Peters......................................    42
Statement of Senator Cortez Masto................................    44
Statement of Senator Hassan......................................    47
Statement of Senator Cantwell....................................    49
Statement of Senator Inhofe......................................    52
Statement of Senator Markey......................................    54
Statement of Senator Capito......................................    56
Statement of Senator Klobuchar...................................    58
Statement of Senator Duckworth...................................    61

                               Witnesses

Earl Lawrence, Director, Federal Aviation Administration's 
  Unmanned Aircraft Systems Integration Office...................     5
    Prepared statement...........................................     7
Diana Marina Cooper, Vice President, Legal and Policy Affairs, 
  Precision Hawk USA, Inc. and President, SUAV Coalition.........    11
    Prepared statement...........................................    13
Ben Fowke, Chairman, President, and Chief Executive Officer, Xcel 
  Energy.........................................................    16
    Prepared statement...........................................    17
Brendan Schulman, Vice President, Policy & Legal Affairs, DJI 
  Technology, Inc................................................    19
    Prepared statement...........................................    21
John Villasenor, Professor, Electrical Engineering, Public 
  Policy, and Management; Visiting Professor of Law, University 
  of California, Los Angeles; and Visiting Fellow, The Hoover 
  Institution, Stanford University...............................    27
    Prepared statement...........................................    28
Emilio Gonzalez, Ph.D., Director and Chief Executive Officer, 
  Miami-Dade Aviation Department.................................    33
    Prepared statement...........................................    35

                                Appendix

Letter dated March 13, 2017 to Hon. John Thune, Chairman, and 
  Hon. Bill Nelson, Ranking Member, Senate Commerce, Science, and 
  Transportation Committee from National Association of REALTORS    67
Letter dated March 13, 2017 to Hon. John Thune, Chairman, and 
  Hon. Bill Nelson, Ranking Member, Senate Commerce, Science, and 
  Transportation Committee from Electronic Privacy Information 
  Center (EPIC)..................................................    68
Property Casualty Insurers Association of America, prepared 
  statement......................................................    71
Rodin Lyasoff, CEO, A\3\, prepared statement.....................    72
Response to written questions submitted to Earl Lawrence by:
    Hon. John Thune..............................................    75
    Hon. Roy Blunt...............................................    75
    Hon. Dan Sullivan............................................    76
    Hon. Bill Nelson.............................................    77
    Hon. Richard Blumenthal......................................    77
    Hon. Maggie Hassan...........................................    78
Response to written questions submitted to Diana Marina Cooper 
  by:
    Hon. Dan Sullivan............................................    79
    Hon. Todd Young..............................................    80
    Hon. Richard Blumenthal......................................    81
Response to written questions submitted by Hon. Richard 
  Blumenthal to:
    Ben Fowke....................................................    81
    Brendan Schulman.............................................    82
    John Villasenor..............................................    84
Response to written question submitted to Emilio Gonzalez, Ph.D. 
  by:
    Hon. Richard Blumenthal......................................    85
    Hon. Edward Markey...........................................    86

 
                       UNMANNED AIRCRAFT SYSTEMS:
                  INNOVATION, INTEGRATION, SUCCESSES,.
                             AND CHALLENGES

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:16 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Fischer, 
Moran, Heller, Inhofe, Johnson, Capito, Gardner, Young, Nelson, 
Cantwell, Klobuchar, Markey, Booker, Peters, Duckworth, Hassan, 
and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Thank you for being here. I 
apologize for the tardy start.
    We had a vote at 10 o'clock. There are many things about 
our schedule around here that Senator Nelson and I do not 
control, and when we vote is certainly one of them.
    But we appreciate our panel being here today and 
participating as we revisit some of the issues surrounding the 
safe integration of unmanned aircraft systems, known as UAS or 
drones, in the National Airspace System.
    As all of you know, this exciting technology has the 
capability to change, and in some cases already has changed, 
the way companies in the United States and around the world do 
business.
    In addition to commercial UAS activities, hundreds of 
thousands of drones have been sold and registered to everyday 
consumers and recreational users around the country. Some of 
these users are long-time hobbyists and aviation enthusiasts, 
while many others have been engaged by this new technology and 
are excited to take flight for the first time.
    The same innovative energy that enables new uses of this 
technology is also driving advances in safety and 
accountability, often faster than the pace of regulations. That 
pace of innovation is a benefit we should protect as the 
regulatory framework matures.
    As we contemplate another FAA reauthorization, today's 
hearing is an opportunity to receive an update on the FAA's 
progress on the congressional mandates from 2012 and 2016. We 
will examine the successes and the challenges the FAA has faced 
in the effort to safely integrate drones into the national 
airspace.
    We have a full panel here today, and I am eager to hear 
from them, and get into questions. So I am going to submit the 
remainder of my statement for the record, and recognize Senator 
Nelson for any opening statement that he might want to make.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Good Morning. Today we are here to discuss unmanned aircraft 
systems--a topic which received a lot of attention during last year's 
FAA reauthorization debate.
    This hearing will examine the successes and the challenges we face 
with respect to the continued integration of unmanned aircraft systems, 
often referred to as UAS or drones, into the national airspace system.
    As all of you know, this exciting technology has the capability to 
change, and in some cases has already changed, the way many companies 
do business.
    Obtaining an easily accessible aerial view via an off-the-shelf 
drone for realtors or photographers, and collecting even more advanced 
data for farmers, energy companies, or first responders are just a few 
examples of how UAS can increase safety, expand opportunities, and 
create significant efficiencies.
    Innovators across the industry are continuing to find new ways to 
market services, solve technical problems, mitigate safety risks, and 
remain on the cutting edge of the future of this technology.
    In addition to commercial activities, hundreds of thousands of 
drones have been sold and registered to hobbyists and recreational 
users around the country. Some of these users are long-time aviation 
enthusiasts while many others have been engaged by this new technology 
and are excited to take flight for the first time.
    Drones have proven to be so popular, in fact, that the online 
registration system for small UAS, which went live in 2015, already has 
750,000 unmanned registrations, compared to the roughly 315,000 
registrations for manned aircraft.
    While unmanned aircraft systems have been employed by the military 
for decades, integration of both commercial and recreational drones 
into the national airspace was first addressed in law by the FAA 
Modernization and Reform Act of 2012. Since that time, we have come a 
long way in terms of adoption, research, technology, and public policy.
    More recently, Congress was able to continue to exercise oversight 
and provide clear direction on the FAA's integration efforts with the 
passage of the FAA Extension, Safety, and Security Act of 2016 last 
summer.
    In an effort to increase safety and security, this legislation 
requires the Secretary of Transportation to establish a process for 
restricted airspace designations by the operators of critical 
infrastructure.
    Given the experience gained by the FAA in granting exemptions 
provided for in the 2012 legislation, the 2016 bill expands FAA's 
authority to allow UAS operations beyond visual line of sight and at 
night for applicants who demonstrate a solid safety case. As was the 
case in the development of the small UAS rule, I hope that use of the 
expanded authority will give both industry and the FAA confidence in 
the safety of such operations, which will eventually allow for even 
more routine use.
    This legislation also included provisions requiring the development 
of remote identification standards that will enable individuals to 
identify an operator of a UAS. This ability is critical for FAA 
enforcement efforts and the ability of individuals to avail themselves 
of state and local laws that protect them from unwanted involvement 
with a UAS.
    The original Senate-passed FAA bill included numerous other drone-
related provisions that didn't make it into the final extension. I 
anticipate that, as we work toward another FAA reauthorization this 
year, these issues will continue to be advanced by members of this 
Committee and the aviation community at large.
    At the agency level, with the expansion of UAS technology, the FAA 
has had to reevaluate how it operates and how it engages with the 
aviation stakeholder community--a community that includes a new cohort 
of users who may be less familiar with the National Airspace System, 
but who can bring new talents to bear in addressing regulatory 
challenges and finding safety solutions.
    Through the establishment of the UAS Integration Office, the FAA 
has begun to collaborate with the UAS industry, other government 
agencies, research partners, and Congress to aggressively pursue safe 
integration in a timely fashion.
    And while integration hasn't proceeded as fast as many would like, 
the FAA has taken steps to accelerate collaboration with the 
establishment of the Drone Advisory Committee and the Unmanned Aircraft 
Safety Team--both of which are government and industry partnerships.
    In August of 2016, the FAA also finalized the long-awaited small 
UAS rule, which, for the first time, provided direction for the routine 
use of commercial drones. These regulations established clear ``rules 
of the road'' for certain operations and streamlined what was 
previously an onerous case-by-case approval process for operators.
    In addition to the online UAS registration system for commercial 
and recreational users I previously mentioned, the FAA has also 
expanded education efforts, through initiatives such as the ``Know 
Before You Fly'' campaign, designed to provide important safety 
information to UAS users.
    The FAA has also partnered with NASA on research and development of 
an unmanned traffic management system or ``UTM.'' This research may 
ultimately lead to a complementary system to today's Air Traffic 
Organization for manned aircraft that will allow for drone fleet 
operations and package delivery.
    And importantly, the industry, from manufacturers to software 
developers to practical users, continues to innovate.
    While there is no silver bullet, safety technologies, including 
geofencing, altitude limitations, and sense and avoid capabilities, 
have the ability to continue to improve the safe operations of unmanned 
aircraft--technological achievements which may someday be used to 
improve safety in manned aviation.
    The same innovative energy that enables new uses for this 
technology is also driving advances in safety and accountability, often 
faster than the pace of regulations. That pace of innovation is a 
benefit we should protect as the regulatory framework matures.
    As we contemplate another FAA authorization, today's hearing is an 
opportunity to receive an update on the FAA's progress in implementing 
the Congressional mandates from the 2012 and 2016 legislation. In 
particular, we will examine the successes and challenges the FAA has 
faced in the effort to safely integrate drones into the national 
airspace.
    I am confident we can get there. It will likely take even more 
innovation and out-of-the-box thinking on the part of the agency and 
the industry, and maybe even on the part of this Committee--along with 
appropriate direction and oversight.
    Thank you to all of the witnesses to being here today. I look 
forward to hearing your testimony.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, and I will do 
likewise.
    You recall when we were doing the FAA bill, we put in a 
number of forward-looking provisions with regard to the 
potential of avoiding what is scaring us every day, which is a 
drone getting in the way of an inbound or outbound aircraft. 
And we have had a couple of near misses down in Miami. That is 
why I am happy Dr. Gonzalez is here who can speak to that.
    I have also seen a recent breakthrough in technology. It 
happens to be a Florida company that has produced a bird radar 
which is in use by hundreds of airports around the world, 
including the Kennedy Space Center. That technology has matured 
to where they are just about to be able to come out on the 
market with the detection of UAVs.
    So again, the advance in technology will help us as we 
confront this particular problem.
    And thank you for having this hearing, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, thank you for calling this hearing today.
    I want to thank the witnesses for being here today--especially for 
braving the winter weather.
    In the last several years, more and more individuals are purchasing 
unmanned aircraft systems--or ``drones''--and registering them with the 
Federal Aviation Administration.
    Drones for commercial use continue to hold great technological 
promise in many important areas--law enforcement, agriculture, disaster 
response, and perhaps even package delivery one day.
    However, advances in technology also raise important questions 
concerning safety and security, and the growing commercial uses for 
drones are certainly no exception.
    We've all read the headlines--a drone flying close to an aircraft 
or near an airport, used in smuggling contraband over a prison wall, or 
intruding on the personal property and privacy of neighbors.
    I also remain concerned by the prospect of drones being usurped by 
terrorists to target critical infrastructure and Department of Defense 
sites around the country.
    This Senator is certainly eager to embrace the innovations and 
technological breakthroughs of U.S. companies and manufacturers--
including the commercial use of drones.
    But common sense dictates that we be mindful of the safety and 
security concerns associated with the integration of drones into our 
national airspace.
    This is why I worked with Chairman Thune to ensure that last year's 
FAA Extension, Safety, and Security Act include several key provisions 
on these issues.
    To address the growing number of drone sightings near airports and 
the risk of collision with aircraft, the FAA Extension requires the FAA 
to establish a pilot program to test technologies to keep potentially 
wayward and hostile drones away from airports.
    As we will hear from Dr. Emilio Gonzalez, who oversees operations 
at Miami International Airport and four general aviation airports in 
the Miami area, airports across the country have had to experience this 
growing danger, including in my home state of Florida.
    The FAA Extension also directs the FAA to work with NASA to develop 
a program for collision research involving drones and various types of 
aircraft.
    In addition, the FAA Extension establishes civil penalties for 
those who use drones to knowingly or recklessly interfere with law 
enforcement, emergency response efforts, and fighting wildfires.
    We didn't stop there.
    To better manage the number of drones flying across the country, 
the FAA Extension directs the FAA and NASA to continue development of a 
research plan and ultimately establish a system for drone traffic 
management--or UTM.
    Because authorities don't always know who is flying a drone when 
security and safety incidents take place, the FAA Extension now 
requires the FAA to convene industry stakeholders to develop standards 
for remotely identifying drone operators.
    The Senate Commerce Committee continues to monitor FAA's progress 
with these and other drone-related provisions in the FAA Extension.
    And as part of what I hope will be a long-term FAA reauthorization 
bill this year, Chairman Thune and I will continue to evaluate 
additional ways to safely integrate drones into the national airspace.
    I look forward to hearing from the panel and especially thank Dr. 
Emilio Gonzalez for being here today from Miami.

    The Chairman. Thank you, Senator Nelson.
    There are just a lot of these issues that continue to come 
up, and I think it is important for us to stay ahead of it to 
the degree that we have a responsibility when it comes to 
integrating a lot of these UAVs into our national airspace.
    We have a great panel with us this morning and I am going 
to start on my left, and your right, with Mr. Lawrence.
    Mr. Earl Lawrence is the Director of the Office of Unmanned 
Aircraft Systems at the Federal Aviation Administration. So we 
are looking forward to hearing from you.
    Ms. Diana Marina Cooper is the Vice President of Legal and 
Policy Affairs at PrecisionHawk, and the President of the Small 
UAV Coalition.
    Mr. Ben Fowke is the Chairman, President, and CEO of Xcel 
Energy.
    Mr. Brendan Schulman is the Vice President of Policy and 
Legal Affairs at DJI.
    Dr. John Villasenor is a Professor of Engineering and 
Public Policy at UCLA, and a Visiting Fellow at the Hoover 
Institution.
    And as Senator Nelson mentioned, Dr. Emilio Gonzalez is the 
Director and Chief Executive Officer of the Miami-Dade Aviation 
Department.
    So we welcome you here. We look forward to what you have to 
say. If you could confine your oral statements to five minutes, 
or as close to that as possible, and any additional comments 
you want to make will certainly be included in the record. But 
that will optimize the amount of time that we have to ask 
questions.
    So Mr. Lawrence, if you would begin and proceed, and then 
we will just go across the panel from there.
    Welcome.

             STATEMENT OF EARL LAWRENCE, DIRECTOR,

  FEDERAL AVIATION ADMINISTRATION'S UNMANNED AIRCRAFT SYSTEMS 
                       INTEGRATION OFFICE

    Mr. Lawrence. Chairman Thune, Ranking Member Nelson, and 
members of the Committee.
    Thank you very much for this opportunity to provide an 
update on the state of UAS integration.
    Since the FAA last testified on UAS to this committee, the 
United States has solidified its role as the global leader in 
UAS integration.
    Demonstrating the FAA's prioritization of UAS, the 
Administrator established two executive positions: Mr. Gibson 
is the Senior Advisor on UAS to the Deputy Administrator, and 
my role as Director of the UAS Integration Office. Together we 
are ensuring the U.S. maintains our leadership role by keeping 
all of the FAA's UAS integration activities moving forward.
    To accomplish this, we have been, and will continue to work 
with the UAS stakeholder community. This collaboration has 
already resulted in significant progress.
    We have enabled innovation with two regulations that create 
a flexible framework for UAS. Based on recommendations from an 
industry task force, we initiated a Small UAS Registration 
Rule. Last August, we also implemented the Small UAS Operations 
Rule. This is one of the world's first comprehensive set of UAS 
regulations.
    There are now over 750,000 registered unmanned aircraft in 
the United States and over 35,000 remote pilots.
    In addition to rulemaking, research is needed to advance 
innovation. We have selected a UAS Research Center of 
Excellence led by Mississippi State University. The COE 
recently conducted some of the world's first research on the 
effects of UAS collisions with people and manned aircraft.
    In addition, all the UAS test sites are now actively 
engaged in offering testing services to the UAS industry. Per 
this committee's direction, we have added New Mexico State 
University as a seventh UAS test site.
    The test sites are also actively engaged with the FAA's 
efforts to evaluate UAS detection systems around airports. 
Virginia Tech supported testing at the Atlantic City Airport. 
The New York test site helped test an FBI detection system at 
JFK. The Nevada and North Dakota test sites flew UAS for 
evaluations at the Denver Airport. And the Texas test site will 
be supporting work at Dallas-Fort Worth this spring.
    The FAA and NASA have established two Research Transition 
Teams to consider future airspace management needs. One of 
these teams is addressing the requirements for low altitude UAS 
Traffic Management or UTM. Initial demonstrations were 
conducted last spring and more comprehensive testing will be 
done this summer.
    We have also been working hard with our UAS Pathfinder 
industry partners, which have successfully demonstrated 
extended and beyond line of sight operations to support 
upcoming rulemaking.
    To further improve stakeholder collaboration, the FAA 
chartered a Drone Advisory Committee. We have asked this group 
to make consensus recommendations to help prioritize and fund 
our integration activities.
    We have also proactively worked with industry to form an 
Unmanned Aircraft Safety Team, which will use UAS data to 
identify safety risks and develop mitigation strategies.
    While the list of FAA accomplishments is long, I also want 
to acknowledge some challenges, including supporting the volume 
of operations and the pace of innovation.
    One of our current focuses is enabling operations beyond 
the Base Part 107 Rule through waivers and airspace 
authorizations. We are working to streamline the online portal 
to improve guidance for our requesters, but the real solution 
is automation. We are collaborating with industry to develop a 
Low Altitude Authorization and Notification Capability which is 
the first building block to fielding the UTM System.
    We know we still have work to do and we are doing our best 
to achieve the right balance between increased operations and 
safety. However, as outlined in our 2016 extension bill, 
Congress also tasked the FAA to address some important security 
issues. One of those tasks is the development of consensus 
standards with industry for remotely identifying UAS and their 
operators.
    We are working with our interagency partners to identify 
their security concerns and at the same time with industry to 
identify potential technological solutions. The next step will 
be to aligning these activities.
    We look forward to continuing the engagement with the 
entire UAS stakeholder community as we move forward with 
enabling the full potential of UAS.
    This concludes my statement. I will be happy to answer your 
questions.
    [The prepared statement of Mr. Lawrence follows:]

    Prepared Statement of Earl Lawrence, Director, Federal Aviation 
     Administration's Unmanned Aircraft Systems Integration Office
    Chairman Thune, Senator Nelson, Members of the Committee:

    Thank you for the opportunity to appear before you today. My name 
is Earl Lawrence, Director of the Federal Aviation Administration's 
(FAA) Unmanned Aircraft Systems (UAS) Integration Office. In this role, 
I am responsible for the facilitation of all regulations, policies, and 
procedures required to support the FAA's UAS integration efforts. I 
also represent the FAA on the Senior Steering Group of the UAS 
Executive Committee focusing on coordination and alignment of efforts 
among key Federal government agencies, and I oversee the Subcommittee 
of the Drone Advisory Committee.
    The Department of Transportation's (USDOT) and FAA's vision for 
fully integrating UAS into the National Airspace System (NAS) entails 
UAS operating harmoniously, side-by-side with manned aircraft in a safe 
and secure manner. This vision goes beyond the accommodation practices 
in use today, which largely rely on operational segregation to maintain 
systemic safety. As we work to realize this vision, the FAA intends to 
work incrementally to introduce UAS into the NAS after careful 
consideration of the safety of people and property both in the air and 
on the ground.
    Two years ago, the FAA appeared before this committee to discuss 
the status of the safe, incremental integration of UAS--more commonly 
referred to as drones--into the NAS, and also into the FAA. In that 
time, we have made significant progress toward our goal of fully 
integrating this new class of aircraft and their operators. This 
progress is the result of significant coordination efforts across the 
FAA. While my office serves as the focal point for external 
stakeholders, almost every policy and support office within the Agency 
has dedicated staff and resources to supporting these integration 
activities. Today, the United States is clearly a global leader in UAS 
integration, and I would like to highlight for you some examples of our 
accomplishments, our challenges, and our ongoing work to build upon our 
successes as we move forward with the next phase of UAS integration.
Small UAS Registration
    Aircraft registration is a foundational statutory requirement that 
applies to all civil aircraft and promotes a culture of accountability. 
At the time of our last discussion, we were experiencing a huge influx 
of new, casual UAS users--people who fly UAS for personal entertainment 
or recreation. Many of these operators do not have the basic aviation 
knowledge, training, or experience required for pilots of traditional 
manned aircraft. Growing concern about reports of UAS flying near 
airports and manned aircraft highlighted the need to educate these 
users about how to operate UAS safely as soon as possible, preferably 
before they began operating small UAS in the NAS.
    We knew at the outset that we would need to work with industry 
stakeholders in order to develop a registration process for small UAS. 
The Secretary of Transportation and the FAA Administrator announced the 
creation of a UAS Registration Task Force on October 19, 2015. This 
Task Force was comprised of industry representatives with a range of 
stakeholder viewpoints, interests, and knowledge. The group met for 
three days in November 2015 to develop recommendations for a small UAS 
registration process.
    After evaluating the Task Force's recommendations and public 
comments, the FAA published an Interim Final Rule on Registration and 
Marking Requirements for Small Unmanned Aircraft on December 14, 2015. 
This rule established a new web-based process for small UAS 
registration, relieving operators of the need to use the legacy paper-
based process, and took effect on December 21, 2015. The requirements 
stipulate that owners must register their UAS online if the combined 
weight of the vehicle and anything it carries is more than 0.55 lbs. 
and less than 55 lbs., and is flown outdoors for either recreational or 
non-recreational purposes, consistent with the statutory requirement 
for aircraft registration. Within the first two weeks of online 
registration opening, over 160,000 UAS owners had registered their UAS.
    The registration process serves two critical functions that will 
help foster a culture of safety, security, and accountability in the 
emerging UAS community. First, it provides a means to associate an 
unmanned aircraft with its owner. This helps law enforcement and 
regulators identify an operator more quickly in the event of an 
incident and ensures operators are aware that they are responsible for 
the safe operation of their vehicle. Secondly, and equally important, 
the registration process provides an opportunity to educate users about 
how to safely operate UAS in the NAS, including instructions to not fly 
near manned aircraft and always fly within visual line-of-sight, as 
well as an acknowledgement that flying in the Nation's airspace comes 
with certain responsibilities and expectations. To date, over 750,000 
small UAS owners have registered, including more than 40,000 in the 
last two weeks of December 2016. The FAA has used the registration 
database on three occasions to provide registrants with important, 
time-sensitive safety information about flying their UAS--during 
Hurricane Matthew, wildfire season, and the Iditarod Great Sled Race.
Small UAS Rule (Part 107)
    Building on the successful launch of the online registration 
system, the FAA adopted a similar approach of engagement and 
collaboration with industry stakeholders in the development of the 
first set of operating rules for small UAS, which forms the bedrock of 
the regulatory framework for full UAS integration. Because UAS 
technology is evolving at a rapid pace, a flexible regulatory framework 
is imperative. Our goal is to provide the basic rules for operators, 
not identify specific technological safety solutions that could quickly 
become outdated. We've achieved this goal with the final small UAS rule 
(14 CFR part 107), which was issued on June 21, 2016 and went into 
effect on August 29, 2016.
    Part 107 introduces a brand new pilot certificate that is specific 
for UAS operations--the Remote Pilot Certificate. Unlike a part 61 
airman certificate (certification for manned aircraft), which 
necessarily has more stringent requirements, an individual can obtain a 
Remote Pilot Certificate by passing an aeronautical knowledge test at 
an FAA-approved testing center. Alternatively, if the individual holds 
a current non-student part 61 airman certificate, the individual may 
complete an online UAS training course in lieu of the knowledge test. 
Approximately 24,000 applicants have taken the Remote Pilot Knowledge 
Exam, and over 91 percent have passed.
    The small UAS rule has also greatly reduced the number of, and the 
need for, Section 333 exemptions, which the FAA used to grant case-by-
case approval for certain unmanned aircraft to conduct commercial 
operations. Before part 107, the primary way to operate a drone for 
non-hobby purposes was to obtain a Section 333 exemption and an 
accompanying Certificate of Waiver or Authorization (COA). The FAA 
issued 5,551 exemptions under Section 333.
    The provisions of Part 107 are designed to minimize risks to other 
aircraft and people and property on the ground, as well as provide the 
UAS industry and operator community with the flexibility to innovate. 
Among other operational limits such as speed and altitude, the 
regulations require pilots to keep an unmanned aircraft within visual 
line-of-sight, fly during daylight hours, and prohibit flights over 
unprotected people on the ground who are not directly involved in the 
UAS operation.
    In keeping with our goal of a flexible framework, part 107 also 
allows operators to apply online for waivers and airspace 
authorizations to fly outside the rule's requirements, provided that 
they demonstrate their proposed operation may be conducted safely. This 
process has been used successfully to issue over 400 waivers and 2,200 
airspace authorizations for UAS operations in controlled airspace, 
including the drone show featured during halftime at this year's Super 
Bowl. Part 107 allows for operations in Class G airspace without prior 
air traffic control authorization; operations in Class B, C, D, and E 
airspace (i.e., controlled airspace) may be permitted with 
authorization from the FAA Air Traffic Organization (ATO).
    The small UAS rule provides UAS operators with unprecedented access 
to the NAS while also ensuring the safety of the skies, and was largely 
well received by the UAS industry. However, it is only the first step 
in the FAA's plan to integrate UAS into the NAS. Consistent with our 
incremental integration strategy, we intend to use a risk-based 
approach to facilitate expanded UAS operations, including operations 
over people, operations beyond visual line-of-sight, and transportation 
of persons and property.
Next Steps and Challenges Ahead
    The FAA's commitment to further expanding permissible UAS 
operations and enabling this emerging technology to safely achieve its 
full potential requires resolving several key challenges. Congress 
recognized a number of these challenges in the FAA Extension, Safety, 
and Security Act of 2016. Before operations beyond visual line-of-sight 
can become routine, FAA must address risks posed by drones to other 
manned aircraft, as well as risks posed by drones during a loss-of-
operator-control event. Additionally, preemption, privacy, enforcement, 
and security--both physical and cyber--remain key issues as UAS 
integration progresses.
Technical Challenges
    One way the FAA is working to address the technical challenges 
presented by increasingly complex UAS operations is to support its UAS 
test sites in conducting critical research. One of the primary goals of 
the test site program is to help the FAA determine technical and 
operational trends that could support safety-related decision making 
for UAS-NAS integration. In 2016, the test sites continued to conduct 
research to validate key operational requirements for UAS integration, 
including research and testing into technology that enables UAS to 
detect and avoid other aircraft and obstacles, investigation of lost 
link causes and resolutions, and evaluation of the adequacy of ATC and 
communications procedures with UAS. Test site activities have also 
explored industry applications of UAS, such as emergency response, 
utility company infrastructure inspection, wildlife census, and 
precision agriculture.
    To complement the work being done at and by the UAS test sites, in 
May 2015 the FAA selected a UAS Center of Excellence (COE), led by 
Mississippi State University and the Alliance for System Safety of UAS 
through Research Excellence (ASSURE). The goal of the UAS COE is to 
create a cost-sharing relationship between academia, industry, and 
government that will focus on research areas of primary interest to the 
FAA and the UAS community. The FAA has received initial research 
results for several research topics, including airborne and ground-
based collision testing, which are currently being peer reviewed by 
both internal and external research teams. This work fits into the 
FAA's overall UAS research and development portfolio, which is 
primarily focused on applied research to support the development of 
rules, policies, and procedures.
    To keep pace with the rapid increase in the number of UAS 
operations, and to pave the way for the full implementation of beyond 
visual line-of-sight operations, FAA is working with the National 
Aeronautics and Space Administration (NASA) and industry to develop and 
eventually deploy a UAS Traffic Management (UTM) System. NASA's 
research concept specifically considers small UAS operations below 400 
feet, in airspace that contains low-density manned aircraft operations. 
NASA has developed a phased approach for their UTM concept, building 
from rural to urban and from low to high-density airspace. In April 
2016, NASA coordinated with the six FAA-selected test sites to perform 
phase one testing of the UTM research platform. A Research Transition 
Team (RTT) has been established between the FAA and NASA to coordinate 
the UTM initiative, as the concept introduces policy, regulatory, and 
infrastructure implications that must be fully understood and addressed 
before moving forward with technology deployment. Additionally, the UTM 
work with NASA will inform our efforts with respect to UAS operating in 
proximity to airports. A second RTT has also been established with 
NASA, which is focused on UAS operating in higher altitude and 
controlled airspace, as opposed to the UTM initiative, which focuses on 
operations in low altitude managed airspace.
Security and Enforcement
    As Congress recognized in the 2016 FAA Extension, the security 
challenges presented by UAS technology require a whole-of-government 
response. The FAA is working with several departments and agencies--
including the Department of Justice, Department of Homeland Security, 
Department of Defense, and others--to identify and evaluate 
technologies that detect and track unmanned aircraft movement through 
the NAS. However, technologies to detect and track unmanned aircraft 
movement through the NAS are only one part of the equation to address 
the security challenges presented by evolving UAS technologies. To 
adequately secure and protect the airspace we must continue to educate 
the public on the safe operation of UAS and work with our law 
enforcement partners at every level of government in responding to 
incidents involving threats from UAS.
    We also continue to work closely with our industry partners to 
evaluate these promising drone-detection technologies. As directed in 
Section 2206 of the 2016 FAA Extension, the FAA has established a pilot 
program to evaluate some of these technologies, which have been tested 
in airport environments at New York's JFK Airport, Atlantic City 
International Airport, and Denver International Airport. Further 
testing will take place at Dallas-Fort Worth later this year. In 
addition, the FAA is working with interagency partners to develop 
policies and procedures for restricting UAS operations over fixed site 
facilities, as directed by Section 2209 of the 2016 FAA Extension.
    The potential for conflicts between manned and unmanned aircraft 
has become a very real challenge in integrating these new technologies 
into the NAS. We are seeing an increased number of drone-sighting 
reports from pilots of manned aircraft, with approximately 1,800 
reports of sightings in 2016, compared to 1,200 reports the year 
before. As the Federal agency responsible for the safety of the flying 
community, the FAA remains concerned about the increasing number of 
these reports. To begin addressing this issue, we are actively engaging 
in public education and outreach efforts, such as ``Know Before You 
Fly'' and the small UAS registration process.
    Sometimes, however, education is not enough. If an unauthorized UAS 
operation is intentional, creates an unacceptable risk to safety, or is 
intended to cause harm, strong and swift enforcement action will be 
taken. Recently, we announced a comprehensive settlement agreement with 
a UAS operator that violated airspace regulations and aircraft 
operating rules by flying drones in congested airspace over New York 
City and Chicago. However, one of the enforcement challenges we often 
face is identifying the operator of a UAS flying where it shouldn't. 
This Committee has recognized that challenge with Section 2202 of the 
2016 FAA Extension, which directs the FAA to convene industry 
stakeholders to develop consensus standards for remotely identifying 
UAS operators. We plan to begin convening stakeholders this spring.
    Continued engagement with the law enforcement community is 
paramount to ensuring public safety. In January 2015, the FAA published 
guidance for the law enforcement community on its UAS Website, and has 
been actively engaging with law enforcement agencies at local, State, 
and Federal levels to reduce confusion about how to respond to UAS 
events. The FAA encourages citizens to call local law enforcement if 
they feel someone is endangering people or property on the ground or in 
the sky. Local law enforcement should then work with local FAA field 
offices to ensure these safety issues are addressed.
Continued Engagement with Industry
    As the FAA moves forward with UAS integration, we will continue to 
involve all stakeholders in framing challenges, prioritizing 
activities, and developing consensus solutions. By leveraging this 
expertise, we ensure that the FAA maintains its position as the global 
leader in aviation safety. Last summer, we formed the Drone Advisory 
Committee (DAC). Its members include representatives from industry, 
government, labor, and academia. The DAC will allow us to look at drone 
use from every angle, while considering the different viewpoints and 
needs of the diverse UAS community.
    The first DAC meeting was held in September 2016 and its members 
have already started to work on assisting us in two key areas: 
identifying the roles and responsibilities of drone operators, 
manufacturers, and Federal, state, and local officials related to drone 
use in populated areas; and determining what the highest-priority UAS 
operations are and how we can enable access to the airspace needed to 
conduct these operations. The FAA recently created a new tasking 
concerning a third key area: how to fund the full complement of 
services required to safely integrate UAS operations into the NAS in 
the long-term. We look forward to receiving and reviewing the DAC's 
recommendations.
    In October 2016, we also began working with industry to form an 
Unmanned Aircraft Safety Team (UAST), modeled after the very successful 
Commercial Aviation Safety Team (CAST). This group's mission is to 
collect and use UAS operational data to identify safety risks, and then 
develop and voluntarily implement mitigation strategies to address 
those risks. The group is currently working on several projects, 
including helping the FAA develop a survey to the UAS operator 
community.
    Apart from our work with the DAC and the UAST, the FAA held its 
first UAS symposium in Daytona Beach, Florida in April last year. The 
symposium provided a forum for UAS stakeholders to provide feedback 
directly to FAA decision-makers on topics related to UAS integration. 
Nearly 500 attendees heard keynote remarks from the FAA Administrator 
and Deputy Administrator, and participated in discussions on topics 
ranging from aircraft and pilot certification to legal and policy 
issues related to UAS operations and integration.
    Our second UAS symposium will be held in the Washington, D.C. area 
on March 27-29, 2017. Conversations will touch on the more significant 
challenges that integration presents, including the intersection of 
privacy and preemption, the importance of harmonizing international 
regulations, and the array of new safety and security risks associated 
with increased UAS operations. The symposium will also have a Resource 
Center to provide attendees with one-on-one technical support on 
authorizations, waivers, Part 107 requirements, and other policies and 
regulations.
Building on Our Success
    Moving forward, we intend to build on the progress that we have 
made this past year with two notable initiatives currently underway. We 
are developing a Low Altitude Authorization and Notification Capability 
(LAANC) to automate the process for UAS operators to notify Air Traffic 
Control of flights within five miles of an airport center or to get 
authorization to fly in certain classes of airspace. This initiative 
will be the first step toward implementing UTM. As part of LAANC, the 
FAA will publish UAS facility maps that indicate likely safe altitudes 
for UAS flight and distances around airports. Industry applications 
will facilitate interaction with the maps and may provide automatic 
notification to the FAA and operational authorization to UAS operators 
through data exchange. Data received by the FAA may be used by Air 
Traffic Control to contact the operator in the event of an emergency. 
On February 1, 2017, the FAA held the first in a series of industry 
workshops to discuss this initiative in greater detail, and recently 
released a sample of 10 facility maps to the industry partners involved 
in LAANC.
    The second initiative is to develop an integrated gateway--a common 
web portal and associated API--that will serve as a one-stop-shop for 
all UAS interactions with the FAA. It will allow UAS owners and 
operators to register their aircraft, apply for an airspace 
authorization or waiver, file an accident report, and keep abreast of 
the latest FAA news and announcements concerning UAS. This gateway will 
be designed for desktops, laptops, tablets, and phones, and will serve 
as the platform for future communications with the FAA as UAS rules and 
regulations evolve.
Conclusion
    The progress that we have made, in particular during the past year, 
might have seemed unimaginable not long ago. From the beginning, we 
knew that we had to engage our stakeholders, and it paid off with the 
creation of a UAS registry and the successful implementation of a 
flexible regulatory framework to enable routine small UAS operations. 
Our collaborative working relationships with the DAC and UAST will help 
inform and prioritize integration activities, ensure we remain engaged 
with industry trends, and maintain clear channels of communication to 
convey expectations and solicit feedback. We know, however, that these 
accomplishments are only the first step. As reinforced in the 2016 FAA 
Extension, there are many important issues yet to be addressed and we 
will continue to work with our stakeholders as we move forward.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    The Chairman. Thank you very much, Mr. Lawrence.
    Ms. Cooper.

  STATEMENT OF DIANA MARINA COOPER, VICE PRESIDENT, LEGAL AND 
 POLICY AFFAIRS, PRECISION HAWK USA INC. AND PRESIDENT, SMALL 
                         UAV COALITION

    Ms. Cooper. Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee.
    Thank you for calling this important hearing and for the 
invitation to testify.
    While the Federal Aviation Administration has made great 
strides to facilitate the growth of the commercial UAS 
industry, we are at a critical juncture and I appreciate the 
opportunity to discuss today steps that Congress can take to 
ensure that the United States realizes the immense economic 
potential of this nascent industry and remains the world leader 
in UAS technology.
    Part 107 is merely a first step toward the comprehensive, 
forward leaning, and risk-based regulatory framework that the 
United States needs to attract investment in UAS in an 
increasingly competitive global market.
    I would also like to thank the Small UAV Coalition for the 
opportunity to represent our members, which range from 
innovative startups like Airmap and Kaspry, to large public 
companies like Amazon, Google[X], Intel, and Verizon. Our 
members are making significant contributions to the American 
economy and creating the jobs of the future.
    PrecisionHawk is emblematic of the vast potential of the 
commercial UAS industry. We provide an end-to-end commercial 
UAS platform and have conducted UAS operations for customers 
across many states including South Dakota, Florida, Colorado, 
Illinois, Indiana, Kansas, Minnesota, and Wisconsin.
    Across America, individual farmers and large agri-
businesses are leveraging UAS for precision agriculture and 
PrecisionHawk is proud to make its solutions accessible across 
this key sector of the American economy.
    A solution we developed with aerospace company Leonardo 
allows farmers to detect nitrogen levels in corn crops reducing 
costs and maximizing yield.
    Another application, which we developed with Illinois-based 
Archer Daniels Midland, helps adjusters estimate water damage 
and process claims faster for farmers who have experienced 
unexpected yield loss. These solutions are delivering value to 
a critical area of the American economy that is continually 
facing new challenges.
    PrecisionHawk is pleased to serve as an integral partner in 
the FAA's Pathfinder program through which we are collecting 
safety data, developing operational standards, and testing 
technologies with Kansas State University to support the safe 
introduction of extended and beyond line of sight operations 
into the national airspace.
    PrecisionHawk, and several of the Small UAV Coalition 
members, are proud to participate in NASA's Unmanned Traffic 
Management, or UTM program. UTM refers to an automated UAS 
traffic management system for low altitude airspace and without 
it, our industry cannot reach its full economic potential.
    In addition to these R&D efforts, companies like 
PrecisionHawk have already commercialized components of UTM. 
Our LATAS system provides real time notification to UAS 
operators of manned aircraft operating in their vicinity to 
enable collision avoidance.
    I would like to thank the Committee for directing the FAA 
to initiate a two-year UTM pilot program by April 2017. This 
effort represents a step in the right direction. However, it 
should be augmented by a commitment to implement a nationwide 
UTM system within a specific timeframe.
    UTM implementation will not only begin to safely and 
efficiently introduce routine beyond line of sight operations 
and open up the airspace to new applications, such as package 
delivery, but also address security and privacy concerns.
    The FAA was scheduled to publish a Notice of Proposed Rule 
Making for commercial operations over people by the end of 
2016, but the proposed rule has unfortunately been put on hold 
indefinitely due to national security concerns that have not 
been identified to industry.
    We have worked with the FAA on safety issues and we would 
like the opportunity to work with the FAA and other agencies to 
demonstrate technologies that can mitigate security concerns.
    Without new regulations and a long-term vision for UAS 
integration, our industry in the United States will stall, and 
other countries will assume the mantle of leadership in this 
rapidly developing technology.
    Thank you again for holding this hearing and for the 
opportunity to testify. We appreciate Congress' pivotal role in 
ensuring that the United States fosters the massive economic 
potential of commercial UAS technology and preserves American 
leadership in this industry that touches so many vital sectors 
of the economy.
    We look forward to continuing to work with all stakeholders 
to expedite the development of a comprehensive regulatory 
framework that will allow for the safe and efficient 
integration of UAS into the national airspace.
    [The prepared statement of Ms. Cooper follows:]

Prepared Statement of Diana Marina Cooper, Vice President of Legal and 
   Policy Affairs, Precision Hawk USA Inc. and President, Small UAV 
                               Coalition
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for calling this important hearing on the 
future of unmanned aircraft systems (UAS) and for the invitation to 
testify on behalf of Precision Hawk USA Inc. (``PrecisionHawk'') and 
the Small UAV Coalition. While the Federal Aviation Administration 
(FAA) has taken steps to facilitate the growth of the rapidly 
developing commercial UAS industry, we are at a critical juncture and I 
appreciate the opportunity to discuss today steps Congress can take to 
ensure that the United States realizes the immense economic potential 
of this still nascent industry, and remains the world leader in UAS 
technology. If we do not act quickly, we risk ceding ground to other 
countries that are rapidly embracing this technology, as well as the 
economic, consumer, humanitarian, and environmental benefits that it is 
already delivering.
    I would also like to thank the Small UAV Coalition \1\--the first 
group of its kind focused solely on commercial UAS operations--for the 
opportunity to represent our members, which range from small startups 
to large public companies that are making significant contributions to 
the American economy and creating the jobs of the future. For more than 
two years, the Coalition and its members worked with policymakers and 
regulators to help shape the development of the first regulatory 
framework for commercial UAS operations. We look forward to continuing 
to engage with the Federal government to accelerate development of 
additional regulations that will enable the growth of this industry 
while meeting the highest expectations of safety and security.
---------------------------------------------------------------------------
    \1\ Members of the Small UAV Coalition are Airmap, Amazon Prime 
Air, Google[X], Intel, Kespry, PrecisionHawk, Verizon Ventures, 
Aerwaze, AGI, Flirtey, Fresh Air Educators, T-Mobile, and Walmart.
---------------------------------------------------------------------------
    PrecisionHawk is emblematic of the vast potential of the commercial 
UAS industry. Headquartered in North Carolina with another office in 
Indiana, we provide a sophisticated end-to-end commercial UAS platform 
and have flown UAS for customers across many states, including South 
Dakota, Florida, Colorado, Illinois, Indiana, Kansas, Minnesota, North 
Dakota, and Wisconsin. The potential of UAS is reflected in investments 
we have received from Intel Capital Corporation, Verizon Ventures LLC, 
USAA Property Holdings, Inc., Pioneer Hi-Bred International Inc., and 
Indiana University Foundation, Inc. In 2016, the World Economic Forum 
named PrecisionHawk among the Top Technology Pioneers, and this year we 
are proud to be ranked among the Top 100 Global Cleantech Companies by 
the Cleantech Group.
Leveraging Technology To Grow the American Economy
    PrecisionHawk's commercial UAS platform enables American businesses 
to create efficiencies and maximize revenue. Our customers traverse a 
wide range of industries that are vital to the American economy, from 
construction to energy and insurance. The near-term potential benefits 
of UAS are perhaps most apparent, however, in the agriculture sector, 
the first sector in which we developed core expertise seven years ago 
when our company was founded. One recent report estimates the value of 
the global market for UAS solutions at more than $127 billion, with 
$32.4 billion attributable to agriculture alone.\2\
---------------------------------------------------------------------------
    \2\ Clarity from above: PwC global report on the commercial 
applications of drone technology.
---------------------------------------------------------------------------
    Across America, individual farmers and large agri-businesses are 
already leveraging UAS for precision agriculture and PrecisionHawk is 
proud to make its solutions accessible to customers across this key 
sector of the American economy. UAS provide a low-cost, efficient, and 
easy to implement solution that allows farmers to gain valuable 
insights that translate into increased revenue potential.
    Today, farmers are using PrecisionHawk's UAS platform to obtain 
precise real-time data about their crops, fields, and harvests. Our 
platform allows farmers to create flight plans and generate 2D and 3D 
maps, which are in turn analyzed to detect plant count, plant height, 
vegetative health, waterpooling, and much more. The results inform 
planting decisions and indicate early warnings of threats encroaching 
on crops, such as water pressures, nitrogen deficiencies, disease, and 
insect infestations. This critical data allows farmers to provide 
localized interventions that decrease the cost of farming operations 
and reduce environmental impact.
    Among our agriculture solutions is an application we developed with 
Leonardo that allows farmers to detect nitrogen levels in corn crops. 
While nitrogen deficiency reduces yield, an oversupply of this 
expensive input significantly increases the cost of an operation. Our 
solution helps farmers determine precisely when, where, and how much 
nitrogen is needed, and in doing so, promotes increased profitability. 
Another application, which we developed with Archer Daniels Midland, 
detects standing water in fields. This solution is a valuable tool that 
helps adjusters quickly estimate water damage and process claims faster 
for farmers who have experienced unexpected and potentially significant 
yield loss. These use cases are reducing costs, promoting productivity, 
and bringing valuable solutions to a critical area of the American 
economy that is continually facing new challenges.
Public-Private Partnerships Support Safe and Expedited UAS Integration
    PrecisionHawk is proud to participate in a number of government-
industry collaborative efforts to expedite the safe integration of UAS 
into the national airspace. One of these key initiatives centers on 
unmanned traffic management (UTM), an automated UAS traffic management 
system for low-altitude airspace. Without UTM, our commercial UAS 
industry cannot reach its full economic potential or provide its full 
range of potential goods and services to consumers. UTM promotes the 
safe and seamless integration of UAS into the national airspace and 
enables operations over people and beyond the visual line of sight 
(BVLOS). An important component of a UTM is the ability to--in real-
time--remotely identify and authenticate a UAS operator. When we are 
able to identify, track, and authenticate users operating in the 
airspace, we will have the necessary architecture in place to identify 
and hold accountable rogue operators engaging in unlawful activity and 
to meet the highest expectations of security and privacy.
    NASA has for years partnered with industry--including PrecisionHawk 
and many other Small UAV Coalition members--to conduct valuable 
research and has developed meaningful insights into UTM architecture 
and functionality. In addition to these research and development (R&D) 
efforts, companies like PrecisionHawk have already commercialized 
components of UTM. Our LATAS system provides real-time notification to 
UAS operators of manned aircraft operating in their vicinity to allow 
for collision avoidance.
    The Small UAV Coalition was pleased to see Congress embrace the 
need for UTM in the 2016 short-term FAA extension. Section 2208 directs 
the FAA to develop and provide Congress with a research plan for UTM by 
January 2017 and to initiate a two-year pilot program by April. The FAA 
has established a Research Transition Team (RTT) to promote transfer of 
knowledge related to NASA's UTM research. This effort represents a 
positive step in the right direction. However, it should be augmented 
by a commitment to initiate and complete the pilot program within the 
congressionally-mandated timeline and to implement a nationwide UTM 
system within a specific timeframe.
    Based on the extensive data provided by NASA's R&D efforts, the 
forthcoming FAA pilot program, and industry products already in the 
field, we believe that a UTM system can be introduced in a phased 
approach around the country, based on the varying operating 
environments. We respectfully request that Congress expedite the safe 
integration of UAS by mandating that a UTM system be established in 
stages within a concrete timeline. A phased UTM implementation will not 
only begin to safely and efficiently introduce routine BVLOS operations 
and open up the airspace to new applications such as package delivery, 
but also address security and privacy concerns.
    In addition to participating in NASA's UTM research, PrecisionHawk 
is also proud to be an original partner in the FAA's Pathfinder 
program. Through this program, we are collecting data, developing 
operational standards, and testing technologies to support the safe 
introduction of extended and beyond line of sight UAS operations into 
the national airspace. Much of our Pathfinder research has been 
conducted in conjunction with Kansas State University, a member of the 
FAA Center of Excellence for UAS. We are currently conducting our third 
phase of research under the Pathfinder program, which is focused on 
creating a safety case for conducting localized BVLOS operations using 
technology to mitigate safety risks. This data will be a valuable asset 
to the FAA as it prepares a forthcoming notice of proposed rulemaking 
(NPRM) for expanded operations, including those beyond the visual line 
of sight. We hope that it will also inform the FAA's ability to grant 
BVLOS waiver applications under the current regulatory framework. To 
date, only three such waivers have been approved since the process 
opened over six months ago, including one granted to PrecisionHawk.
    Beyond our partnerships with NASA and Pathfinder, PrecisionHawk is 
a proud member of the FAA Drone Advisory Committee and the FAA Unmanned 
Aircraft Safety Team. We also participated in the National 
Telecommunications and Information Administration multistakeholder 
process to develop industry-led, voluntary best practices for UAS 
privacy, transparency, and accountability. The Small UAV Coalition, 
PrecisionHawk, and many others in the commercial UAS industry were 
pleased to support the consensus best practices that balance privacy 
rights with the need to protect U.S. innovation and economic 
competitiveness.
Preserve American Competitiveness by Expediting a Risk-Based 
        Regulatory Framework
    The commercial UAS industry was pleased to see the FAA implement 
its long-awaited Small UAS Rule, commonly known as Part 107, on August 
29, 2016. Part 107 ended the categorical prohibition on commercial UAS 
operations unless approved through a lengthy and burdensome exemption 
process and is allowing businesses to leverage UAS technology to 
generate revenue and provide more services to customers. However, 
commercial UAS technology--as is the case with many rapidly developing 
sectors of the 21st century economy--is evolving at a pace that has 
exceeded regulations. Part 107 is just the first step towards the 
comprehensive, forward-leaning, and risk-based regulatory framework 
that the United States needs to continue to attract investment in this 
technology and create jobs for American workers in an increasingly 
competitive global market.
    The United States' ability to fully realize the vast economic and 
consumer potential of commercial UAS technology is dependent upon 
future regulatory actions that will permit advanced operations 
currently prohibited or allowed only through burdensome waiver or 
exemption processes. The status quo imposes significant opportunity 
costs on American businesses and individuals who are prohibited from 
receiving the benefits of commercial UAS operations over people and 
beyond the visual line of sight.
    The FAA was scheduled to publish an NPRM for commercial operations 
over people by the end of 2016, but the proposed rule has unfortunately 
been put on hold indefinitely due to national security concerns that 
have not been identified to industry. The UAS industry has not been 
able to open dialogue with the appropriate agencies to discuss 
potential solutions to address these concerns and move the rulemaking 
forward. While national security concerns are of utmost importance, it 
would be unfortunate if the progress of our commercial UAS industry is 
jeopardized due to concerns that do not implicate the commercial 
sector.
    Further, the longer this rulemaking is delayed, the longer industry 
and consumers will have to wait for additional rulemakings, including 
one to permit expanded operations beyond the visual line of sight. 
BVLOS operations are particularly important in the agriculture sector, 
though also vitally important in other applications that will benefit 
the public interest. Operations over people and beyond the visual line 
of sight will significantly enable and improve response times of search 
and rescue, firefighting, and natural disaster response and recovery 
missions.
    Without these rulemakings, the UAS industry in the United States 
will stall and other countries will assume the mantle of leadership in 
this rapidly developing industry. Congress can ensure that this does 
not happen by working with the FAA to expedite regulations that will 
realize the immense safety, economic, and social benefits of commercial 
UAS.
Innovation Hangs in the Balance
    Thank you again for holding this hearing and for the opportunity to 
testify on behalf of PrecisionHawk and the Small UAV Coalition. 
Congress has a pivotal role in ensuring that the United States embraces 
the massive economic potential and consumer benefits of commercial UAS 
technology and preserving American leadership in this rapidly 
developing industry that touches so many vital sectors of the economy. 
We look forward to continuing to work with Committee members, the FAA, 
and all stakeholders to expedite the development of a comprehensive 
regulatory framework that will allow for the safe and efficient 
integration of UAS into the national airspace.

    The Chairman. Thank you, Ms. Cooper.
    Mr. Fowke, you should have an interesting perspective on 
this issue. So I look forward to hearing from you next.

         STATEMENT OF BEN FOWKE, CHAIRMAN, PRESIDENT, 
            AND CHIEF EXECUTIVE OFFICER, XCEL ENERGY

    Mr. Fowke. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee for the invitation to 
speak at this important hearing.
    My name is Ben Fowke, and I am the CEO of Xcel Energy, and 
we are an integrated energy company serving 3.5 million 
electric customers and 2 million natural gas customers across 
eight Western and Midwestern States. We are headquartered in 
Minneapolis, Minnesota. We have a balanced energy mix that 
includes natural gas, coal, nuclear, and renewables. In fact, 
we are the Nation's number one wind energy provider with more 
than 8,000 megawatts on our system.
    A big part of my job is ensuring that we can protect our 
electric and gas system from natural disasters and criminal 
attacks. I am also a member of the National Infrastructure 
Advisory Council where I join with other leaders in the private 
sector to advise the President on ways that the Nation can 
protect its critical infrastructure.
    So for that reason, I am delighted this morning to talk 
about our experience using Unmanned Aircraft Systems, or UAS, 
to protect electric infrastructure and advance our mission of 
safely delivering reliable energy to our customers.
    In 2013, we started using UAS to inspect boilers at various 
power plants in Minnesota and Colorado. We later expanded the 
use of this technology outdoors to inspect other 
infrastructure, including energized substations, transmission 
lines, wind farms, and natural gas pipelines.
    In February 2016, Xcel Energy became the first utility in 
the Nation to fly a research and development mission that was 
beyond the operator's line of sight. The research flights 
assessed 22 miles of transmission lines near Amarillo, Texas.
    And last year, we also began a research project in 
partnership with the state of North Dakota, the University of 
North Dakota, and others to use UAS technology to assess damage 
after severe weather events.
    Based on our early experiences, we see great potential for 
using UAS technology in our industry to enhance safety, 
efficiently facilitate infrastructure inspection, and improve 
storm recovery.
    For example, some of our transmission lines run through 
inaccessible, mountainous terrain in Colorado. For years, we 
could only access those transmission lines by helicopter or by 
foot, both of which are expensive and increase risk of injury.
    UAS technology can help us safely inspect these remote 
transmission lines, identify problems, and restore service more 
quickly and with less impact on the environment. UAS data is 
also more robust and accurate than traditional inspection 
methods and can be attained at a fraction of the cost. We 
estimate UAS inspection can reduce the cost of inspecting our 
transmissions lines to $200 a mile versus the $1,200 a mile 
using helicopter technology.
    Xcel Energy is committed to helping policymakers capture 
the benefits of this technology while protecting public safety. 
And I want to thank this committee for working so hard to enact 
the FAA reauthorization legislation last year.
    In particular, we thank you for including Sections 2204, 
2207, and 2210 in the final legislation. These Sections clearly 
signal to the FAA that protection and maintenance of critical 
infrastructure in the utility sector must be a focus of UAS 
policy. Electricity and natural gas are essential services to 
the American people, and we believe it is appropriate for 
Federal policy to recognize that utilities warrant different 
regulatory treatment than commercial users of UAS.
    We have two priorities as regulations are further 
developed. First, expanding the authority of utilities to use 
UAS in beyond visual line of sight operations so we can more 
fully capture the benefit of this technology.
    And second, to prevent unauthorized use of UAS around our 
critical infrastructure. I will give you an example on that 
last point. Last May, an unauthorized UAS accidently landed in 
one of our substations in the Denver area. Had it landed any 
closer to our energized equipment, just a few feet away, and we 
could have easily had a power outage that would have impacted 
20,000 customers.
    Preventing unauthorized use of UAS around critical 
infrastructure is a broadly shared goal. The Committee 
recognized this, and included language in Section 2209 of the 
FAA law to establish a process to apply for restrictions around 
fixed site critical infrastructure, and we look forward to 
working with the FAA to implement this required rule.
    Fortunately, we are making progress toward achieving both 
of our UAS priorities. In January of this year, Xcel Energy 
entered into the first of its kind partnership with the FAA to 
help inform the regulatory process and to demonstrate the safe 
operation of UAS technology to inspect critical infrastructure.
    The agreement, known as the Partnership for Safety Plan, 
involves using UAS to inspect more than 20,000 miles of Xcel 
Energy transmission lines in ten states.
    Over the next 24 months, the FAA and Xcel Energy will be 
working together to develop safety measures, gather data, and 
evaluate outcomes. We hope this partnership will further the 
development of policies that unleash the game changing 
potential of safe and routine beyond visual line of sight 
operations.
    So thank you again for the opportunity to be here with you 
today, and I look forward to any questions you might have.
    [The prepared statement of Mr. Fowke follows:]

 Prepared Statement of Ben Fowke, Chairman of the Board, President and 
                  Chief Executive Officer, Xcel Energy
    Thank you, Chairman Thune, Ranking Member Nelson, and members of 
the Committee for the invitation to speak at this important hearing.
    My name is Ben Fowke, and I am the CEO of Xcel Energy, an 
integrated energy company serving 3.5 million electric customers and 2 
million natural gas customers across eight Western and Midwestern 
states. Headquartered in Minneapolis, Minnesota, we have a balanced 
energy mix that includes natural gas, coal, nuclear and renewables. We 
are also the Nation's No. 1 utility wind energy provider with more than 
8,000 megawatts on our system.
    A big part of my job is ensuring that we can protect our power 
plants, transmission lines, substations and the rest of the electric 
system from natural disasters and criminal attacks. I am also a member 
of the National Infrastructure Advisory Council where I join with other 
leaders in the private sector to advise the President on ways that the 
Nation can protect its critical infrastructure. For that reason, I am 
delighted this morning to talk about our experience using unmanned 
aerial systems, or UAS, to protect electric infrastructure and advance 
our mission of safely delivering reliable energy to our customers.
    Beginning in 2013, we started using UAS to inspect boilers at 
various power plants in Minnesota and Colorado. We later expanded the 
use of this technology outdoors to inspect other infrastructure, 
including energized substations, transmission lines, wind farms and 
natural gas pipelines.
    In February of 2016, Xcel Energy became the first utility in the 
Nation to fly a research and development mission that was beyond the 
operator's line of sight. The research flights used two different types 
of UAS--fixed wing and rotor-style--and assessed 22 miles (32 km) of 
69-kV transmission line near Amarillo, Texas.
    Last year we also began a research project in partnership with the 
state of North Dakota, the University of North Dakota, and other 
partners, to use UAS technology to assess damage after severe weather 
events. Under that project, disaster scenarios were staged throughout 
the City of Mayville, ND that simulated causes of power outage. We used 
different types of UAS to test the best way to survey and assess damage 
in order to restore service.
Benefits of UAS Technology
    Based on our early experiences, we see great potential for using 
UAS technology in our industry to enhance safety, efficiently 
facilitate infrastructure inspection, and improve storm recovery.
    For example, Xcel Energy serves parts of the Colorado Rocky 
Mountains, including some of the most rugged and remote country in 
America. Our transmission lines run through inaccessible, mountainous 
terrain. For years, we could access those transmission lines only by 
helicopter or on foot, both of which are expensive and increases risk 
of injury. UAS technology can help us inspect these remote transmission 
lines, identify problems and restore service more quickly and with less 
impact on the environment.
    There are clear savings opportunities for our customers as well. 
When beyond-line-of-sight UAS operations become available, we estimate 
using UAS for transmission line inspection will cost a fraction of 
traditional methods--about $200 per mile using UAS as compared to 
$1,200 a mile with a manned helicopter or $300-$600 with foot patrol 
inspections. In addition to being less costly, UAS data is more robust 
and accurate than the traditional inspection methods.
    UAS technology will also improve efficiency and safety within our 
power plants. Our largest power plants include boilers and other 
equipment that are ten stories tall and difficult to access, and 
inspection and maintenance of these facilities is challenging. We have 
recently conducted more than 30 UAS indoor inspection flights, and the 
benefits of the technology are obvious: we save money and can maintain 
our equipment more safely. UAS technology allows us to avoid building 
scaffolds, and exposing workers to heights and hazardous environments. 
We conservatively estimate direct savings for each plant that uses UAS 
inspections at almost $1 million over two years.
    Xcel Energy is committed to helping policymakers capture the 
benefits of this technology while protecting public safety.
2016 FAA Reauthorization
    I want to thank this Committee for working so hard to enact the FAA 
reauthorization legislation last year. That legislation included 
language that recognized the great potential of UAS technology for the 
utility sector.
    I want to highlight a couple of provisions in particular:

  <bullet> Sections 2204 and 2207 allow the FAA to facilitate the 
        expeditious authorization of UAS use to support utility service 
        restoration efforts. This authority was used in the aftermath 
        of Hurricane Matthew in October 2016. In that case, two 
        electric companies received permission to fly within hours of 
        their request to assess damage.

  <bullet> Section 2210 allows the FAA to approve the use of UAS beyond 
        visual-line-of-sight day or night to inspect, repair, 
        construct, maintain, and protect critical infrastructure. This 
        provision specifically includes pipelines and all aspects of 
        the electric power system-generation, transmission, and 
        distribution.

    We thank this committee for including these important sections in 
the bill last year, which clearly signal to the FAA that protection and 
maintenance of critical infrastructure in the utility sector must be a 
focus of UAS policy. UAS technology can be invaluable to the safe and 
efficient operation of the Nation's power system. Electricity and 
natural gas are essential services to the American people, and we 
believe it is appropriate for Federal policy to recognize that 
utilities warrant different regulatory treatment than other commercial 
users of UAS.
    We have two priorities as regulations are further developed:

  <bullet> First, expanding the authority of utilities to us UAS in 
        beyond-visual-line-of-sight operations so we more fully capture 
        the benefit of this technology in our industry.

  <bullet> Second, preventing unauthorized use of UAS around our 
        critical infrastructure.

    On the second point, let me give you an example of the kinds of 
threats that we may face with unauthorized use of UAS. Last May, an 
unauthorized UAS landed in one of our substations in the Denver area. 
Although the UAS in this circumstance flew into the substation by 
accident, had it landed any closer to our energized equipment, just a 
few feet away, it could have easily caused a power outage affecting 
more than 20,000 customers. A malicious attack by a UAS could have 
catastrophic consequences.
    As it stands today, the rules of the engagement are unclear at best 
as to what companies should do when unauthorized drones pose a threat. 
More work must be done to educate public sector first responders, as 
well as the private sector--especially critical infrastructure 
industries. There are also policy and regulatory hurdles in existence 
that limit counter drone technology from being widely available, legal, 
and effective.
    Preventing unauthorized use of UAS around critical infrastructure 
is a broadly shared goal. The committee recognized this, and included 
language in Section 2209 of the FAA law to establish a process to apply 
for restrictions around fixed site critical infrastructure. To comply 
with the law, FAA is developing an interim process in advance of a 
required rulemaking. We are interested in the outcomes of both the 
interim process and the final rule and will work closely with FAA, in 
coordination with our trade association, EEI, to ensure the best 
possible outcome.
Partnership for Safety Plan
    Fortunately, working with the FAA, we are beginning to make 
progress toward achieving both of our UAS priorities. In January of 
this year, Xcel Energy entered into a first-of-its-kind safety 
partnership with the FAA to help inform the regulatory process and to 
demonstrate the safe operation of UAS technology to inspect critical 
infrastructure.
    This agreement, known as the ``Partnership for Safety Plan,'' 
involves using UAS to inspect more than 20,000 miles of Xcel Energy 
transmission lines in 10 states.
    Over the next 24 months the FAA and Xcel Energy will be working 
together to plan and develop safety measures, gather data, and evaluate 
outcomes.
    This research will examine ways to enable safe flight over people 
and roads using ``sense and avoid'' and ``command and control'' and 
other technologies. This research will also look at communication needs 
to support long-range beyond-visual-line-of-sight operation. I've 
included the full MOU in my written statement, which includes more 
detail on the partnership.
    We hope this partnership will further the development of policies 
that unleash the game-changing potential of safe and routine beyond-
visual-line-of-sight operations.
    As you consider the Federal policy issues affecting this emerging 
technology, I look forward to working with you and the FAA to ensure we 
are able to use UAS to improve emergency response, enhance safety, 
increase reliability and help protect the Nation's electric grid.
    Thank you again for the opportunity to be with you today. I would 
be happy to answer any questions.

    The Chairman. Thank you, Mr. Fowke.
    Mr. Schulman.

STATEMENT OF BRENDAN SCHULMAN, VICE PRESIDENT, POLICY AND LEGAL 
                 AFFAIRS, DJI TECHNOLOGY, INC.

    Mr. Schulman. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee.
    I applaud the Committee for holding this hearing at this 
important time in the development of drone technology. DJI is 
the world's largest manufacturer or professional and personal 
UAS. We firmly believe that the balanced regulatory approach 
that the United States has taken has been essential to 
innovation and growth in our industry.
    I have provided written testimony to you. I would like to 
highlight three items of good news.
    First, the industry is leading the way on safety and has 
been for years. DJI takes safety very seriously. Anticipating 
the importance of protecting airspace near airports, we 
incorporated geo-fencing technology into our products 4 years 
ago. Geo-fencing automatically prevents our drones from taking 
off within, or flying into, sensitive areas such as airports or 
nuclear plants.
    We include many other safety features such as maximum 
altitude limitations, automatic lost signal return to home, and 
computer vision collision avoidance.
    All of that technology is packed into a portable product. I 
have brought our Mavic Pro drone here with me today. It weighs 
about a pound and a half and folds up into the size of a water 
bottle. DJI's products are the top choice of both professional 
and personal drone operators. So when we update a safety 
feature, it quickly becomes available to most drone pilots out 
there.
    Crucial to our development of these safety features is the 
ability to deploy them quickly without regulatory delays. 
Mandating a specific technology or requiring the FAA to certify 
each make and model of drone prior to sale would greatly 
disrupt the cycle of innovation.
    We have also learned from real world experience through our 
customers that safety features that sound simple to implement 
are actually very nuanced. For example, we have many customers 
using drones at airports to enhance aviation safety.
    Just by way of example, Ventura County, California uses DJI 
drones to conduct facility inspection to assist with perimeter 
security and to monitor wildlife on airport property. So 
technology features like airport geo-fencing need to be 
flexible.
    The second piece of good news that I have is that the 
innovation we have been dreaming about is already here. Thanks 
to the FAA's commendable work on Part 107, drones are now open 
for business. The benefits in agriculture, construction, 
facility inspection, and cinematography are evident. But what 
excites us too are the many unique applications developed by 
creative thinkers.
    For example, scientists at Massachusetts-based Ocean 
Alliance are using DJI drones to collect a biological specimen 
from whale spray to monitor the animal's health.
    In south Florida, Project Ryptide is working with beach 
lifeguards to use DJI technology to quickly locate people in 
distress in the ocean and deliver a life preserver.
    Indeed, the best news I could share with you today is that 
drones have already saved lives. According to our research, 
which we released yesterday, drones have already helped save at 
least 59 lives in the past 2 years in floods, fires, and when 
people go missing. One-third of those lives saved were saved 
with the help of consumer bystanders using their drones. These 
and many other unexpected beneficial applications are here 
because of ready access to the technology and reasonable 
regulations.
    Innovation is also thriving in the recreational user 
community. Today's hobbyist is tomorrow's innovator and next 
year's technology pioneer. As people explore and experiment 
with this technology personally, they find ways to incorporate 
it into their business.
    The consumer drone market is also driving down costs and 
providing resources to engage in research and development that 
benefits commercial operators. Congress has supported this 
innovation by providing a simple and easy to understand set of 
rules for recreational UAS operations in the 2012 FAA 
reauthorization legislation. Additional burdens on the personal 
use of this technology will also impact potential future 
business uses.
    My last point of good news relates to the roles and 
responsibilities of government. In 2016, DJI counted nearly 300 
State bills concerning drones. Some of those proposals were 
thoughtful and welcomed, but others conflicted with FAA 
regulations or were unduly restrictive. If the rules vary from 
state to state, and city to city, the result is an airspace 
system that is less safe.
    DJI is supportive of informed legislation at the State and 
local level that address legitimate concerns not otherwise 
covered by existing law and regulation. There is an urgent need 
to reconcile those local concerns with Federal aviation 
doctrines so that our industry is not plagued by legal 
confusion at this seminal time.
    The good news is that the FAA has tasked the Drone Advisory 
Committee, of which I am a member, to explore what a 
recommended governing approach might be. The task group is 
composed of stakeholders from city and county governments, 
manned aviation, the UAS industry, and academia who are working 
diligently to reach consensus on the recommended roles and 
responsibilities of different levels of government.
    An approach in which we collaboratively work together to 
understand and solve challenges like these is DJI's approach to 
drone policy issues. And we look forward to continued 
collaboration with your committee as well.
    Thank you again. I look forward to your questions.
    [The prepared statement of Mr. Schulman follows:]

        Prepared Statement of Brendan Schulman, Vice President, 
              Policy & Legal Affairs, DJI Technology, Inc.
    Thank you, Chairman Thune, Ranking Member Nelson, and members of 
the Committee. I am Brendan Schulman, Vice President of Policy & Legal 
Affairs for DJI Technology, Inc. (``DJI''). I applaud the Committee for 
holding this hearing at this important time in the development of drone 
technology and for your interest in making sure the United States 
provides the right atmosphere to let our industry grow and thrive while 
at the same time protecting safety. We are in the somewhat unique 
position of being an early-stage technology industry that craves more 
regulation. But it has to be the right kind of regulation. Balanced 
regulatory policies that set clear, common-sense expectations for 
commercial, governmental, and recreational operators will help unlock 
the vast potential and nearly limitless benefits of unmanned aircraft 
systems. Countries that adopt these kinds of regulatory policies will 
have a distinct advantage as centers of innovation in this rapidly-
evolving global industry, while those that adopt inflexible or 
reactionary policies will stifle progress and cause innovators to flee. 
I am pleased to have the opportunity to share my views, on behalf of 
DJI, on what ``getting it right'' looks like.
DJI: The Technology Behind the Current Drone Revolution
    DJI is the leading manufacturer of small unmanned aircraft systems 
in use in the world today, and employs over 150 people across six 
offices in the United States. We have been proud to partner with 
American companies as diverse as Ford Motor Company, Microsoft, 
Velodyne, and Bentley Systems to develop the next generation of drone 
technology and applications. Although drones have become widely popular 
in the past two or three years, our company is actually ten years old, 
and has spent that decade developing and perfecting the underlying 
technologies. By some analyst estimates, our products are the choice of 
over 70 percent of commercial drone operators, and a similar fraction 
of personal drone operators. This gives us a privileged position to 
hear about the multitude of ways in which the user community is already 
putting drones to work, and to gauge their needs for the commercial, 
enterprise, and institutional drone operations of tomorrow. Our scale 
also places us in a unique position to be able to implement safety 
features and provide guidance to the vast majority of personal drone 
operators.
    Safety is our highest priority. We are the market leader not just 
because our technology is smart and easy to use, but also because of 
our leadership in incorporating innovative safety features into our 
products and in our consumer and public safety efforts. We were the 
first manufacturer to incorporate GPS-based geofencing technology, 
which automatically prevents our drones from taking off within, or 
flying into, sensitive areas such as airports, nuclear power plants, 
and prisons. Our products include dozens of other safety features, such 
as automatic altitude limitation to prevent drones from flying too 
high, voice warnings, speed limitations, on-screen situational 
awareness information about flight altitude, distance, and speed, and a 
live map showing the drone's location during flight. When the drone's 
battery is running low, or if the radio control signal is lost, the 
drone automatically returns to the launch point and lands itself--it 
doesn't just fall out of the sky. And we are continually developing new 
safety features. Our newest models, the Phantom 4, the Mavic Pro, and 
the Inspire 2, use computer-vision technology to automatically avoid 
collisions with obstacles during flight. Our latest enterprise drone, 
the Matrice 200, incorporates an ADS-B traffic information receiver to 
help the pilot maintain awareness of manned air traffic in the 
surrounding airspace.
    Technology features are also enhanced by operator education. The 
overwhelming majority of drone operators want to follow the rules and 
operate safely. DJI and our fellow members in the Drone Manufacturers 
Alliance strongly believe that education offers an effective way to 
promote safety that can be responsive to emerging concerns--something 
that can't be said for rigid, prescriptive regulatory approaches. As 
part of our safety initiatives, DJI educates our users about operating 
drones safely, including through our on-screen safety information, our 
in-person New Pilot Experience courses, our video tutorials, our flight 
simulator built in to the drone, our beginner mode feature, and our in-
box safety inserts from the FAA-endorsed ``Know Before You Fly'' 
campaign. We recently partnered with the venerable Academy of Model 
Aeronautics to launch a joint program to promote safe and responsible 
drone operations. We are also at work on a new feature to help ensure 
that our customers are aware of the rules of safe flight before they 
fly a drone, and hope to announce that initiative in the coming weeks.
Spontaneous Innovation, Fostered by Reasonable Regulation
    You have almost certainly heard about the benefits that drones are 
beginning to bring to major industries like agriculture, construction, 
facility inspection, cinematography, and energy. And their 
contributions to public safety are unquestioned. For example, after 
Hurricane Matthew battered Florida last year and left 1.1 million 
people without power, Florida Power & Light used DJI drones to inspect 
and repair power lines safely and efficiently.
    What also excites us are the many unique applications that have 
been developed when creative thinkers and entrepreneurs invent 
spontaneous new ways to use our technology. For example, scientists at 
the Ocean Alliance are using DJI drones to collect whale mucus. By 
flying one of our drones a safe distance above a whale, scientists can 
collect a biological specimen from the whale spray. This sample tells 
the scientist about the whale's gender, its health, whether it is 
pregnant, whether pollutants are present, and assists in understanding 
animal migratory patterns. This wonderful way of helping save the 
whales isn't practical with any other technology. A boat cannot easily 
get close enough, and a helicopter would stress and endanger the 
animal. Similarly, Florida International University is using small 
drones to estimate shark population density. Other unexpected 
applications we have seen in the past few months include using a drone 
to paint high exterior walls (preventing ladder falls), and using 
drones to distribute antibiotic-infused food pellets to endangered 
ferrets to help them survive against disease.
    Just like smartphones, drones are a platform for software 
development. Using our software developer's kit (SDK), inventors can 
design their own software applications (``apps'') for drones, which 
then offer specialized functions tailored for specific needs. In this 
way, our technology lays a foundation for future innovation by hundreds 
of other companies. Apps that have already been developed for our 
drones include automated mapping, cinematography, agriculture crop 
analysis, and drone fleet management. In partnership with startup 
DroneSAR, we are collaborating on development of a search and rescue 
app to coordinate the use of drones to help find missing people and 
provide ground crews with terrain information for a safer, faster, and 
more effective rescue. In South Florida, Project Ryptide is using our 
SDK technology, machine learning, and thermal vision to help beach 
lifeguards spot and rescue people in the ocean and drop a life 
preserver that will automatically inflate.
    Innovative applications like these can be facilitated by 
comprehensive regulations that maintain the safety of the airspace 
while presenting reasonable operational requirements. The FAA's part 
107, implemented last August, is an excellent leap forward in this 
regard. Thanks to part 107, the United States now leads the world with 
a comprehensible and complete set of commercial operational rules, and 
the FAA is to be commended for its hard work in reaching this outcome. 
However, more work remains. Many of our commercial users have told us 
that FAA approvals for part 107 flights in controlled airspace, even at 
very low altitudes, take weeks and these delays often cost them the 
very job they are applying for. Streamlining and eventually automating 
these approvals is one area for improvement in the part 107 system that 
would result in immediate economic benefits to commercial drone pilots 
and to the Nation. In the interim, releasing guidance in the form of 
maps showing where approvals would actually be granted would go a long 
way to reducing the volume of requests and setting expectations about 
what commercial jobs being offered to part 107 pilots will and will not 
be approved. Additionally, restoring the option for local air traffic 
controllers to grant these approvals would alleviate the workload at 
FAA headquarters as well.
    There is also continued need to define a lowest-risk category of 
drones for commercial operations subject to a simplified set of rules 
and requirements. It does not make sense to regulate a two-pound drone 
the same way as a 54-pound drone, as we currently do. Other countries, 
such as Australia, Canada, India and Mexico, have recognized that a so-
called ``micro'' category opens more pathways to innovation, fosters a 
culture of compliance, reduces burdens on the regulatory agency, and 
incentivizes the industry to put the best features into the smallest--
and therefore inherently safest--drones. A research paper we recently 
released examines and refines the approach selected by the FAA's 
Registration Task Force and concludes that a lowest-risk UAS category 
ought to be defined at a weight threshold of two kilograms (4.4 
pounds). Last year, this Committee sensibly proposed such a ``micro 
UAS'' category in its FAA reauthorization bill.
    We welcome the next rulemaking milestones, which will allow routine 
operation of small UAS over people, at night, in controlled airspace, 
and eventually beyond visual line of sight. Ours is an industry in 
which smartly-constructed new regulations are good news, because they 
expand the range of permissible operations that might otherwise be 
restricted or only available via a time-consuming individual approval 
process. Research and rulemaking priorities should focus on rules that 
enable the broadest range of beneficial applications that can be 
achieved within today's technological capabilities. For example, a rule 
for routine part 107 night operations would enable search and rescue 
operations during critical hours when time is of the essence. That's 
just one example of an immediate benefit that can be realized through 
nothing more than rulemaking. Delays in the rulemaking process will 
have a negative economic impact, and curtail public safety operations, 
including those that save lives. DJI looks forward to continuing our 
collaboration with the FAA on key regulatory endeavors, just as we did 
when we served on the FAA's UAS Registration Task Force, on its 
Aviation Rulemaking Committee for Flight Over People, and through our 
present membership on the Drone Advisory Committee.
Safety Features: Industry is Leading the Way
    Safety features developed by industry are a key component for 
supporting safe operations by all drone pilots. But it is important to 
understand how those technologies are developed, how they are used, and 
their limitations before implementing any type of standard or legal 
mandate. Technology features involve making tradeoffs, and are often 
more complex than they might sound. There has been a lot of recent 
interest in geofencing, for example. DJI implemented geofencing in its 
drones in 2013, long before there was a single news headline about 
drones spotted by airline pilots or flying near airports. We 
anticipated that technology could address concerns about drones flying 
where they don't belong.
    The technology that enables this feature is straightforward. The 
drone has a GPS receiver just like a mobile telephone or a car 
navigation system. DJI pre-programs locations around the world that 
raise aviation safety or national security concerns, such as airports. 
When the drone senses that it is near those areas, the pilot gets a 
warning message. Closer in to a sensitive area, the flight of the drone 
is restricted and the drone will automatically override the pilot, 
stop, and hover without entering, or, if brought inside the zone on 
foot, the drone will not take off. Last year, with our airspace data 
provider partner AirMap, we upgraded our geofencing system to be live, 
so that FAA temporary flight restrictions (TFRs) and Department of the 
Interior wildfire notices are sent live to the drone pilot as a 
geofence, helping prevent unauthorized operations when airspace 
authorization conditions change.
    We are certain that geofencing has already done a lot of good, and 
perhaps even prevented an accident, although that benefit will always 
be unknowable. Anecdotally, we have heard of situations where our 
software alerts people to airspace restrictions immediately prior to 
takeoff, thus preventing inadvertent operations in the wrong place. 
However, our long experience with this feature across hundreds of 
thousands of customers has also revealed something very important: 
geography alone is not a good indicator of authorization to fly. In 
places that might seem like good candidates for geofencing, drones are 
already being used in operations that enhance safety. For example, the 
Ventura County, California Department of Airports is using a small UAS 
to conduct facility inspection, assist with perimeter security, and 
monitor wildlife on the airport property at Camarillo and Oxnard 
airports, which are located in Class D controlled airspace. At first, 
our geofencing system prevented these airports from doing their work, 
and we had to work with the County to develop a workaround.
    The notion that airports and drones never mix is an 
oversimplification. We have many customers doing important work at 
airports, enhancing the safety of the national airspace system. 
Similarly, our live geofencing system can help prevent drones from 
entering wildfire locations, but we also know that firefighters are 
using our drones to keep themselves safe and to help fight fires. 
Completely disabling a drone in such locations would result in a net 
detriment to public safety.
    Here is the lesson we have learned that only comes with actual 
operational experience across hundreds of thousands of customers: while 
geofencing is a great feature that helps prevent inadvertent 
operations, it will always require a balanced approach involving 
exceptions. Requiring drones to simply turn off when they are near 
airports is not the right solution to safety concerns.
    Additionally, locking in any specific technology mandate will 
discourage DJI and our colleagues in the industry from continuing to 
rapidly develop new safety technologies. A requirement to implement the 
best technology available today discourages manufacturers from 
developing the even better safety technologies of tomorrow. One reason 
that there are so many safety features available for today's drones is 
that manufacturers have the freedom to implement them, and to upgrade 
them as soon as a better version is ready. Many of our upgrades are 
actually software, which our customers can update for free even after 
their purchase.
    We urge the Committee to preserve this flexibility and freedom to 
develop new safety innovations. The section of this Committee's 2016 
FAA reauthorization bill concerning UAS ``Safety Standards'' proposed 
to have the FAA and industry identify and consider UAS safety 
standards. Identifying and promoting safety standards is admirable, but 
the provision, Section 2124, went on to require FAA approval for each 
make and model of UAS prior to sale, a type of certification 
requirement that the FAA has already judged in its part 107 regulations 
to be unnecessary. Such a requirement would halt innovation in its 
tracks by preventing new products from being released without a lengthy 
and expensive FAA approval process that could take a year or more.
    Last year's reauthorization bill also included a provision 
concerning remote identification standards. Developing a mechanism for 
remotely identifying the operator of certain UAS, as contemplated in 
Sections 2202 and 2124 of the bill, can provide accountability for 
violations of existing law, address societal anxieties, and provide a 
measure of security reassurance. However, it is important to recognize 
that drone pilots have privacy interests as well. Our commercial 
customers in the energy and agriculture sectors have competitive 
interests in not disclosing that they are using a drone to explore 
future wind farm locations, or to survey their latest seed crop. Other 
types of businesses are sensitive about what their patterns of drone 
usage might reveal about their business growth, profitability, or 
strategy. A teenager learning about drone technology in her backyard 
should not need to broadcast her identity to the public. An 
identification system akin to a car license plate, that provides 
identification information within the immediate area rather than 
tracking or recording all operations, strikes us as the best way to 
reconcile these concerns. As the largest manufacturer of small UAS, we 
look forward to playing a key role in the development of these and 
other technology-based solutions to policy challenges.
Personal Drone Use: A Key Pathway to Innovation
    Of key importance to the future of innovation in our industry is 
maintaining a pathway for people to experiment with technology on a 
personal level. Today's hobbyist is tomorrow's inventor, and tomorrow's 
inventor is next year's technology industry pioneer. In 2012, Congress 
wisely recognized that recreational UAS operations should be subject to 
a simple and easy-to-understand set of rules that put safety first.
    Remotely controlled aircraft operated for recreation have a long 
history of inspiring young people to become aviation pioneers. Burt 
Rutan, founder of innovative aerospace company Scaled Composites, was 
inspired by model aircraft as a youngster. John Kiker, an avid model 
aircraft hobbyist, was instrumental in conceiving and designing the 
iconic piggy-back space shuttle transport system that mated the NASA 
space shuttle to the back of a Boeing 747. Engineers doubted it could 
ever work but model aircraft proved that it did. But personal drones 
today are not just about aeronautics. They are about robotics, 
programming, automation, problem-solving, and sensor technology--many 
of the skills that young people will need in their future careers. And 
they bring excitement among a new generation of pilots and dreamers. 
Internationally, the reigning champion in the exciting new world of 
drone racing is Luke Bannister, who is only 16 years old.
    Drones are also a tool for creating visual art, in both photography 
and videography. There may be no better tool to encourage people of all 
backgrounds to become interested in robotic technology than by 
introducing them to a technology whose aspects are so broad, ranging 
from the thrill of remote flight to the satisfaction of computer 
programming, to the excitement of exploring new business opportunities, 
to the creativity of visual art that lasts far beyond the flight. We 
also should not overlook the long-term societal benefits of 
recreational activities. In an era with much free time spent behind 
glowing screens, a technology that gets young people to spend time 
outdoors and to create their own art should be broadly welcomed. What 
does it tell us that 750,000 Americans have registered with the FAA as 
drone owners in a little over one year? It tells us that this is 
exciting technology that Americans want to use to create art, to 
experience the thrill of flight, to learn about robotics and 
technology, and to start and grow a business. This excitement and 
interest in technology is something to foster, not something to fear.
    What we have also learned from our customers is that the same drone 
that is often used for hobby purposes on Saturday is used for work on 
Monday. As people become comfortable with the technology 
recreationally, they find ways to incorporate it into their business. 
Commercial and recreational drones are not two distinct products, 
segregated by use. Like computers, smartphones, and automobiles, they 
are tools used across a full spectrum.
    Recreational use has also directly led to the innovations that all 
users today are enjoying. Many leading companies in this industry, 
including our own and that of our colleagues at Berkeley's 3DRobotics, 
were founded by people who started their exploration of remotely-
controlled aircraft as enthusiasts, tinkering in garages, basements, 
and, in the case of our founder, school dormitories. Some of the most 
intriguing applications, improvements, modifications, and software have 
come from people who were ``just having fun.'' Passion is one of the 
purest drivers of spontaneous innovation, and perhaps no other industry 
exemplifies that better than ours. What was long assumed to be an 
industry that would evolve from large military-type platforms has 
instead grown from technology many had only recently thought of as 
toys. In one wonderful recent example, in India, a 14-year-old student 
has developed a mine-clearing drone and was awarded a $730,000 USD 
government contract to produce them.
    The consumer drone industry is also driving down costs, and 
providing resources to engage in research and development that benefits 
commercial operators. A commercial photographer who spent the last few 
years awaiting the FAA's commercial drone rules that were only 
finalized in August 2016, upon obtaining her new FAA part 107 license, 
had immediate access to a sophisticated, portable, flying ultra high-
definition camera for under one thousand dollars--because the consumer 
drone market had been rapidly innovating and pushing the technology 
forward for years already. Various studies of the Section 333 
individual commercial permits issued by the FAA from late 2014 to mid 
2016 showed that the most popular drones for professional use were the 
ones most often used for personal use, such as the DJI Phantom 
specified for use in over 60 percent of those applications. Virtually 
anyone operating a commercial drone today can be thankful to the 
consumer market for the benefits of widespread adoption and economies 
of scale. Burdens placed on the development or sale of these 
technologies will also impact the business users.
    Also rarely mentioned is how drones in the hands of recreational 
pilots are contributing to public safety in life-saving ways. Our 
analysis of news reports reveals that drones have already helped save 
at least 59 lives in the past two years--in floods, fires, earthquakes, 
and when people go missing, and are now saving lives at the rate of one 
per week. One-third of those rescues involved a consumer bystander or 
volunteer being in the right place at the right time with the right 
tool: a drone. This technology not only has the power to do great good, 
but is already doing it around the world, even in places without much 
regulation, and in the hands of people without licenses or formal 
training. Sensationalized media accounts of minor drone mishaps fail to 
provide crucial context, both in terms of the number of people who have 
used drones safely (millions), as well as the societal value of those 
activities.
    As you move forward with potential UAS legislation, and the FAA 
continues with its steady pace of aviation rulemaking, we all owe it to 
future generations of aviation pioneers and visual artists to balance 
the safety goals we all share with the benefits of a transformative new 
technology, and leave unburdened these important pathways to 
innovation.
Preserving Uniformity While Addressing Local Issues
    Successfully integrating UAS into the national airspace system 
requires addressing the legitimate concerns of state and local 
government. In 2016, DJI counted nearly 300 state bills concerning 
drones. There were also countless other proposals at the county and 
municipal levels. Some of those proposals were thoughtful and welcome. 
Many others, however, were based on uninformed assumptions about what 
drone technology is, how it is used, and how it is already regulated, 
resulting in proposals that would duplicate or even directly conflict 
with FAA regulations and Federal statutes, or otherwise unreasonably 
burden pilots.
    If the rules vary from state to state, county to county, and city 
to city, the result is an airspace system that is less safe, and DJI in 
particular loses the ability to communicate what the rules are to our 
customers. Conflicting rules also lead to confusion, disdain for the 
regulatory system, and ultimately non-compliance. UAS technology is 
increasingly portable, with one of our latest products, the Mavic Pro, 
weighing about a pound and a half and folding up into the size of a 
water bottle. As our industry moves forward with the full range of 
commercial, educational, artistic, scientific and governmental 
operations for drones, the potential disruption from inconsistent 
regulation presents a significant risk.
    DJI is supportive of informed legislation at the state and local 
level that addresses problems not otherwise covered by existing law and 
regulation. For example, last year, DJI supported California Assembly 
Bill 1662 requiring accident reporting for drone operators, Assembly 
Bill 1680 prohibiting interference with emergency personnel, and Senate 
Bill 807 limiting the liability of first responders who damage drones 
interfering with emergency personnel. We also support the provision in 
last year's FAA extension legislation directing the agency to establish 
a centralized process for designation of critical infrastructure sites 
that warrant protection from unauthorized drones. That provision, 
Section 2209, is a good model for taking a legitimate local concern and 
ensuring that flight restrictions sought at the local level are 
considered and implemented consistently, by the experts at the FAA, and 
then made available in a central location for UAS pilots to consult.
    Other concerns remain, and ought to be addressed in a thoughtful 
way that does not impair the great promise of this technology. The 
overwhelming majority of drone pilots are safe and responsible, and 
have no intent to disturb anyone when they are operating. Finding ways 
to address rare instances of misuse without thwarting legal and 
responsible operations is a goal we share. It is clear that the 
traditional Federal preemption framework for aviation, so crucial to 
ensuring a set of uniform aviation safety standards, is not satisfying 
to local policymakers. And it is also clear that the traditional local 
authority over zoning and use of land does not provide a workable local 
governing solution for aircraft that require no ground facilities and 
that can take off and land anywhere. A new, creative approach to these 
issues may be warranted, and I am pleased that the FAA's Drone Advisory 
Committee, of which I am a member, has been tasked by the FAA, and is 
already hard at work in one of its task groups, to explore what a 
recommended alternative might be. The group is composed of stakeholders 
from city and county governments, manned aviation, the UAS industry, 
and academia who will try to reach consensus on the roles and 
responsibilities of different levels of government, and issue an 
interim report to the FAA by May 2017. An approach in which we 
collaboratively work together to understand and solve challenges like 
these is DJI's approach to policy issues not just in the United States 
but worldwide.
Conclusion
    When Congress enacted the first significant legislation concerning 
drones five years ago, much of what I have described in this testimony 
was still at the workbench stage. The notion that almost anyone would 
soon have access to drone technology for work or play, supported by 
state-of-the-art safety features and careful operator education, 
probably exceeded anyone's expectations at that time. The rapid 
development of drone technology and the industry surrounding it, and 
the economic vitality it has contributed, are testaments to the 
transformative power of innovation. We firmly believe that the balanced 
approach that the United States has taken to the regulation of this 
emerging industry has been an essential ingredient in this process of 
innovation and growth. DJI looks forward to continuing to collaborate 
with you, the FAA, and other federal, state, and local authorities to 
ensure that the industry's next five years are as exciting and 
consequential as the last five. Thank you again for the opportunity to 
testify, and I would be happy to answer any questions you may have.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker [presiding]. Thank you.
    Dr. Villasenor.

      STATEMENT OF JOHN VILLASENOR, PROFESSOR, ELECTRICAL

          ENGINEERING, PUBLIC POLICY, AND MANAGEMENT;

      VISITING PROFESSOR OF LAW, UNIVERSITY OF CALIFORNIA,

   LOS ANGELES; AND VISITING FELLOW, THE HOOVER INSTITUTION, 
                      STANFORD UNIVERSITY

    Dr. Villasenor. Good morning, Chairman Thune, Ranking 
Member Nelson, and members of the Committee.
    Thank you very much for the opportunity to testify at 
today's hearing on unmanned aircraft.
    As requested by the Committee, I am focusing my testimony 
on the question of privacy, principally in relation to unmanned 
aircraft, but also in relation to rapidly changing technologies 
more broadly.
    I am a Professor at UCLA where I teach in the Schools of 
Engineering, Public Affairs, Law, and Management. I also have 
several research affiliations outside of UCLA, including an 
appointment as a Visiting Fellow at the Hoover Institution at 
Stanford. The views I am expressing here are my own.
    My testimony today can be summarized as follows: First, the 
fact that unmanned aircraft can potentially be used to gather 
information in ways that violate privacy does not mean, in and 
of itself, that new Federal unmanned aircraft privacy 
legislation is needed.
    Rather, the key question is: do unmanned aircraft put 
privacy at risk in ways that fall outside the scope of existing 
constitutional, statutory, and common law privacy protections?
    There are good reasons to believe that the answer to that 
question is no. As a result, I think it is premature to enact 
broad, new Federal legislation specifically directed to 
unmanned aircraft privacy.
    Second, to the extent that Federal unmanned aircraft 
privacy legislation is nonetheless proposed, I would emphasize 
the importance of ensuring that it does not inadvertently 
infringe the First Amendment rights of the many nongovernment 
unmanned aircraft users who will operate their platforms in 
responsible, non-privacy violating ways.
    It is relatively easy to draft statutes that limit the 
ability of unmanned aircraft users to acquire, retain, or 
distribute information. It is far harder to do so in a manner 
that is consistent with the full scope of the First Amendment.
    Third, while the specific technology under consideration by 
the Committee at today's hearing is unmanned aircraft, privacy 
questions also arise in relation to other rapidly changing 
technologies, including the Internet of Things, autonomous 
vehicles, location aware smart phone applications, and always-
on consumer devices equipped with video and/or audio 
capabilities.
    These technologies raise far reaching privacy challenges 
that may need to be addressed, in part, through new Federal 
legislation. When drafting new statutes to protect privacy in 
light of these technologies, it is important to keep in mind 
that while new legislation always comes with a risk of 
unintended consequences, that risk is particularly elevated 
when legislating at the privacy-technology intersection.
    None of this is to suggest that Congress has no role in 
digital privacy or that there is no need for new digital 
privacy legislation. Congress has a vital role to play in 
addressing the privacy challenges raised by emerging 
technologies.
    Part of that role involves fostering a dialogue among 
lawmakers, regulators, consumers, the commercial sector, and 
civil liberties groups so that all parties gain a fuller 
understanding of the issue.
    Part of that role involves identifying where existing legal 
frameworks are working well and where they are falling short.
    Part of that role involves knowing when not to legislate. 
And part of that role involves enacting carefully targeted 
legislation at the right time with an eye on the past to 
incorporate lessons learned from earlier digital privacy laws, 
an eye on the future to anticipate where the technology will 
likely lead, and with the goal of ensuring that any new 
legislation not only protects privacy but also does so in a way 
that promotes innovation and protects constitutional rights.
    Thank you again for the opportunity to testify on this 
important topic.
    [The prepared statement of Dr. Villasenor follows:]

     Prepared Statement of John Villasenor, Professor, Electrical 
Engineering, Public Policy, and Management; Visiting Professor of Law, 
University of California, Los Angeles; and Visiting Fellow, The Hoover 
                    Institution, Stanford University
Introduction
    Good morning Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. Thank you very much for the opportunity to testify today 
at today's hearing on unmanned aircraft. As requested by the Committee, 
I am focusing my testimony on the question of privacy, principally in 
relation to unmanned aircraft but also in relation to rapidly changing 
technologies more broadly.
    I am a professor at UCLA, where I hold faculty appointments in the 
Electrical Engineering Department, the Department of Public Policy, and 
the School of Management. In addition, I am a visiting professor at the 
UCLA School of Law where I created and teach a course on ``Digital 
Technologies and the Constitution.'' I also have several research 
affiliations outside of UCLA, including an appointment as a Visiting 
Fellow at the Hoover Institution at Stanford.\1\ The views I am 
expressing here are my own, and do not necessarily represent those of 
any of the organizations with which I am affiliated.
---------------------------------------------------------------------------
    \1\ More information regarding my research, publications, and 
academic/research affiliations can be found at http://
johnvillasenor.com.
---------------------------------------------------------------------------
Summary
    My testimony today can be summarized as follows:

  <bullet> First, the fact that unmanned aircraft can potentially be 
        used to gather information in ways that violate privacy does 
        not mean, in and of itself, that new Federal unmanned aircraft 
        privacy legislation is needed. Rather, the key question is: Do 
        unmanned aircraft put privacy at risk in ways that fall outside 
        the scope of existing constitutional, statutory, and common law 
        privacy protections? As discussed below, there are good reasons 
        to believe that the answer to that question is ``no.'' As a 
        result, I think it is premature to enact broad new Federal 
        legislation specifically directed to unmanned aircraft privacy.

  <bullet> Second, to the extent that Federal unmanned aircraft privacy 
        legislation is nonetheless proposed, I would emphasize the 
        importance of ensuring that it does not inadvertently infringe 
        the First Amendment rights of the many unmanned aircraft users 
        \2\ who will operate their platforms in responsible, non-
        privacy-violating ways. It is relatively easy to draft statutes 
        that limit the ability of unmanned aircraft users to acquire, 
        retain, or distribute information. It is far harder to do so in 
        a manner that is consistent with the full scope of the First 
        Amendment.
---------------------------------------------------------------------------
    \2\ In this paragraph, I am referring to non-government UAS users.

  <bullet> Third, while the specific technology under consideration by 
        the Committee at today's hearing is unmanned aircraft, privacy 
        questions also arise in relation to other rapidly changing 
        technologies, including the Internet of Things, autonomous 
        vehicles, location-aware smartphone applications, and always-on 
        consumer devices equipped with video and/or audio capabilities. 
        These technologies raise far-reaching privacy challenges that 
        may need to be addressed in part through new Federal 
        legislation. When drafting new statutes to protect privacy in 
        light of these technologies, it is important to keep in mind 
        that while new legislation always comes with a risk of 
        unintended consequences, that risk is particularly elevated 
---------------------------------------------------------------------------
        when legislating at the privacy/technology intersection.

    Given the different legal frameworks that apply to privacy in 
relation to unmanned aircraft systems (UAS) operated by the government 
as opposed to UAS operated by non-government entities, I will address 
those two categories separately. At the end of this testimony, I will 
also provide some more general comments on the broader issue of 
legislation aimed at protecting privacy in light of rapidly changing 
technologies.
Government-Operated Unmanned Aircraft and Privacy
    Government unmanned aircraft users are constrained by the Fourth 
Amendment, which protects against unreasonable searches. It is 
sometimes suggested that because unmanned aircraft are so far removed 
from the technologies that existed when the Bill of Rights was written, 
the Fourth Amendment will provide insufficient protection. I disagree. 
As I wrote in a 2012 Forbes article on UAS privacy, the Fourth 
Amendment ``has been a cornerstone of privacy from government intrusion 
since 1791. It has served us well across more than two centuries of 
technology advances, and there is no reason to expect that it will 
suddenly lose its protective power when domestic use of unmanned 
aircraft becomes common.'' \3\
---------------------------------------------------------------------------
    \3\ John Villasenor, Will ``Drones'' Outflank the Fourth 
Amendment?, Forbes, Sep. 20, 2012, https://www.forbes.com/sites/
johnvillasenor/2012/09/20/will-drones-outflank-the-fourth-amendment.
---------------------------------------------------------------------------
    The Supreme Court has never considered a Fourth Amendment case 
specifically directed to UAS privacy. However, there have been several 
cases involving observations from manned aircraft. The most commonly 
cited such case is California v. Ciraolo,\4\ a 1986 decision relating 
to marijuana cultivation in the fenced-in backyard of a home. After 
receiving a tip regarding the cultivation and finding the ground-level 
view into the backyard blocked by a fence, police procured a small 
plane and overflew the property at an altitude of 1,000 feet. Police 
officers in the plane observed and photographed marijuana plants, and 
then obtained a search warrant based on the information gathered in the 
overflight. The defendant challenged the constitutionality of the 
aerial observations. The Supreme Court, however, found no 
constitutional violation, writing that ``[i]n an age where private and 
commercial flight in the public airways is routine, it is unreasonable 
for respondent to expect that his marijuana plants were 
constitutionally protected from being observed with the naked eye from 
an altitude of 1,000 feet.'' \5\
---------------------------------------------------------------------------
    \4\ 476 U.S. 207 (1986).
    \5\ Id. at 215.
---------------------------------------------------------------------------
    Of course, it is possible to view this precedent as suggesting that 
the Fourth Amendment will provide no barrier at all to warrantless 
government use of UAS. However, I do not believe that is the proper 
reading. A careful review of the Ciraolo ruling as well as of the 1989 
opinions in a similar case, Florida v. Riley,\6\ suggests the use of 
the naked eye was a key factor in finding the overhead observations 
constitutional. Those rulings did not consider the high-resolution 
camera imagery \7\ that can be acquired by a UAS; nor did they consider 
observations from the lower altitudes at which most UAS will be 
operated. UAS, in other words, enable capture of information that is 
much more detailed and potentially invasive than the observations in 
Ciraolo and Riley. Such observations are far more likely to violate the 
expectation of privacy that ``society is prepared to recognize as 
`reasonable,' '' \8\ and as such, to be found in violation of the 
Fourth Amendment.
---------------------------------------------------------------------------
    \6\ 488 U.S. 445 (1989). Riley involved police observations from a 
helicopter at an altitude of 400 feet through openings in the roof and 
sides of a greenhouse being used to grow marijuana. The greenhouse was 
located in the curtilage of a home. The Riley decision comprised a 
plurality opinion delivered by Justice White and joined by Chief 
Justice Rehnquist and Justices Scalia and Kennedy; an opinion from 
Justice O'Connor concurring in the judgment; a dissent from Justice 
Brennan joined by Justices Marshall and Stevens; and a separate dissent 
filed by Justice Blackmun. Thus, though there was no majority opinion, 
a majority of the Justices found the observations constitutional.
    \7\ There was also a case, Dow Chem. Co. v. United States, 476 U.S. 
227 (1986), that considered aerial photography of the open areas of an 
industrial facility. However, this case did not address a home or its 
curtilage. The Court ruled that the open areas of the industrial 
facility were more akin to an ``open field'' than to the curtilage of a 
home, and as a result, were ``open to the view and observation of 
persons in aircraft lawfully in the public airspace immediately above 
or sufficiently near the area for the reach of cameras.'' Id. at 239.
    \8\ Katz v. United States, 389 U.S. 347, 361 (1967) (Harlan, J., 
concurring).
---------------------------------------------------------------------------
    In addition to the substantial protections that the Fourth 
Amendment can provide, many Americans live in states that have recently 
enacted laws providing another layer of privacy protection from 
information acquired from unmanned aircraft operated by state and local 
government entities. According to a 2016 report from the National 
Conference of State Legislatures, ``18 states--Alaska, Florida, Idaho, 
Illinois, Indiana, Iowa, Maine, Montana, Nevada, North Carolina, North 
Dakota, Oregon, Tennessee, Texas, Utah, Vermont, Virginia and 
Wisconsin--have passed legislation requiring law enforcement agencies 
to obtain a search warrant to use UAS for surveillance or to conduct a 
search.'' \9\
---------------------------------------------------------------------------
    \9\ Amanda Essex, Taking Off: State Unmanned Aircraft Systems 
Policies, National Conference of State Legislatures (2016), http://
www.ncsl.org/research/transportation/taking-off-state-unmanned-
aircraft-systems-policies.aspx, at 14 (internal citations omitted).
---------------------------------------------------------------------------
    As far as I am aware, to date there have been no UAS-specific 
rulings, in either Federal or state courts, indicating that the Fourth 
Amendment and/or state UAS privacy laws will be unable to provide 
protection from privacy-violating government uses of unmanned aircraft. 
In short, there is insufficient evidence to conclude that existing 
frameworks have failed.\10\
---------------------------------------------------------------------------
    \10\ While the foregoing discussion has addressed constitutional 
and statutory frameworks related to government-operated UAS, government 
entities can play an important role by adopting policies designed to 
ensure that they operate UAS transparently and in ways that are mindful 
of and protective of privacy. See, e.g., The White House, Office of the 
Press Secretary, Presidential Memorandum: Promoting Economic 
Competitiveness While Safeguarding Privacy, Civil Rights, and Civil 
Liberties in Domestic Use of Unmanned Aircraft Systems, WhiteHouse.Gov 
(Feb. 15, 2015) (in particular, ``Section 1: UAS Policies and 
Procedures for Federal Government Use''), https://www.whitehouse.gov/
the-press-office/2015/02/15/presidential-memorandum-promoting-economic-
competitiveness-while-safegua.
---------------------------------------------------------------------------
Privacy and Unmanned Aircraft Operated by Private Entities
    Non-government UAS operators are not constrained by the Fourth 
Amendment. Furthermore, non-government UAS operators have an 
affirmative right to gather information under the First Amendment. That 
does not mean, however, that they have an unfettered right to gather 
privacy violating images. As I have written elsewhere, ``[u]se of a UAS 
to invade an individual's privacy could result in civil or criminal 
liability. With respect to civil liability, courts in most 
jurisdictions recognize the two forms of common law invasion of privacy 
most likely to arise in connection with UAS: intrusion upon seclusion 
and public disclosure of private facts.'' \11\ In addition, many states 
also have civil or criminal statutes, or both, related to invasion of 
privacy.
---------------------------------------------------------------------------
    \11\ John Villasenor, Observations From Above: Unmanned Aircraft 
Systems and Privacy, 36 Harv. J.L. & Pub. Pol'y 457, 500 (2013) 
(internal citations omitted).
---------------------------------------------------------------------------
    On top of these non-UAS-specific privacy protections, a growing 
number of states (as well as municipalities) have enacted legislation 
\12\ addressing privacy from privately-operated UAS. According to the 
2016 National Conference of State Legislatures report cited above, 
``[a]t least 12 states--Arkansas, California, Florida, Idaho, Kansas, 
Mississippi, Nevada, North Carolina, Oregon, Tennessee, Texas and 
Wisconsin--have passed legislation providing privacy protections from 
other citizens that are specific to drones.'' \13\ \14\
---------------------------------------------------------------------------
    \12\ State statutes and municipal ordinances relating to unmanned 
aircraft can raise preemption issues. (``The United States Government 
has exclusive sovereignty of airspace of the United States.'' 49 U.S.C. 
Sec. 40103 (a)(1)) In the interest of time, I am not addressing 
preemption in my testimony today, though it is a very important issue 
and needs to be considered as part of the broader dialog regarding UAS 
policy, including but not limited to frameworks for addressing UAS 
privacy.
    \13\ Essex, supra note 9, at 15.
    \14\ I am focusing my testimony today on legal frameworks relating 
to UAS privacy. In addition, there is an important complementary aspect 
of UAS privacy arising from voluntary frameworks that private entities 
operating UAS can choose to adopt. One example of this is the NTIA 
multistakeholder process addressing unmanned aircraft. See 
Multistakeholder Process To Develop Best Practices for Privacy, 
Transparency, and Accountability Regarding Commercial and Private Use 
of Unmanned Aircraft Systems, 80 Fed. Reg. 41043 (Jul. 14, 2015), 
http://www.ntia.doc
.gov/files/ntia/publications/fr_uas_meetings_notice_07142015.pdf.
---------------------------------------------------------------------------
    This state-level legislative activity reflects what Ohio State 
University law professor Margot Kaminski foresaw in a 2013 law review 
essay on what she termed ``drone federalism.'' Addressing the topic of 
whether additional Federal legislation was appropriate, Professor 
Kaminski wrote:

        Congress should not preempt states from enacting privacy laws 
        governing civilian drone use. States have served as 
        laboratories for experimentation in achieving a balance between 
        First Amendment rights and privacy protection. Congress should 
        permit them to continue doing just that, until an appropriate 
        balance is struck and Federal regulation of civilian drone use 
        might again be considered.\15\
---------------------------------------------------------------------------
    \15\ Margot Kaminski, Drone Federalism: Civilian Drones and the 
Things They Carry, 4 Calif. L. Rev. Cir. 57, 74 (2013).

    While the First Amendment is often at the forefront in legal 
scholarship on unmanned aircraft privacy, it has sometimes been given 
insufficient attention in the state and Federal legislative dialog. To 
see why the First Amendment needs to be front and center, consider a 
person who is holding a smartphone and standing on a third floor 
balcony overlooking a public street. Under the First Amendment, this 
person is free to take a picture of the street scene with his or her 
smartphone. He or she is also free to use the picture privately or to 
post it online, and free to delete it immediately or to retain it for 
years. Now consider an unmanned aircraft operating at the same height 
and used to acquire an image of the same street that raises no more 
privacy issues than the smartphone picture taken by the person on the 
balcony. The government would be on very shaky constitutional ground if 
it tried to legislate what the unmanned aircraft operator can and 
cannot do with the image acquired from the unmanned aircraft.
    To take a variant of this example, consider the following thought 
experiment: Suppose that Congress were to consider legislation 
requiring that all smartphone owners--or all companies that use 
smartphones--develop and publish a privacy policy that would include 
commitments to regularly publish information identifying where and when 
the smartphones were used to take pictures and for how long those 
pictures were retained. No one would seriously contemplate proposing 
such legislation, as it so clearly runs afoul of the First Amendment. 
Yet it is also clear that smartphones can in fact be used to acquire 
images that violate privacy. We understand that the way to address that 
issue is not by enacting new legislation requiring all smartphone 
owners to develop, publish, and implement a burdensome privacy policy, 
but instead through applying existing statutory and common law 
frameworks to hold to account the very small percentage of smartphone 
owners who misuse their devices to acquire privacy-violating images.
    Of course, the analogy between smartphones and UAS only goes so 
far. UAS raise important privacy concerns largely because they make it 
inexpensive and easy to obtain views from an essentially unlimited 
number of overhead vantage points, including many that cannot 
practically be accessed with any other technology. In some situations, 
photographs from those vantage points can undoubtedly violate privacy. 
But in many situations, photographs from unmanned aircraft will raise 
no privacy issues at all. Put another way, unmanned aircraft are not 
inherently a privacy violating technology.
    And this is precisely why First Amendment issues are so important 
in the legislative dialog regarding UAS privacy. The same government-
imposed constraints on unmanned aircraft users that would raise no 
constitutional issues when used to prevent egregious violations of 
privacy, could, in contexts where they are used to prevent or impede 
non-privacy-violating information gathering, collide directly with the 
First Amendment. Put another way, when unmanned aircraft privacy laws 
are drafted without sufficient attention to the First Amendment, they 
can create what might be termed a form of unconstitutional prior 
restraint--not in the traditional sense of preemptively blocking 
information publication, but instead in the inverse sense of 
preemptively blocking information acquisition.
Privacy and Technology More Broadly
    As I noted earlier in my testimony, while the specific technology 
under consideration by the Committee at today's hearing is unmanned 
aircraft, important privacy questions also arise in relation to other 
rapidly changing technologies, including the Internet of Things, 
autonomous vehicles, location-aware smartphone applications, and 
always-on consumer devices equipped with video and/or audio 
capabilities. Faced with the increasingly complex intersection of 
technology with privacy, there is a temptation to conclude that privacy 
challenges created by new technology must always be addressed with new 
legislation.
    Technology-specific privacy legislation is sometimes appropriate 
and necessary. But it should be enacted only after careful 
consideration of how the statutory language will apply as the 
technology at issue experiences dramatic advances.
    Consider the Electronic Communications Privacy Act,\16\ which was 
enacted in 1986 when e-mail services were still nascent. The ECPA 
included the Stored Communications Act (SCA),\17\ which requires the 
government to obtain a warrant before accessing ``the contents of a 
wire or electronic communication, that is in electronic storage in an 
electronic communications system for one hundred and eighty days or 
less.'' \18\ However, ``the contents of a wire or electronic 
communication that has been in electronic storage in an electronic 
communications system for more than'' \19\ 180 days can be accessed 
with only an administrative subpoena or a court order.\20\
---------------------------------------------------------------------------
    \16\ Electronic Communications Privacy Act of 1986, Pub. L. No. 99-
508, 100 Stat. 1848 (1986) (codified as amended at 18 U.S.C. (various 
sections)).
    \17\ Codified at U.S.C. Sec. 2701 et seq.
    \18\ 18 U.S.C. Sec. 2703(a).
    \19\ Id.
    \20\ 18 U.S.C. Sec. 2703(b). The statute provides that the 
government can access communications older than 180 days without a 
warrant only ``with prior notice from the governmental entity to the 
subscriber or customer.'' However, the statute also provides a 
mechanism, routinely employed in criminal investigations, for delaying 
notice. In a 2010 decision addressing the constitutionality of 
warrantless access to e-mails stored for more than 180 days, the Sixth 
Circuit held that ``a subscriber enjoys a reasonable expectation of 
privacy in the contents of e-mails'' stored with or sent through a 
commercial ISP and that ``to the extent that the SCA purports to permit 
the government to obtain such e-mails warrantlessly, the SCA is 
unconstitutional.'' United States v. Warshak, 631 F.3d 266, 288 (6th 
Cir. 2010). However, that decision is binding only in the Sixth 
Circuit.
---------------------------------------------------------------------------
    When the SCA was enacted, digital storage was very expensive and 
storage capacity was correspondingly limited. As a New York Times 
article at the time explained, ``most users of [electronic mail] 
services keep messages only a few months.'' \21\ The overwhelming 
majority of stored digital communications were under six months old, 
and those communications were therefore given heightened attention and 
privacy protection as the SCA was drafted.
---------------------------------------------------------------------------
    \21\ Linda Greenhouse, The Wiretapping Law Needs Some Renovation, 
N.Y. Times, Jun. 1, 1986, http://www.nytimes.com/1986/06/01/
weekinreview/the-wiretapping-law-needs-some-renovation.html.
---------------------------------------------------------------------------
    Few people in 1986 contemplated a future in which the precise 
opposite would occur: Today, the majority of our stored digital 
communications have been stored for longer than six months. Ironically, 
the SCA now has the effect of explicitly removing a warrant requirement 
for the majority of stored communications. With regard to those 
communications, people would be more protected if the SCA did not exist 
at all, since it provides a legislative argument that the government 
can and frequently does employ against those who challenge the 
constitutionality of warrantless collection of stored communications 
greater than six months old.
    Of course, it could be argued that the problem is not the SCA 
itself, but the fact that it has not been updated \22\ as digital 
storage has become dramatically less expensive and consumer behavior 
has changed accordingly. But this, too, illustrates a challenge with 
enacting digital privacy laws with language reflecting technology at a 
snapshot in time. Years later, even when nearly everyone agrees that 
technology has long outpaced the language of a statute, it can 
nonetheless be difficult to obtain agreement on how it should be 
updated.\23\
---------------------------------------------------------------------------
    \22\ Statutes created by the EPCA have been amended several times, 
but the original 1986 provision of the Stored Communications Act that 
allows warrantless access to communications stored for more than 180 
days remains in place.
    \23\ The E-mail Privacy Act, a bill that would revise the SCA by 
imposing a warrant requirement on access to stored electronic 
communications (including those stored for more than 180 days) has been 
introduced multiple times in recent years, most recently as H.R. 387, 
115th Cong. (2017). Earlier versions of the bill introduced in the 
113th and 114th Congress did not become law. As of early March 2017 
H.R. 387 has passed the House and is under consideration in the Senate.
---------------------------------------------------------------------------
    None of this is to suggest that Congress has no role in digital 
privacy, or that there is no need for new digital privacy legislation. 
Congress has a vital role to play in addressing the privacy challenges 
raised by emerging technologies. Part of that role involves fostering a 
dialog among lawmakers, regulators, consumers, the commercial sector, 
and civil liberties groups so that all parties gain a fuller 
understanding of the issues. Part of that role involves identifying 
where existing legal frameworks are working well and where they are 
falling short. Part of that role involves knowing when not to 
legislate. And part of that role involves enacting carefully targeted 
legislation at the right time, with an eye on the past to incorporate 
lessons learned from earlier digital privacy laws, an eye on the future 
to anticipate where the technology will likely lead, and with the goal 
of ensuring that any new legislation not only protects privacy, but 
does so in a way that also promotes innovation and protects 
constitutional rights.
    Thank you again for the opportunity to testify on this important 
topic.

    Senator Fischer [presiding]. Thank you, Dr. Villasenor.
    On behalf of the Chairman, I would like to recognize Dr. 
Gonzalez. Welcome.

              STATEMENT OF EMILIO GONZALEZ, Ph.D.,

             DIRECTOR AND CHIEF EXECUTIVE OFFICER,

                 MIAMI-DADE AVIATION DEPARTMENT

    Dr. Gonzalez. Thank you very much for the invitation, 
Ma'am.
    My name is Emilio Gonzalez, and I am the Director and CEO 
of Miami International Airport, and the Miami-Dade Aviation 
Department.
    I think I am the only person here from the airport 
business, if you will, so my views on the issue of Unmanned 
Aerial Systems, or drones is, I think, representative of many 
of my colleagues, at least in the state of Florida who share 
this same perspective.
    Just to put this into perspective, Miami International 
Airport had its seventh consecutive year of growth. We serviced 
44.6 million passengers last year, and we continue to be the 
largest U.S. airport in the United States for international 
freight, the third busiest for international passengers, and 
the twelfth busiest for total passengers.
    Significantly, we are also the airport that handles the 
most airlines of any airport in the United States. We have 109 
air carriers providing passenger and cargo service into our 
airport.
    Miami-Dade aviation airports are the leading economic 
engine for the state of Florida and for the county. We generate 
$33.7 billion of business and handle almost $53 billion worth 
of freight annually. We also welcome 70 percent of all 
international visitors to the state of Florida through our 
airport.
    Needless to say, the issue of UAS is very, very important 
to us and for our continuing operations. In fact, we are told 
that the FAA received reports of more than 1,200 drone 
sightings near aircraft from February 2016 through September 
2016 in comparison to 874 sightings during the same period in 
2015. Of those 1,200 drone sightings 126, or 10 percent, were 
in the state of Florida.
    In all of 2016, the Miami FAA tower recorded 28 sightings 
near MIA, which is more than double the 11 sightings we had in 
2015. At that rate with 9 sightings already this year, we are 
on pace to record more than 50 this year.
    This high proliferation of drones near our airport and 
others nationwide, I believe, is dangerous at best and the 
worst case scenario would be catastrophic to our community, our 
local economy, and without question to the national aviation 
industry as a whole.
    As technology becomes increasingly more widespread and 
advanced, recreational and commercial purposes alike, it is 
critical for our local and national security that airports get 
ahead of this safety threat, which we take very, very 
seriously.
    I commend the FAA for crafting and approving Part 107 
guidance last June, which included several different 
requirements for safe UAS integration. One such provision, 
which establishes no-drone grids around the immediate perimeter 
of airports, coincides with our Miami-Dade County's ordinance 
for a one mile no-drone radius.
    Our measure was approved in January 2016 by Miami-Dade 
County Mayor Carlos Jimenez and the Board of County 
Commissioners, and it was Florida's first local drone safety 
ordinance. The ordinance prohibits drones from being flown 
within one mile of our airport runways or half a mile from the 
runway center line unless it is authorized by the FAA, and 
carries with it a civil penalty of $500, which is the maximum a 
county fine will allow.
    As members of an industry that is all about flight, we 
appreciate the public's interest in drones, but we believe as 
airport operators that safety is paramount. So our message to 
all drone users in our community is to fly your drone safely 
and responsibly, which means as far away as possible from our 
airports.
    We support the aggressive testing and knowledge component 
of the registration and regulation process. Significant 
progress was made on this front with the recent FAA ruling 
which now requires drone operators to complete a pilot 
knowledge examine in order to receive a Remote Pilot 
Certification. And it is encouraging to see that more than 
500,000 U.S. residents have registered their UAS. And that 
within the first 2 months of the rule taking effect, nearly 
10,000 people took the pilot examine.
    To achieve greater regulation and compliance, we would 
recommend that drone retailers require pilot certification be 
required at the point of sale. And we also recommend that the 
FAA build greater awareness and stronger partnerships with 
local law enforcement to improve regulation at the community 
level.
    Last, I applaud the FAA formation of a Drone Advisory 
Committee and Unmanned Aircraft Safety Team which held their 
first meetings this fall.
    In closing, on behalf of our country's busiest 
international freight airport, and third busiest international 
passenger gateway, I want to once again underscore Miami 
International Airport's emphatic support for legislation that 
establishes robust requirements for the registration, 
education, regulation, and enforcement of safe UAS integration.
    I also believe we echo the sentiment of airport operators 
across the country when I say that we urge careful, cautious, 
and deliberate integration of the UAS into our national 
airspace.
    And with that, I will end my testimony.
    [The prepared statement of Dr. Gonzalez follows:]

Prepared Statement of Emilio T. Gonzalez, Director and Chief Executive 
                Officer, Miami-Dade Aviation Department
    Good morning Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. I thank you for holding today's hearing on this 
extremely important topic, and for the opportunity to share my 
perspective as the Director of Miami International Airport.
    Chairman Thune, your long-time friendship and support at the 
Federal level is deeply appreciated, and it is a special honor to 
appear before your Committee today, sir. I am also especially grateful 
to Senator Nelson, not only for his invitation to speak at today's 
hearing, but for his leadership in the state of Florida and across the 
Nation regarding this and myriad other pressing issues facing the 
aviation industry.
    To put my perspective in context as it relates to unmanned 
aircraft, or drones, I wish to share a few relevant facts about Miami 
International. MIA had its seventh-consecutive year of growth in 2016, 
serving 44.6 million passengers. MIA also ranks as America's busiest 
U.S. airport for international freight, third-busiest for international 
passengers, and twelfth-busiest for total passengers. It offers more 
flights to Latin America and the Caribbean than any other U.S. airport, 
and serves more airlines than any other airport in America, with 109 
passenger and cargo carriers currently on our roster.
    MIA, along with its general aviation airports, is also the leading 
economic engine for Miami-Dade County and the state of Florida, 
generating business revenue of $33.7 billion and handling $52.8 billion 
worth of freight annually. We also welcome 70 percent of all the 
international visitors to Florida through our airport. Our aeronautical 
and non-aeronautical operations both continue to grow steadily, with 
non-aeronautical now comprising 35 percent of our revenue. Thanks to 
this growth, the Miami-Dade Aviation Department was able to set its 
first-ever $1 billion budget for the current Fiscal Year.
    Additionally, MIA is one of the 37 busiest airports in America that 
operate within what the Federal Aviation Administration classifies as 
Class B airspace, which is a larger, more restrictive area than the 
five-mile drone notification radius required at other airports.
    It is also notable that of the 580,000 drone registrations across 
America, 35,000 of those are within the state of Florida, which 
accounts for six percent. As you can imagine, a large number of those 
registrations are from Miami-Dade County, Florida's most populated 
area.
    These factors, in addition to South Florida's appealing weather and 
venues for outdoor activities, make MIA a prime case study to examine 
the effects, successes and challenges of safely managing drone use near 
our Nation's airports. As we are all aware, the use of drones across 
the country continues to grow rapidly, which means the dangers 
associated with flying drones near commercial aircraft continues to 
grow as well. Safety and security, needless to say, are paramount 
concerns.
    In fact, the FAA received reports of more than 1,200 drone 
sightings near aircraft from February 2016 through September 2016, in 
comparison to 874 sightings during the same period in 2015. Of those 
1,200 drone sightings nationwide, 126 were in the state of Florida, 
which is one out of every 10. In all of 2016, the Miami FAA tower 
recorded 28 sightings near MIA, which is more than double the 11 
sightings we had in 2015. With nine sightings already this year, we are 
on pace to record more than 50 events near MIA in 2017.
    So while drone sightings nationally have risen 50 percent in the 
last year, MIA is experiencing a 100-percent increase annually, and 
other Class B airspace airports are undoubtedly seeing similar growth 
as well.
    This high proliferation of drone use near our airport and others 
nationwide is dangerous at best, and the worst-case scenario would be 
catastrophic to our community, our local economy, and without question, 
to the national aviation industry as a whole. As drone technology 
becomes increasingly more widespread and advanced for recreational and 
commercial purposes alike, it is critical to our local and national 
security that airports get ahead of this serious safety threat instead 
of catching up to it.
    Currently, the FAA only requires notification to the airport's air 
traffic control tower to operate a UAS within five miles of an airport, 
and for drones to be registered with the FAA and be less than 55 
pounds. In addition, the FAA strongly encourages drone operators to 
operate in accordance with a community-based set of safety guidelines, 
such as those developed by the Academy of Model Aeronautics (AMA). 
Drone operation in Class B airspace is also prohibited without prior 
coordination and permission from the FAA.
    I commend the FAA for crafting and approving the Part 107 guidance 
last June, which included several additional requirements for safe UAS 
integration. One such provision, which establishes no-drone grids 
around the immediate perimeter of airports, coincides with Miami-Dade 
County's ordinance for a one-mile no-drone radius.
    Our measure, approved in January 2016 by Miami-Dade County Mayor 
Carlos Gimenez and the Board of County Commissioners, was Florida's 
first local drone safety ordinance. The ordinance prohibits drones from 
being flown within one mile of the end of our airport runways or half a 
mile from the runway's centerline, unless authorized by the FAA, and 
carries with it a civil penalty of $500--the maximum County fine 
available.
    To make the public aware of our local ordinance and to promote 
drone safety, the Aviation Department initiated a comprehensive 
awareness campaign immediately after the passage of the ordinance. We 
began the campaign with media relations and social media efforts that 
included a press conference in March--just before schools went on 
spring break and when drone use was expected to increase. We now know 
that our expectations were accurate, since FAA statistics show the 
number of drone sightings from April to June were double the amount of 
any other three-month period in 2016.
    Senator Nelson, thank you for joining us at that initial press 
conference, which generated more than half a million impressions 
through print, TV and online news coverage. The awareness campaign also 
included paid public service announcements by the Miami-Dade Aviation 
Department on the top English and Spanish radio stations last March, 
which reached more than one million listeners. In addition to 
leveraging traditional media, our online assets and paid advertising, 
the fourth component of our campaign has been community partnerships. 
At our request, neighboring municipalities and the local public school 
district joined in our community-wide effort by posting no-drone zone 
campaign materials on their websites and social media channels for 
additional exposure.
    As members of an industry that is all about flight, we can 
certainly appreciate the public's interest in drones, but safety must 
remain paramount. So our campaign message was simple: fly your drone 
safely and responsibly--which means far away from our airports.
    Moving forward, we are actively exploring geo-fence and other drone 
mitigation technology that can prevent drones from flying within our 
one-mile boundary. One developer of this technology provided a 
demonstration for MIA officials just two weeks ago. While we believe 
that we can mitigate unintentional incursions into our air space, the 
potential for deliberate UAS attacks continues to grow. Certainly, 
there are legal parameters and procedures regarding rules of engagement 
that still must be established between local law enforcement and the 
FAA. While my department is taking a forward-leaning approach to drone 
detection, tracking and mitigation technology, we also remain in active 
communication with our Federal partners.
    To that end, we are pleased with the FAA extension provision to 
establish a pilot program this year for airspace hazard mitigation at 
airports and other critical infrastructure using unmanned aircraft 
detection systems. Thank you, Senator Thune and Senator Nelson, for 
your leadership in having this critical section included. This new 
commitment of funding and resources is a positive start to 
strengthening local efforts to detect, track and mitigate unsafe drone 
use. Miami-Dade County welcomes the opportunity to pilot any and all 
technologies the FAA deems appropriate.
    We also support an aggressive testing and knowledge component of 
the registration and regulation process. Significant progress was made 
on this front with the recent FAA ruling, which now requires drone 
operators to complete a pilot knowledge exam in order to receive a 
remote pilot certification. It is encouraging to see that more than 
half a million U.S. residents have registered their UAS, and that 
within the first two months of the rule taking effect last August, 
nearly 10,000 people took the pilot exam.
    To achieve greater regulation and compliance, one of our 
recommendations is that drone retailers require that the pilot 
certification be required at the point of sale before purchase. We also 
recommend that the FAA build greater awareness and stronger 
partnerships with local law enforcement, to improve regulation at the 
community level.
    Lastly, I applaud the FAA's formation of a Drone Advisory Committee 
and Unmanned Aircraft Safety Team, which held their first meetings this 
past fall. We look forward to seeing how these two partnerships between 
the drone industry and the FAA will help provide guidance to the FAA on 
gaps in its integration strategy and reduce safety risks to commercial 
aviation and the public.
    In closing, on behalf of our country's busiest international 
freight airport and third-busiest international passenger gateway, I 
want to once again underscore Miami International Airport's emphatic 
support for legislation that establishes robust requirements for the 
registration, education, regulation and enforcement of safe UAS 
integration.
    Conversely, as one of our Nation's Category X airports at the 
highest risk of terrorist attack, I would like to reiterate our concern 
regarding the potential use of drones by those who wish to do harm at 
high-profile targets like airports. While we acknowledge the untapped 
recreational and commercial opportunities that drone technology 
presents, the inherent risks posed by UAS at this point from a major 
hub airport's perspective outweigh the rewards. I believe we echo the 
sentiment of airport operators across the country when I say that we 
urge careful, cautious and deliberate integration of UAS into our 
national air space.
    Thank you again for the honor and privilege to offer my thoughts 
and recommendations to this esteemed body, and I look forward to 
working productively together toward our common goal of ensuring the 
safety and security of our Nation's airports.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Dr. Gonzalez. And thank you all 
for your opening statements.
    I will begin the Committee's questioning with a question to 
Mr. Fowke, please. I appreciated your comments on how Unmanned 
Aerial Systems, or UAS, can assist in increasing safety of our 
critical infrastructure. In my home state and elsewhere, the 
Union Pacific and the BNSF railroads are utilizing the UAS to 
inspect track and bridges. In fact, Burlington is conducting 
testing with the FAA's approval in New Mexico.
    Can you expand on how the FAA could enhance beyond visual 
line of sight authorities so that we can allow greater 
utilization for infrastructure monitoring and safety?
    Mr. Fowke. Yes, I mean, there are a couple of things we 
would like to see accomplished.
    First of all, we need to develop the technology: the 
command-and-control and the detect-and-avoid technology. And 
that is what we hope to do in our partnership with the FAA and 
we hope to do that over the next 6 months.
    We would really like to start testing and using beyond 
visual line of sight in our operations. And we have, as I said 
in my testimony, 20,000 miles of transmission line, and we can 
save millions of dollars for our customers with this 
technology. And we do think it can be done safely.
    I guess the second thing I would say is I do think it is 
important the FAA and policymakers recognize that critical 
infrastructure--utilities--should be treated differently than 
just a standard commercial user because it is critical 
infrastructure and because of the benefits. And everything 
comes with risk, but as I mentioned in some of my testimony, 
some of the inspection methods we do today have their own 
risks.
    So we think there is enormous benefit in this technology.
    Senator Fischer. Thank you.
    Mr. Lawrence, my office is working with researchers at the 
University of Nebraska Lincoln and they are working on 
agriculture UAS applications. The small UAV framework, which is 
Part 107 rules, they do not define what have become known as 
micro UAS, and that is generally understood to weigh less than 
4.4 pounds.
    Agriculture stakeholders in my state, they have talked 
about using the micro UAS to quickly inspect, for example, a 
center pivot. And this would qualify as a commercial operation, 
which under the FAA's rules would require a Remote Pilot 
Certificate. Obtaining that certificate may not seem worth a 
farmer's time, however, if all he or she wants is to quickly 
inspect a pivot.
    So, will the FAA address micro UAS as distinct from larger 
UAS? And could micro operations in rural farming communities 
qualify for a shortened certificate to operate really because 
of the low-risk nature of these flights?
    Mr. Lawrence. Thank you for the question.
    The Remote Pilot Certificate is focused primarily on making 
sure that the operator understands the airspace system in which 
they are operating in. And that is one of the key things that 
we have in all the operators.
    When we refer to ``micro,'' it seems to mean different 
things to different folks. In our collaborative efforts, we 
have worked with one stakeholder group to look at how we might 
approve operations over people, which is slightly different, 
but they did look at the weight effect.
    Based on that group--it was an aviation rulemaking 
committee's evaluation--they explored the available medical 
data and information. They made a determination that without 
any type of standards on either the aircraft or the operators 
themselves, that something which is about the weight of two 
sticks of butter would be OK to operate over people. But to go 
to a four to a five pound aircraft, which is about equivalent 
to a flying brick, would not quite be appropriate without 
either some controls over the operator or some controls over 
the aircraft.
    And we look forward to working with the stakeholders and 
the industry to look at how best we can achieve that goal of 
safety, which is always the first goal of the FAA.
    Senator Fischer. And I agree with our concerns about the 
safety, but would you take into account the location that these 
vehicles would be used?
    Mr. Lawrence. Yes, absolutely. We do take into 
consideration the location that the vehicles are used and 
particularly when we do our exemptions and waivers and 
authorizations. It does play an important factor in it, but it 
is still in the National Airspace System.
    I am sure, for example, in the rural areas the current 
operators there, the agriculture operators, for example, also 
want to know that their fellow operators in that environment 
understand the rules of the road.
    Senator Fischer. Also you talked about the UAS Traffic 
Management System that the FAA is working on with NASA.
    How is the FAA ensuring the technology that is being 
developed could be adopted to interact with aircraft serving a 
small hub or general aviation airports?
    Mr. Lawrence. The UTM process is our partnership with NASA. 
They are doing the primary research. Then we put in place what 
we call our Research Transition Teams to assure that what they 
are developing is transferrable to the FAA, and it is something 
that will support our wants and needs.
    When it is related to local airports, UTM is one piece of 
technology, not necessarily the only piece of technology. Some 
of the other things that we are looking at are the I.D. and 
tracking needs, and also the geo-fencing that was talked about 
by this panel.
    By establishing a network of where you can fly and where 
you cannot fly--and automating our authorizations in such a way 
that that information gets out to the users quickly--we can 
address the needs to keep people away from areas, whether it be 
infrastructure or whether it be airports, and where we do not 
want them to operate.
    Senator Fischer. OK. Thank you, Sir.
    On behalf of the Chairman, I would recognize our Ranking 
Member, Senator Nelson.
    Senator Nelson. Thanks.
    You heard me in my opening comments talk about the 
detection company and the changing technology of identifying 
drones.
    Mr. Lawrence, are you well into the pilot program mandated 
by the FAA Extension? Anything more that we need to do with you 
in your pilot program; just a quick answer?
    Mr. Lawrence. The quick answer is we look forward to giving 
you the report of that testing so that you can make those 
valuations and see what is the best next step.
    Senator Nelson. And Dr. Gonzalez, I would assume Miami is 
willing to participate in the pilot program, since you have had 
a couple of drone sightings within proximity of an inbound or 
outbound airliner?
    Dr. Gonzalez. Sir, we are willing to participate in any and 
every pilot program available. In fact, we are already looking 
at technologies on our own.
    So the answer is yes.
    Senator Nelson. Let me ask any of you, there have been 
reports from Colombia and Mexico that drones are increasingly 
being used by drug traffickers to move illicit narcotics.
    Are you aware of any of these instances where they move the 
drugs especially to evade the screening and enforcement at 
ports, airports, and other monitored areas?
    Mr. Schulman. Senator, let me attempt to answer that.
    So as the largest manufacturer, we condemn the use of our 
technology for any illegal or harmful behavior. Our products 
are made for peaceful purposes; all the benefits that you have 
heard today, and that you have heard over the past few years.
    Like other manufacturers of cell phone technology or pickup 
trucks that have guns mounted to them, we cannot control what 
people do with that technology.
    Senator Nelson. Right, right. But that is not the question. 
The question is, have you heard, any of you?
    [No response.]
    Senator Nelson. OK. Well, sooner or later you will hear 
about it because somebody will figure it out.
    And interestingly, this new drone in Dubai that is now 
going to transport people. Is that going to be a way of 
surreptitiously getting people across the border, which is 
another advance of technology that is going to give us new 
challenges, not only drugs and other contraband, but possibly 
people in the future? So, we really have a lot to examine.
    Coming up in the FAA bill, we are going to have more that 
we ought to examine on privacy and drones. What about the drone 
that comes down to your bedroom window and starts filming? So 
it is a whole new area here that is going to have to be 
explored.
    Are you all sufficiently cerebral and flexible enough to 
get into this, Mr. Lawrence?
    Mr. Lawrence. One of the key things that we, the FAA, are 
doing as we are integrating all of these UASs into the system 
is collaborating with our stakeholders.
    No, the FAA does not have all those answers and that is one 
of the reasons why we have heard about the development of the 
Drone Advisory Committee, and why we work with that group to 
bring in all the stakeholders: the State and local officials, 
the aviation officials, the drone manufacturers. It is really 
in working together that we are going to come up with these 
answers, and we appreciate your support of these stakeholder 
groups.
    Senator Nelson. Have any of the rest of you heard or have 
any concern that the FAA is not exercising sufficient authority 
in directing the test sites? Remember, they did seven sites 
across the country. Do any of you have any concerns about that?
    [No response.]
    Senator Nelson. Looks like you are getting off pretty good, 
Mr. Lawrence. OK.
    I am going to stop there and we have a bunch of other 
questions down here.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman, thank you very much. And thank you 
all for being here on what I think is certainly an important 
topic, but I think it is an exciting topic as well.
    Kansas is a place in which UAVs receive a significant 
amount of attention. We are involved in lots of research, and 
testing, and implementation. Well, all three universities, 
Wichita State University, Kansas State University, and Kansas 
University are all involved in this effort.
    We have formally appointed a State Director of UAVs, a 
former Air Force Lieutenant Colonel, Bob Brock. He has recently 
released a 5-year plan for drone adoption at the State level.
    Ms. Cooper, I appreciate you in your written testimony 
calling attention to the PrecisionHawk work that is being done 
at Kansas State University.
    Two weeks ago, I visited the UAS Laboratory at Kansas 
Polytechnic where I got to take a drone on a test flight 
myself. And a significant amount of dollars came through the 
Mississippi State-led Center for Excellence team on the topic 
of PrecisionHawk that we are involved in and working on.
    I think Kansas is a state that has seen the value of that. 
We know in addition to that kind of work, we see great 
potential for drone technology to be used in agriculture.
    Just this past weekend, we have had significant grassland 
fires in Kansas. Thousands of acres, land larger than some of 
the New England states, have now burned. And Unmanned Aerial 
Vehicles are being used to count the carcasses of dead cattle; 
the opportunity to review utility lines, poles, and wires 
downed; fencing of tens of thousands of miles. So there is a 
significant opportunity for us to use this technology.
    In regard to this line of flight issue, the ability to see, 
what is the latest one? You mentioned in your testimony, Ms. 
Cooper, or maybe this is a question for Mr. Lawrence, her 
testimony mentioned three phases.
    What kind of progress is being made and what findings or 
conclusions are you drawing from the data collected?
    Ms. Cooper. Senator, thank you for your question.
    As I mentioned in my testimony, our company has been 
working with Kansas State University to conduct our Pathfinder 
research. We have conducted a couple of phases of the research 
already and we are onto our third phase right now.
    Some of the things that we have learned through our 
research efforts include the fact that you can fly safe 
extended line of sight operations for about a two-and-a-half 
nautical mile distance between the drone and the operator.
    Extended line of sight operations are operations where you 
do not necessarily see the drone itself, but you can see and 
scan the airspace that surrounds where the drone is located in 
order to avoid intruding manned aircraft.
    The next phase of the research that we are working on this 
year, which will help inform the rule for expanded operations, 
is focused on localized beyond line of sight operations. Some 
of our former research under the Pathfinder program suggested 
that there are variances among the human population in terms of 
being ble to detect intruding manned aircraft and the decisions 
that they take when they notice manned aircraft.
    And so what we are trying to do is minimize those 
differences that we see across the population of pilots and 
non-pilots by using technologies like our LATAS system to 
mitigate the safety risks.
    Our LATAS system gives the operator real time situational 
awareness of manned aircraft flying in the vicinity. 
Essentially, you would receive something along the lines of an 
in-app notification with the location of the manned aircraft 
flying close to where you are conducting your operation so that 
you can avoid any collision.
    Senator Moran. Thank you very much.
    Mr. Lawrence, anything to add to that?
    Mr. Lawrence. I will just say the two main challenges that 
they are addressing is really the challenge of separating 
aircraft in the air, making sure we do not have a collision 
there, and protecting people and property on the ground.
    And the advances in their project have enabled us to issue 
waivers now on a regular basis for operations over farm fields 
as described, while we are protecting the other operators in 
there. That is over a 3,000 percent increase over the Base 107 
of the acreage covered. That is a huge advancement and they 
have been a great partner.
    Senator Moran. Thank you. If we have a second round, I may 
ask about the ability to quickly certify a drone for use in 
emergency and disaster recovery.
    Dr. Gonzalez, you mentioned something that caught my 
attention. It causes me to wonder about enforcement. So when a 
drone is near your airport, who is responsible for making 
certain that the operator is found, prosecuted, and does that 
happen?
    Dr. Gonzalez. Sir, we have a county ordinance that 
addresses that. Unfortunately, at the county level, the most we 
can fine somebody is $500 and we would have to catch them in 
the act. So that makes it very difficult.
    What we have done is when we issued this ordinance, we did 
a massive public relations and educational campaign in English 
and Spanish so that people knew that this ordinance took 
effect, that there was a price to pay.
    But in my opinion, I do not think that does enough.
    Senator Moran. Is there anyone beyond local enforcement 
that pursues these kinds of cases?
    Dr. Gonzalez. Not that I know of, Sir. And again, to my 
knowledge, I do not think we have pursued one. It is on the 
books. We see a spotting. We may send a police cruiser to a 
general area, but there will not be anything there.
    But if I might add, Sir, just real quick, it is interesting 
because we all value, everybody at this table, values the 
importance, the technology, the future, the capabilities of the 
UAS's. I find myself in kind of a different situation here 
because although I understand that there are agricultural, 
there are energy-related reasons why we need to have this. At 
my airport, we do not need to have this.
    From a critical infrastructure perspective, my job right 
now, at least intellectually and operationally, is to look for 
ways to bring these down because if you lose a UAS over a 
cornfield or over a power line, that is an unfortunate cost of 
doing business.
    But if one of these things ends up getting in front of an 
aircraft like happened not 2 months ago at my airport, the 
results are catastrophic. And I have to be very cognizant of 
the fact that I represent the interest of the traveling public.
    When you talk about airports and seaports, you are not 
talking about a crop or a product. You are talking about 
peoples' lives. So we take this very, very seriously.
    Senator Moran. I think we all have the responsibility too. 
I do not mean to diminish what you just said, but we all have 
that responsibility.
    Dr. Gonzalez. Yes, Sir.
    Senator Moran. It is useful for you to remind us of that. 
Thank you, Sir. Thank you very much.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you. Thank you for the panel and a 
very interesting discussion here today. This is a very exciting 
area of development in technology, which we are all eagerly 
awaiting its full development.
    But some of the issues that were brought up, that Dr. 
Gonzalez brought up, the issues related to local airspace 
around the airport. And certainly there is quite a patchwork 
now of local, State, and other types of regulations that are 
coming out. And we know that in order to fully develop a new 
technology, it is best to have some very clear rules of the 
road, very clear regulations and not have a patch work that can 
get in the way of this innovation.
    Mr. Lawrence, I know that the FAA has said that a patchwork 
of differing restrictions on UAS flights could affect the FAA's 
ability to control airspace and flight patterns, and ensure 
safe and efficient traffic flow. Also, I think it may impair 
the ability to fully develop this technology as well with all 
of its benefits.
    I have heard a couple of folks talk about the Drone 
Advisory Committee efforts. Could you just give us an update as 
to where we are in terms of the Committee's review of State, 
local, and Federal roles in regulating these processes?
    I know you are going to have an initial report in May and 
another one in October, so maybe a status a report on where 
that is and what we should expect? And what are some of the 
challenges that you are looking at?
    Mr. Lawrence. Yes, Sir.
    We are very happy with the Drone Advisory Committee. Again, 
it is just such a great group of diverse individuals bringing a 
lot of expertise. And, in fact, on this panel here, we have the 
Chairman of the Task Group who is focused on the roles and 
responsibilities.
    That is the way we have titled the particular task group 
that is looking at what are the roles and responsibilities of 
local officials, and State officials, and at the Federal level 
too, and how do we divide those things up?
    I would say they have jumped in with both feet. I want to 
commend the industry folks as we have to work hard to keep up 
with them, more than the other way around. They meet multiple 
times a week. We are briefing constantly and they are 
developing materials very quickly because they understand the 
criticality of this to come up with answers, and solutions, and 
approaches this year, not in future years.
    Senator Peters. Well, given the breadth of the panel here, 
maybe other panelists could comment on their concerns that we 
have this patchwork of regulations that seems to be developing 
across State and local jurisdictions.
    How concerned are you and what do we need to be thinking 
about here in Congress?
    Mr. Schulman. Senator, I think this is actually one of the 
real key issues for the Nation going forward in terms of the 
integration of UAS into the National Airspace System for the 
reasons that you identified.
    But, I am pleased that we are taking this issue on in the 
DAC. I am a Co-Chair of that Rules and Responsibilities Task 
Group. We have met, I think now, for six full days. We have two 
full days scheduled next week to continue our work to try to 
reach a consensus with all the relevant stakeholders and try to 
figure out what the answers are.
    I think if you look legally at doctrines concerning 
preemption, they are not satisfying to local officials. 
Similarly, land zoning takeoff and landing types of frameworks 
are not a solution for a technology that you literally can 
takeoff and land anywhere.
    So really, I think it deserves new thinking and hopefully a 
consensus report to the FAA in May.
    Senator Peters. Does anybody else want to comment?
    Ms. Cooper. Senator, thank you for your question.
    I also serve on the Task Group on Roles and 
Responsibilities and look forward to working with the rest of 
the stakeholders to come up with some creative solutions that 
will help us deliver a national standard that also meets local 
interests.
    From an industry perspective, I would like to mention that 
as a relatively small startup company, it is very difficult to 
grow your business across State lines and across county lines 
if you have to deal with different rules. Not everyone can 
afford to hire lawyers in every county across the United 
States, and we always strive to be compliant with all 
regulations.
    It is very critical for the industry to achieve its full 
potential to have a national standard that we can meet.
    Senator Peters. Thank you. Given the Small UAS rules 
requirement that all flight remain below 400 feet, it seems to 
be the case that the conversation about potentially utilizing 
some other airspace for UAS flight has stopped. At least, that 
is what I have been told by folks who are involved in this.
    Mr. Lawrence, is the FAA looking at the potential of 
utilizing lesser used airspace, such as Class E or Class G, for 
shared General Aviation and UAS flight?
    Mr. Lawrence. I would say the FAA is looking at all classes 
of airspace for UAS flight.
    And when I was mentioning our partnership with NASA in my 
opening remarks, I mentioned, one, the UTM effort which we 
commonly think of as the low altitude effort.
    But the other half of that, the second group, is a Research 
Transition Team to look at using other airspaces and including 
what we call Upper E, for those who want to operate at very 
high altitudes for surveillance activities and things like 
that.
    So it is an ongoing effort and we do not just focus on the 
smalls that are here on this panel, but we also look at our 
larger operators as well.
    Senator Peters. Right. Thank you very much.
    Senator Fischer. Thank you, Senator.
    Senator Cortez Masto, please.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you for the 
opportunity. Thank you for this fantastic panel.
    I am very excited because I come from the great state of 
Nevada and that is one of the test sites for the UAS testing. 
In fact, I am very proud of the fact that the FAA UAS test site 
in Reno partners with Federal agencies, the Governor's economic 
development efforts in Nevada, the Institute for Autonomous 
Systems, the University of Nevada Reno, and NASA. We have some 
exciting things going on.
    I am curious, have any of you been there to the test site?
    Mr. Lawrence. [Raises hand.]
    Senator Cortez Masto. Good. Because you are the most 
important person I want to be there. So that is fantastic to 
know. Thank you. And we invite you back. There are exciting 
things happening.
    So let me ask. Mr. Lawrence, because of the research that 
is going on, and this may be a little premature, but do you 
envision broadening the scope of research at individual sites? 
And if not at this time, what information do you need to move 
forward with utilizing the new technology and expanding?
    Mr. Lawrence. Thank you highlighting the research. In fact, 
many of us were in Reno recently for our Drone Advisory 
Committee.
    Senator Cortez Masto. That is fantastic.
    Mr. Lawrence. We had a lot of exposure to the great state 
of Nevada and that test site. There is a lot of great work 
going on there with NASA and others.
    As far as expanding our testing work, the FAA's focus, 
obviously, is primarily safety and regulation. So we focus on 
applied research and things that are going to assist us with 
our rulemaking process.
    But we know that it is much wider than that. There are 
other things that need to be accomplished. And I think the work 
with our Center of Excellence--not just with the FAA's 
activities, and wants, and needs--but what others bring in, 
other companies here bring in what their wants and needs are as 
well.
    And so what we have seen with the test sites is they are 
expanding and learning where they can get additional research 
dollars and help. We have seen several focus on key areas like 
first responders. That is another great area where the FAA may 
not need it for regulations, but a fire department may want to 
know how best to respond to using a drone to find a person in a 
burning building, for example.
    So it is a combination of things. We are focused on our 
applied research and what we need. But it is available there 
and that network is available for others to use as well.
    Senator Cortez Masto. OK. Thank you. We have had a 
discussion that I am hearing some of the barriers and things 
that we need to overcome. One of them is the State patchwork 
regulations.
    Any other barriers that we should be looking at or issues 
that we should be aware of that we can help tear down some of 
those barriers to continue toward this path of research and 
identifying appropriate balance here moving forward with UAS? I 
will open it up to anybody on the panel.
    Mr. Schulman. Senator, I think I want to pick up on 
something Senator Fischer mentioned earlier in the hearing 
which is the need for a micro UAS rule, which I define as a 
small, low weight category.
    We have seen that in other countries around the world. 
Australia, Canada, Mexico, and others have figured out that the 
lowest weight, smallest drone poses less risk, and therefore 
ought to receive differing treatment in the regulations.
    Not just because it makes sense, but also because it 
incentivizes industry to put the best features, the safety 
features into the smallest package so that in the event of an 
accident with someone on the ground or in the air, you are 
inherently dealing with the lowest mass, and therefore the 
safest type of collision possible.
    So I would encourage and appreciate that last year, the 
Committee picked up on Senator Booker's language and put into 
the bill a micro UAS category. I would encourage the same this 
year as well.
    Senator Cortez Masto. Thank you. Please.
    Mr. Lawrence. From an FAA standpoint, I would say one of 
our biggest things is, again, dealing with the level of 
innovation and just the whole volume of operations that we are 
dealing with. We had talked about that just in a few months, we 
have so many new pilots and aircraft.
    It is automation. This is one of the key things for us. In 
order to support this entire network, it is the I.T. network 
and the data networks that we need to interact with all of 
these folks here. We are talking millions of operations. We are 
only going to do that with the resources we have if we can 
automate many of these processes.
    Senator Cortez Masto. Thank you. And I know my time is 
running short, but I have a quick question, or maybe we can 
talk later or submit it on the record.
    But for Dr. Villasenor, looking through your comments and 
you make the comment that, ``Do unmanned aircraft put privacy 
at risk in ways that fall outside the scope of existing 
constitutional, statutory, and common law privacy 
protections?'' And you say no in your written comments and 
state that you think it is premature to enact broad, new 
Federal legislation specifically directed to unmanned aircraft 
privacy.
    I am curious, though, how you see the role of State, and 
State legislatures, and the State law continuing down this 
path? Because there is really no Federal oversight and we can 
use the constitutional parameters. But even in the state of 
Nevada, we are continuing to pass legislation that will have an 
impact.
    Do you see the State's role somewhere here working in 
conjunction with the Federal level on these privacy issues?
    Dr. Villasenor. Thank you, Senator, for the question.
    So first just a bit of a clarification. What I said is I 
think it is premature. In other words, it may be in the future 
that we see evidence that some of these existing privacy 
frameworks are proven insufficient. And if that occurs, I would 
certainly be the first to be supportive of Federal level 
legislation.
    But I have not seen evidence to that effect, and I am 
optimistic that those existing frameworks will, in fact, prove 
protective. Those existing frameworks, when I said that, also 
include the State level frameworks.
    Of course, there is a long tradition of states addressing 
privacy, both through criminal and civil statutes. And many 
states have, in fact, done that already specifically in 
relation to unmanned aircraft operated by private entities. I 
believe the number is about a dozen or so, I may be wrong on 
that, which have enacted laws like that.
    And so I think that it is a good thing for states to 
continue to be experimenting in this Federalist model of a 
laboratory. One of the reasons why I do not think we are ready 
for Federal legislation is because I do not think we have seen 
what States can do in this respect, and I think we should let 
that play out and see if those frameworks work.
    Senator Cortez Masto. Thank you very much.
    Thank you, Madam Chair.
    Senator Fischer. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Madam Chair.
    And welcome to all the panelists. Thank you for your 
testimony, and for your work, and observations on this issue.
    To Mr. Lawrence, you may know that New Hampshire, my home, 
has some of the greatest outdoor recreation areas in the 
country. And so, you can go way up north in our state or all 
around, and there are really lots and lots of opportunities to 
explore nature's great gifts and really truly get off the grid.
    So this means that the Granite State relies very heavily on 
dedicated first responders and also a lot of individual 
volunteers who assist with search and rescue. They assist with 
firefighting and other responsibilities too in our more remote 
communities.
    So to me, one of the greatest promises of drone technology 
is that it can be a critical tool for first responders and can 
literally save lives with aerial surveillance capabilities. And 
at least one of you has mentioned our first responders and 
volunteers put themselves at great risk during these search and 
rescue operations at times. So there is just a lot of potential 
here.
    It is my understanding that Congress passed UAS provisions 
last year directing the FAA to prioritize UAS applications 
coming in for emergency response purposes, including making it 
easier for civil operators to assist first responders, as well 
as assisting in infrastructure restoration efforts in the 
aftermath of an extreme weather event or other natural 
disasters. And as I speak, we have a lot of lines down and 
power outages up in New Hampshire. So this is heavily on a lot 
of peoples' minds.
    So can you provide an update on how implementation of that 
part of the law is going at the FAA?
    Mr. Lawrence. Yes, Senator. And thank you for highlighting 
this area. It is actually a good success story, we believe.
    We respond to emergency requests, and this would be a 
hurricane, or power outages, or these kinds of things, 
typically within one hour to approve the operation.
    Now, these would be operations that would be beyond our 
Part 107 Rule because, again, within line of sight, they can 
operate today unless there is a restriction on the airspace. 
Lots of times those restrictions are put in by the incident 
commanders who want to control all the traffic that is 
operating in that area, and that is who we rely on.
    We rely on the local incident commander to tell us whether 
this is an appropriate operation or not. When sponsored by the 
local incident commander, we respond as quickly as the 
communication flow can happen to approve these types of 
operations to support responders.
    Senator Hassan. Great. Is there anything more that needs to 
be done to support drone use for first responders in emergency 
purposes and restoration efforts for critical infrastructure?
    Mr. Lawrence. I would never sit here and say that we are 
done.
    Senator Hassan. Yes, right.
    Mr. Lawrence. There is always plenty more to do.
    In this area, I think where you may hear a lot of the 
requests are really for those who are not operating under an 
incident commander. They are not part of the fire department, 
but they are still contributing to the response of a particular 
incident.
    And that is really our next group. How do we develop our 
rules and regulations to work with these folks so there is a 
common understanding? How do we interact with the two different 
kinds of aircraft?
    For example, if CNN and the emergency response helicopter 
are up at the same time, or the emergency quad copter is up at 
the same time, this is where UTM comes in. This is where our 
partnership with NASA and the research to develop the traffic 
management procedures comes in.
    If we can continue to support that, continue to work with 
the stakeholders to develop those rules for operating in those 
local areas, that is when we are going to get a quicker 
response and even more success.
    Senator Hassan. That is great. Thank you.
    Do any of the other panelists want to address this briefly 
or did Mr. Lawrence cover it?
    Mr. Schulman. I will just add that this is an excellent 
example of why technology requirements like geo-fencing need to 
be flexible.
    So last year we took the Department of Interior Wildfire 
Notice System, put that into our geo-fencing. So if you fly a 
drone near one of their wildfires, you are automatically 
disabled, at least by default.
    However, we know that firefighters and emergency responders 
are using drones. We do not want to turn off the technology 
exactly where it is needed on an urgent basis.
    So as we talk together about technology requirements and 
standards, we really need to consider that there are 
circumstances where a drone is useful at an airport. It is 
useful at a wildfire and we do not want to turn the devices 
off.
    Senator Hassan. Thank you.
    Mr. Schulman. Thank you.
    Mr. Fowke. Senator, I would just add that that is something 
we are very much looking at. We have a research project 
underway in North Dakota to understand where we are actually 
simulating the aftermath of a storm and how we can use UAS to 
more quickly recover from that storm. It is an excellent 
opportunity.
    Senator Hassan. Well, thank you all very much, and I will 
submit the remainder of my questions in writing. Thanks so 
much.
    Senator Fischer. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair and thank you to 
the witnesses.
    Mr. Schulman, that is a good place for me to jump into my 
questioning where you brought up firefighting because I think 
you accurately discussed the situation. That is, that there are 
some very useful applications that people want in firefighting 
for drones, and those are more commercial uses or government 
uses.
    And then we want the other hobbyist public to make sure 
they are staying out of the way of those aircraft that are 
delivering resources to the community that very much needs 
them. So two different issues, if you will, and so we 
definitely want to get both right.
    Which leads me to my question, Mr. Lawrence, about the DOI, 
Department of the Interior, working with you and the FAA to 
come to agreement on application and use.
    Where are we with that in the process?
    Mr. Lawrence. So we are having those discussions right now, 
but it is not just discussions. We have also been taking active 
control to address some of the things that you highlight, 
Senator.
    For example, you mentioned interaction with the wildfires. 
One of the things that we have been able to do since we have 
the registration program now is to do e-mailing out to people 
who are in the vicinity of these various fires that have been 
taking place.
    So we work with the Department of the Interior. They 
provide us information and say, ``We need to get a hold of 
drone operators in this area. We need to give them a notice,'' 
and we are extending that information out to them. We are still 
finalizing the actual written agreement between the two of us, 
but I do not want to say that that is limiting our ongoing 
dialogue.
    We are also working with them to establish what we call 
TFRs for some of their infrastructure that they want better 
protected until we can develop a full UTM system. And so, we 
are looking to implement those in the coming months as well.
    Senator Cantwell. And is that just the Department of the 
Interior or are you working with other agencies on the disaster 
relief side?
    Mr. Lawrence. Right now, primarily we have had requests 
from the Department of Homeland Security, the Department of 
Defense, and the Department of the Interior as far as working 
directly with responding to emergency situations and those 
kinds of things.
    But we obviously work with the whole Department of 
Transportation, and with our DOT modes as well, in developing 
policies and procedures for inspecting bridges, and how we are 
going to interact with drones. Obviously, we are talking 
infrastructure; our BNSF work for inspecting railroads, and 
pipelines, and all of these things.
    So we work across and we work with everyone we can. As you 
can tell from the testimony so far, collaboration and working 
together is really key, since this affects so many folks.
    Senator Cantwell. And what about the broader use? I 
understand that Japan and their government is working with the 
private sector to implement widespread delivery to rural areas 
by 2018 in time for the 2020 Olympics.
    Do we have a delivery permit discussion ongoing and what do 
you think the time-frame for that is?
    Mr. Lawrence. So discussions are constantly going on and I 
like to highlight that we have facilitated some drone delivery 
testing so far in the United States. And so, that is occurring; 
people are testing their various systems.
    It is really in a situation that is twofold. One, updating 
our regulatory structure to be more appropriate to delivery 
operations. And two, the proponents of drone delivery to 
develop their aircraft and their systems, particularly the 
communication systems; the see-and-avoid systems.
    And so, all that is taking place at the same time, but I 
can say we are using exemptions to work with our existing 
regulatory structure in order to support their operations.
    Senator Cantwell. So you think Japan will be ahead of us in 
this widespread delivery issue or how would you?
    Mr. Lawrence. I characterize clearly the FAA is in the lead 
because our focus is really on true integration. We can 
certainly have segregated operations. We can have certain tests 
in various areas.
    But the FAA is really in the lead as far as putting that 
regulatory structure together, actually implementing, and I 
think that is one of the key things. We are not looking to do 
just segregated operations. We are looking to have that full 
infrastructure where all the aircraft operate in a system 
together.
    Senator Cantwell. Great. Thank you.
    Mr. Chairman, if I could just mention, tomorrow is a very 
important day for you and I, for the people of Washington, and 
the people of South Dakota.
    The Chairman [presiding]. Tomorrow?
    Senator Cantwell. Yes, tomorrow. Gonzaga University, the 
Bulldogs are meeting the South Dakota Jackrabbits. So good 
luck.
    [Laughter.]
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. There is a lot 
of hype and anticipation in my state of South Dakota, and the 
'Zags are good. Yes, indeed. We will try and be worthy 
adversaries.
    Mr. Lawrence, in your testimony you mentioned 
implementation of the provisions of the FAA Extension Act of 
2016 that requires the FAA to develop standards to enable the 
remote identification of UAS.
    I believe these standards and related technologies will 
make it easier to use existing Federal, State, and local laws 
to address unwanted interactions with drones related to 
privacy, safety, or security. Identifying who is actually 
operating a UAS is key to holding violators accountable.
    So could you just provide us with an update about where you 
are with your initial work on implementation? What other 
partners do you intend to engage in the process and maybe 
preview what outcomes you anticipate in developing these 
standards?
    Mr. Lawrence. Thank you, Chairman.
    You really highlight an area that has become one of our 
highest priorities in our UAS regulations at the FAA. We want 
to go beyond just identifying the standards because we realize 
that I.D. and tracking technology together are keys to so many 
things. The beyond line of sight discussions we have been 
having, going from Point A to Point B, really need that ability 
to have tracking. The privacy concerns that people have need 
those I.D.'s.
    So we have been working independently with our Federal 
partners, the security partners, in identifying what their 
wants and needs have been.
    We have been working with the industry to identify what are 
the available technologies, and we have also been working with 
groups like NASA to identify what are some of the things that 
they have developed?
    We are looking forward to taking that to the next step this 
summer. We are looking to really pull all that together and 
come back with recommendations to this committee and to others 
on not just what standards we can use, but also what 
regulations and maybe even what legislation may be supportive 
to make sure what drones have this technology and how it might 
be fielded.
    The difficult question is not that there are technologies. 
It is which one to pick. And again, using the collaboration 
with our Drone Advisory Council, and others, that is really 
what we are focused on. How do we come to agreement on which 
technology to pick out of the many that are available?
    The Chairman. And are there technical options already 
available that can be used in the short term until longer term 
options are available?
    Mr. Lawrence. Absolutely. And, in fact, they are not really 
high tech.
    I was speaking with CNN recently with some of their 
operations, and what they are doing with their local law 
enforcement is literally they have the drone operator wearing a 
vest, a bright colored vest. They check in and we are doing 
things like hanging Mylar ribbons off of the drones that are 
operating. So he police standing on the corner know, ``OK. That 
was CNN,'' because they checked in and they have the blue 
ribbon for the day. And little things like that, obviously, 
help the local officials quite a bit.
    The Chairman. Ms. Cooper, I am particularly interested in 
PrecisionHawks' work with the agriculture industry. And in your 
testimony you outlined a number of practical applications that 
are making, or have the potential to make, a real difference 
for our agricultural producers.
    Could you expand on how this technology and your 
applications are scalable for family farming type operations 
and large commercial operators?
    Ms. Cooper. Thank you, Chairman.
    Our company has been around for about 7 years, and 
agriculture was the first industry that we focused on. And so, 
we built a lot of our solutions with farmers in mind.
    We provide our solutions to both ends of the market; 
individual farmers that are working on their own fields to some 
of the largest agriculture companies in the United States.
    We have developed a lot of algorithms with third parties, 
sometimes with universities as well as companies that I have 
mentioned, Leonardo and Archer Daniels Midland, for specific 
use cases, for real problems that farmers are trying to solve.
    We have also partnered with companies like DJI to help us 
provide lower cost platform solutions for individual farmers 
that cannot afford our more expensive fixed wing UAV platform.
    And so, we provide an end-to-end solution that is suitable 
to a wide spectrum of farming applications and farming 
operations that we see in the United States.
    The Chairman. I know talking to farmers and ranchers in 
South Dakota, there is a high level of interest in the 
possibilities that exist in their operations with this 
technology. And so I hope as you think through it that you 
consider how it applies in a small family farming operation as 
well as in a big, more commercial type operation.
    Mr. Fowke, in your testimony you talked about a number of 
the benefits your company hopes to ultimately achieve through 
extended operations of UAS over critical infrastructure. And as 
you noted in many instances, UAS have the ability to increase 
safety by sending an unmanned system into dangerous 
environments where manned aircraft would have previously been 
needed.
    Could you expand on the safety benefits that your company, 
and your industry, anticipates from using drones? I know you 
mentioned it is a lot less costly, for example, to send a drone 
in than to send a helicopter in. But from a safety standpoint, 
what are some of the benefits as you see it?
    Mr. Fowke. I can give you numerous examples with employee 
safety.
    The one that strikes me immediately is as the number one 
wind provider in the country, we need to inspect a lot of 
turbine blades, and the way you do that is literally climbing 
up a tower that can be 300 feet high. So we do it safely, but 
there is inherent risk in that. And if you can inspect and do 
the same inspection in a fraction of the time, which means a 
fraction of the cost using UAS technology, then everybody wins. 
That is a great example.
    In the public safety arena, one of the things I am really 
interested in is the use of UAS to actually detect gas leaks in 
our gas pipeline system. So these are just a few of the items 
that I see the technology using.
    I mentioned in my testimony where you have remote 
transmission lines, I mean literally, we have to access that by 
foot or helicopter. There are inherent risks with that. You 
think about inspecting infrastructure that might be under 
bridges, et cetera, you can see the safety risks associated 
with that.
    The Chairman. Having seen some of your turbines and the 
height of those things, if I were one of the people who had to 
scale that, I would rather use a drone for sure too.
    Senator Inhofe is up next followed by Senator Markey.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    So the witnesses will be aware, we still have the problem 
at the EPW hearings coinciding with the Commerce. So we go back 
and forth.
    Last year's FAA bill included a provision that I authored 
that created the regulatory fast lane to allow industry, 
including companies like Xcel Energy, to operate drones beyond 
the line of sight, to inspect transmission lines, pipelines, 
and the such.
    Earlier this year your company, I am speaking now to Mr. 
Fowke, and the FAA entered into an agreement. The partnership 
for safety plans so that your company can use drones to inspect 
transmission lines.
    And could you briefly share with us the process Xcel went 
through to enter into this agreement with the FAA, and how the 
partnership will benefit Xcel? And then I want to have a 
question for the FAA.
    Mr. Fowke. Well, I want to specifically thank you, Senator, 
for your amendment or your section that you added that 
addresses that beyond visual line of sight because that is how 
we are going to optimize this technology in the utility 
business. And recognizing the utility business is unique in 
that it is a critical infrastructure, I think, is also very 
important.
    So while we were in discussions with the FAA around the 
partnership you mentioned, the legislation certainly pushed it 
to conclusion. So thank you for that. We hope to actually use 
the technology to inspect some of the lines that run through 
your state.
    Senator Inhofe. I would expect that. Do you have any 
suggestions as to what the next step would be to streamline 
this system that is in effect right now?
    Mr. Fowke. Well, the partnership is a good first step. We 
have to test the technology. We have to make sure it is safe, 
and then we have to be willing to move forward with it. And I 
think our plan is to be able to be in position to start 
inspecting those lines within the year.
    Senator Inhofe. Yes.
    Mr. Lawrence, I have had a few rough times with the FAA, 
but not with you.
    [Laughter.]
    Senator Inhofe. And so I understand that the new department 
is working very well. I appreciate your leadership in the FAA's 
Unmanned Aircraft Systems department.
    According to the testimony submitted to the Committee, the 
FAA has only granted three waivers to allow the operation of 
drones beyond the line of sight. Now, that is three out of how 
many? How many applications?
    Mr. Lawrence. As far as specifically how many applications 
we have had for beyond line of sight, I would have to come back 
with that specific number to you.
    Senator Inhofe. Is it accurate, though, that only three 
waivers have been granted?
    Mr. Lawrence. I believe that is accurate. Correct, Senator.
    Senator Inhofe. Yes, OK. Is there something that takes 
longer than it should take on this? What is your prospect for 
the future because it looks like there is going to be a great 
demand.
    Mr. Lawrence. Absolutely. So I think things are moving well 
in that direction.
    One of the challenges we have with beyond line of sight 
authorizations is the understanding of what to bring to the 
FAA. And so that has been the biggest issue is people do not 
know what should they present to us in order to do beyond line 
of sight operations.
    So things like our Partnership for Safety Plan with Xcel 
are very helpful to that because we are sitting down and having 
those discussions. And so, we have that complete understanding 
of what equipment, what kinds of technologies are needed to 
protect the aircraft that are also in that airspace. And the 
key thing is education right now.
    Senator Inhofe. Yes, I recognize this is a new thing.
    Mr. Fowke, when you were going through this process, you 
actually did sit down with them and talked your way through. 
What obstacles did you see there that might help them in 
streamlining? I think this is something we want to do, and you 
have already been there. Any suggestions?
    Mr. Fowke. Well, to the extent that we can move forward the 
107 waivers and have more than just three that is obviously 
going to be helpful. But we certainly respect that this 
technology needs to demonstrate it can work and that is what 
the partnership is going to be about. We think the timeline is 
one that should work for both parties.
    We are actually very excited about being able to use that 
technology and start inspecting our lines many of which of the 
20,000 miles, many of those lines are in very rural areas. So 
we think we can do it very safely.
    Senator Inhofe. That is good.
    Last year's short-term FAA extension directed the FAA to 
establish a UTM pilot program by April 2017. Are you going to 
make that?
    Mr. Lawrence. Yes, Sir. We are going to make that.
    Senator Inhofe [presiding]. OK. Thank you.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    There is a Dickensian quality to drone technology. It is 
simultaneously the best of technologies. It can enable. It can 
ennoble. You can do wonderful things with it. But it can also 
degrade and debase. It can compromise human beings as well.
    The question is: what do you do about that bad side? 
Because everyone wants to talk about the good stuff, but there 
is bad stuff, and a lot of the bad stuff just goes to privacy. 
What are the protections that are going to be put on the books 
to protect families from commercial interests or government 
interests to gathering this information? Not as a hobby, but as 
something else altogether.
    And what happens if there are drones that are gathering 
information through facial recognition of who is shopping on 
Main Street and then selling that to advertisers? Are there any 
protections?
    What if some commercial entities are gathering information 
about children playing in the backyard, and then using it for 
nefarious purposes? Are there any protections against that?
    What if there is a drone that is just taking a picture of 
every license plate at a health clinic and then selling that 
information to an insurance company because they know exactly 
the disease that is being treated at that clinic? It just 
specializes in it. That is incredibly sensitive information.
    So right now, there are no safeguards, Mr. Lawrence, that 
are in place in order to ensure that there is a baseline 
Federal privacy protection about the collection, the retention, 
the sale of personal information.
    Are there, right now, any plans at the FAA to put any 
protections against the compromise of this private information 
under some kind of safeguards?
    Mr. Lawrence. So Senator, obviously the FAA's chief concern 
is always safety. That is our main focus.
    Senator Markey. I know that, I know that. And again, I 
think we have heard from other panelists about how big that is, 
but just privacy now, Sir.
    Mr. Lawrence. Absolutely. And we understand those deep 
concerns, and that is one of the reasons why we are working so 
closely with our Drone Advisory Committee and having that 
committee and getting the stakeholders' input because, 
obviously, I do not want to see a drone looking in my window.
    Senator Markey. But there are no Federal rules. So do you 
think that we should put Federal rules on the books on 
collection, retention, and sale of personal information by 
commercial or government drones?
    Mr. Lawrence. So the FAA's goal is to continue to work with 
both stakeholders and our Federal partners in supporting them 
as they evaluate what our needs are.
    Senator Markey. Right, I understand that. But a lot of 
people in the commercial sector do not want any rules. They do 
not want rules. They never want rules. That is just the way it 
is. ``Collect it, use it, just live with it. Get over it. There 
is no privacy in the modern world today. Just get over it.''
    So here are families who have been not letting the salesmen 
into their living room for 100 years. All of a sudden there is 
someone, what, photographing their children, or them walking 
down Main Street shopping, and there are no rules all of a 
sudden?
    So do you have a view on that, Mr. Lawrence?
    Mr. Lawrence. So we have been working very closely with 
NTIA in the development of their best practices on privacy and 
we are going to continue to do so. And we continue through our 
law enforcement liaisons in the regional level to work with 
local officials.
    Senator Markey. No, I appreciate that.
    But there are no national laws. Are there any rules on how 
long any of this sensitive information about families could be 
retained by these commercial interests or by the government as 
they are just floating over peoples' homes? Are there any rules 
on retention of that data?
    Mr. Lawrence. There are no FAA regulations on that data. 
There are the NTIA best practices.
    Senator Markey. Best practices, but no rules that guarantee 
that they cannot do that.
    And how about on transparency, does the FAA have an easily 
searchable website detailing when, where in the U.S., and for 
what purpose each commercial and government drone is operating? 
Just so we know. Is there any place where people can just go 
and just see which commercial drones are flying over your head, 
over your children's head, over the shopping mall that you are 
going to?
    Mr. Lawrence. Currently, we do not have a location where 
you can look up manned or unmanned operations, all operations 
to look up what they are doing and where they are.
    Senator Markey. Yes. So from my perspective, that is a 
dangerous environment for our country. It is just going to get 
more and more dangerous because there are going to be really 
bad people--really bad people--who are going to take this 
information, compromise it, use it for purposes that they 
should not be allowed to use it.
    There should be an ability at least to know who is flying 
over your head and they have to say as a commercial entity, ``I 
was flying over these people's homes or over that shopping 
mall.'' How hard is that going to be for people?
    But they do not want to do that and that is why today I 
reintroduced the bicameral Drone Aircraft Privacy and 
Transparency Act with Congressman Peter Welch to ensure 
American's privacy is protected while commercial and government 
drones integrate into the national airspace. And as we are 
debating the FAA reauthorization bill, I am going to work hard 
to make sure that privacy is protected.
    Before I end, Mr. Chairman, I just want to say that I heard 
the Senator from Washington State talking about South Dakota 
and Gonzaga. And I just want to note for the record that the 
Chairman of this committee was a college basketball player, a 
very good college basketball player, from South Dakota. You do 
not have to say a word, but a very, very good college 
basketball player.
    So I would say to the 'Zags beware of South Dakota 
basketball players. They should not be underestimated in this 
game at all. I have personal experience with an inability to 
stop any of the jump shots that the gentleman from South Dakota 
worked on.
    So I yield back.
    The Chairman [presiding]. Thank you, Senator Markey.
    And I might add that the Senator from Massachusetts is 
quite adept at launching the three, too. He can spot up out 
there at the arc and let it fly. So our best playing days may 
be behind both of us.
    Thank you, Senator Markey.
    Senator Capito is up next.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman.
    And I want to thank everybody on the panel. Sorry, we have 
conflicting committee meetings, so I was unable to hear a lot 
of the testimony, but I am very interested in the drones, and 
the technology, and the workforce that can be developed around 
this new frontier.
    I discovered something. West Virginia had a flood last 
year, a devastating flood, in June and as I was visiting the 
emergency services of one of the counties, Greenbrier County, 
there was a gentleman in there whose neighbor had a drone.
    Well, the guy who was working for emergency services could 
not get to where his house was because he was doing his job. 
But his neighbor flew his recreational drone over the house to 
make sure that his car--he was more worried about his car than 
the house--to make sure that his car was all right. And a 
little light bulb kind of went off in my head thinking for 
mountainous regions that suffer from flashfloods, quick loss of 
life, not very good communication availabilities; what a 
wonderful tool for emergency services to have in their toolbox 
to be able to meet these challenges within hours, particularly 
after the storm had passed, the weather was perfectly clear.
    So I guess my question would be to Miss Cooper, if this is 
an area that you all are endeavoring into? Are you working with 
local law enforcement and emergency services? And how are you 
seeing this kind of rolling out across the country?
    Ms. Cooper. Senator, thank you very much for your question.
    Drones do have an immense potential to be an incredible 
tool to aid first responders. And our company is very much 
interested in participating in these types of operations.
    We will need certain waivers in place--that we have not 
been able to obtain--in order to conduct these types of 
operations. And it would be beneficial for the industry to see 
guidelines from the FAA in terms of what mitigations are 
required to receive waivers in these emergency scenarios.
    I would also like to see infrastructure restoration aspects 
be brought into 2207 as the written text called for.
    One of the operations that we are interested in assisting 
with is helping adjusters process claims faster so that people 
can get back into their homes after they have lost their homes 
after a hurricane or natural disaster.
    We would need these types of waivers to be considered 
emergency operation waivers so that they could be processed in 
hours and not in a month, which is the typical timeline.
    Senator Capito. Yes, that is another aspect that I had not 
really thought about working with insurance and with FEMA to be 
able to recover quicker.
    I just came from a hearing in the Appropriations Committee 
on career and technical and STEM education. One of the folks 
who was testifying talked about drone technologies, but also 
educating the next workforce to go into this, as I said, new 
field.
    What kind of, and this is sort of opened to anybody who 
might know the answer to this question, what kind of workforce 
training programs are there across the country? Is it 
hodgepodge? Is there any kind of coordination? Is there a 
certain standard? Can somebody speak to that?
    Mr. Schulman. Senator, I am not sure about workforce 
training programs, but we are delighted to see drones being 
incorporated into STEM and STEAM educational programs for young 
people.
    Just a few months ago, we did a program with 4-H. It was 
Drone Discovery Day. There were 100,000 young people from 
across the country who participated in that.
    We also just partnered with the Academy of Model 
Aeronautics to help with their STEM education outreach because 
these technologies really are opening pathways. Not just to 
aviation, which is the traditional way that model aircraft led 
to innovation, but also in programming, robotics, and automated 
flight controls. Things you might not expect.
    And we are really excited to see all of those things 
finally come to fruition.
    Dr. Villasenor. Maybe I could just chime in.
    Senator Capito. Yes.
    Dr. Villasenor. I view unmanned aircraft as really within 
the broader umbrella of robotics.
    And there is an enormous groundswell of interest in 
training and educational opportunities in universities that are 
getting into robotics, not only for things like drones, but 
also for autonomous vehicles, and manufacturing, and many other 
ways in which robotics is going to create enormous opportunity 
for innovation in the next few decades.
    Senator Capito. What about another area I see in terms of 
economic development is, of course, the maintenance? You think 
about aircraft, airliners have their aircraft in maintenance 
every so often. Certainly, a drone is going to have to have 
that kind of maintenance and safety checks.
    Are there hubs developing around the country? I am looking 
for a hub. I have a great place for a hub. Does anybody know 
anything about that, like a hub for maintenance and safety 
inspections of drones?
    No? Well, here we go. I just discovered the next great 
entrepreneurial adventure for a small state.
    Thank you all very much.
    The Chairman. Thank you, Senator Capito.
    Senator Klobuchar is up next.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much.
    I first wanted to welcome Mr. Fowke and thank you, Ben, for 
the work that you have done in Minnesota. Xcel is such a leader 
in renewable energy and you employ many people in our state, 
and we thank you for that.
    Mr. Fowke. Well, thank you.
    Senator Klobuchar. Minnesota, as you know, is the national 
leader in renewable fuel and Xcel Energy is the largest wind 
energy provider in the Nation. Xcel owns and operates wind 
farms in my state at its Grand Meadow, Nobles, and Pleasant 
Valley locations.
    That sounds nice, does it not, Senator Thune? Do you have a 
Pleasant Valley in South Dakota? Only the Black Hills; we do 
not have that.
    [Laughter.]
    Senator Klobuchar. I understand that Xcel has conducted 
research in Minnesota on using UAS to inspect wind turbines. 
And I have certainly seen a lot of use of UAS just generally in 
our rural areas including flying over a train that had caught 
on fire and so it was keeping our firefighters safe, including 
checking out agriculture fields and other things. But the wind 
turbine use was something that I did not know about until this 
hearing.
    So could you tell us about that project and the results?
    Mr. Fowke. Sure, Senator, and thanks for the question. And 
by the way, we are going to add to that wind renewable 
leadership in both the state of Minnesota and South Dakota.
    Senator Klobuchar. But you do not have a Pleasant Valley 
location there.
    Mr. Fowke. Well, we can come up with something.
    But the test you are talking about occurred in the Fall of 
2015 at our Grand Meadow 100 megawatt farm in Dexter, 
Minnesota.
    And basically what we are doing is we had a routine blade 
inspection and rather than climb 300 feet up and inspect it 
that way or use binoculars on the ground. There is a better way 
to do it and that is the UAS technology. It cut the job that 
normally takes at least half a day down to half an hour.
    When we apply that kind of savings across all of our wind 
turbines, that will save us $1 million a year, which will make, 
we think, a very efficient technology that much more efficient.
    Senator Klobuchar. Very good. Well, thank you very much.
    Mr. Fowke. Thank you.
    Senator Klobuchar. I mentioned agriculture, Ms. Cooper, and 
with precision agriculture and all that we are seeing, we 
actually have Jenny-O after the Avian Flu disaster, have built 
out broadband.
    Not only do you need broadband for precision agriculture, 
but we also need it for things like monitoring the temperature 
in barns. And that was after we lost all of those turkeys in 
our state. They actually themselves invested in that, which is 
not really a model; I do not think that can be emulated all 
over the country.
    Instead what we are seeing are farmers who have to do their 
business to keep up with their customers going to the 
McDonald's parking lot and the like.
    And so, could you explain why a good Internet connection is 
needed for many of the UAS benefits of precision agriculture, 
for instance, like real time video streaming?
    Ms. Cooper. Yes, absolutely.
    Real time Internet connection is necessary for a lot of the 
payload functionality in order to accurately collect the sensor 
data, as well as process it onboard the UAV.
    So often, we are actually processing data while we are 
flying an operation. And then in the field, you can actually 
get analytics to make sure that after you have flown an 
operation you have collected the data that you need to give you 
the results you are looking for.
    And so, it is critical to have connectivity to be able to 
do processing in real time for agriculture operations.
    Senator Klobuchar. Thank you.
    Mr. Schulman, northwest Minnesota has become a national 
leader in education around the construction, operation, and 
maintenance of UAS. The Northland Community and Technical 
College in Thief River Falls has a state of the art campus and 
is collaborating with Northrop Grumman Corporation to use their 
facilities for training and research purposes. Schools in 
Minnesota and the upper Midwest represent a great opportunity 
for students.
    Do companies like DJI and others in the industry anticipate 
a need for new employees that have this specific training?
    Mr. Schulman. Thank you, Senator.
    Absolutely. In fact, we have a University Relations Manager 
who does exactly that, reach out to the schools across the 
country that are educating our Nation's students on UAS 
technologies and how to use them, including the drone as a 
platform for software development.
    So like your smart phone, drones have software application 
developers. We have opened up our hardware so that anyone can 
program a drone to do interesting things, whether it is 
automated mapping for agriculture or something like 
cinematography. Or most recently, we have partnered with 
someone to do a search and rescue app to facilitate those kinds 
of operations.
    So anyone who is interested in learning about the 
technology and turning it into a career, absolutely welcome to 
speak to me and we will connect them to our university people.
    Senator Klobuchar. Very good. Thank you.
    Mr. Schulman. Thank you.
    Senator Klobuchar. Dr. Gonzalez, you have discussed how 
Miami-Dade has tried to address the threat UAS can pose when 
drones get too close to an airport or to planes. Like Florida, 
Minnesota has airports small and large.
    And in fact, we had one example on September 10, 2016. An 
Air Force C-17 was on its final approach to Minneapolis-St. 
Paul Airport. The pilot reported they were in final descent, 
around 5,000 feet, and making a left turn when a UAS passed 
just under their nose slightly to the right of the aircraft.
    Can you talk about the challenges posed by UAS and 
potential solutions and how they differ between small and large 
airports? And if you want to add anything, Mr. Lawrence, I 
would appreciate it. Thank you.
    Dr. Gonzalez. Thank you, Senator.
    It is a challenge for an airport like ours. We have over 
400,000 operations a year. So any inadvertent trespass into a 
runway zone is a recipe for disaster.
    In fact, it was reported widespread in the media, I think 
it was January 27, we had an airliner that was literally 
landing about 200 or 300 feet off the deck that spotted a UAS 
come across. Needless to say when I hear that, my heart stops 
because we do everything we possibly can within the limits that 
we have.
    What we have done thus far is very local. I am the biggest 
fan of UAS you will find, but we want to make sure that people 
use them responsibly; that they understand the dangers of using 
one near an airport, near any airport large or small, because 
the results could be catastrophic.
    We introduced recently a local ordinance which calls for a 
$500 fine, which is the most that our County can levy, for 
people who use a drone, if you will, near one of our airports.
    Our ordinance has been shared with the directors of other 
airports in the state of Florida, I might add, because we are 
the only ones that have a local ordinance that addresses the 
use of UASs near an airport.
    So we have done what we can. We understand that there are 
some things that we cannot do. But I think that we can 
positively affect the person who genuinely wants to use a drone 
for commercial, recreational, personal reasons. It may very 
well be that they accidently go onto airport property. But I am 
always looking ahead. You can educate people so far.
    You can find people, to Senator Markey's point, that have 
incredibly bad instincts and reasons to want to cause harm. And 
so we also, on the airport side are constantly looking for 
technologies that will provide us--even if it is limited--at 
least a veneer of protection like geo-fencing. We had a 
demonstration a couple of weeks ago at one of our General 
Aviation airfields. But we are looking for technology.
    If I cannot get the 100 percent solution, I as an airport 
director, if I can find the 80 percent solution, until such 
time as we do get a 100 percent, I am going to seek it out and 
I am going to do it with my own funds if I have to.
    Senator Klobuchar. Thank you. Anything more? No? Are we 
good? Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. I would like to thank the Chairman and 
Ranking Member for convening this very important hearing.
    This is an issue that is personally very important to me. 
And I noted during the confirmation of Secretary Chao's 
hearing, I experienced a near-hit in flight while piloting an 
aircraft myself.
    I was in a small, single engine aircraft, general aviation. 
My husband and I were flying. We were in controlled airspace 
transitioning Patuxent, talking to Patuxent radio, above 3,000 
feet when a very large remotely operated airplane flew up and 
missed my propeller by, I would say, 10, 15 feet; scared the 
bejeezus out of me. If that thing had hit us, I would not be 
here today.
    So I understand the commercial purposes. I understand the 
recreational purposes. I support the aviation community. But 
there has got to be something that we can do.
    And I do believe those who are going to engage in 
commercial activities, we can come up with systems to regulate 
or require training of those drone operators, licensing of 
those drone operators, or registration. But there has got to be 
something we can do.
    Mr. Lawrence, I would like to chat with you a little bit 
about what is it that we can mandate of drone manufacturers? I 
am not talking about going and making them comply with ADS-B 
2020. That is a huge expense. Although, for some of the larger 
drones and for a large operation, maybe that is where we need 
to go, where we are certainly expecting it of the G.A. 
community. Why would we not expect it when those airplanes 
sometimes cost far less than some of these drones do?
    So it is equivalent in terms of cost to the consumer where 
it is a $35,000 General Aviation airplane or it is a $50,000 
commercial drone that is being used. So why would we not 
require ADS-B out of those folks as well?
    And maybe it is something where we have some sort of a 
system, a reporting system, that is required to be part of the 
drone.
    Every drone that can fly about 3,000 feet and can be more 
than a certain distance from the drone operator, say, another 
1,000 feet from the drone operator. That every one of those 
drones should be required to have the capacity of continuously 
emitting an identification code so that if it engaged in an 
accident, a collision, or if it is flown in an area like Miami-
Dade that we know exactly what that serial number is and we can 
track down that drone operator because the number would have 
been registered at the point of purchase.
    I am not talking about a little quad copter. That is a 
whole other issue that we are talking about there. But when you 
have a drone that can go up to 3,000 feet and you have a drone 
that can go more than a certain distance from its operator, 
then we should have some requirements on that.
    And maybe it is not a transponder. Maybe it is GPS 
technology using software so that it is emitting continuously 
some sort of a code.
    Are you looking at doing any of that in terms of the FAA 
committee?
    Mr. Lawrence. Thank you, Senator.
    And absolutely, these are focus areas for us right now, and 
I think first and foremost is the Part 107 Rule to start off 
with. It has only been out there for 6 months, and that was 
key.
    As you articulated, 400 feet is a limit in that rule. Until 
we had that rule, we did not have that opportunity to work with 
the manufacturers that they put an altitude limiter on your 
aircraft so that they do not go above 400 feet, so that they 
are not interfering with traffic. So getting that basic set of 
rules is the first and foremost thing.
    The next part of that are the instructions we have had from 
this committee to look at I.D. And you mentioned ADS-B like. 
And I like that you said the word ``like''. ADS-B itself, we do 
not believe is appropriate because of interference with the 
manned system.
    So some of the larger aircraft, it has to do with density 
and the size of these aircraft. But we very much understand 
there is that need for I.D.-ing and tracking. It is also needed 
to support our UTM system and it is needed to support our 
privacy concerns and our security concerns.
    As I was articulating a little earlier, this is one of our 
focus areas this year. We are working with our security 
partners. We are working with local law enforcement, and we are 
working with the industry itself to identify the suite of 
technologies.
    So when we report back to you in this committee, not just 
reporting of, ``Here are some standards we can use.'' But, 
``Here is how they will actually address the issues, and here 
is what the costs are, and here is what the range of options 
are.''
    So we are looking to do that this summer and come back with 
some good solutions, not just a report on ``here are some 
standards for you.''
    Senator Duckworth. I look forward to that report because if 
something is not done, I will be introducing legislation to 
address this. And I certainly want at least the same level of 
fairness.
    If you are asking G.A. pilots and G.A. aircraft operators 
to pony up to the tune of thousands of dollars with ADS-B out, 
but you are not going to do this of commercial drone operators? 
We have a problem.
    Mr. Lawrence. As a G.A. pilot who is pony-ing up for that, 
I appreciate your comment.
    Senator Duckworth. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Duckworth.
    I am going to come back to Dr. Gonzalez. I share your 
concern about safety at our Nation's airports and the questions 
that you answered earlier to Senator Klobuchar, I think, are 
very helpful as we think about these issues as we head into 
this next FAA reauthorization bill.
    But there is a pilot program for drone detection and 
mitigation that was included in last year's reauthorization. I 
think that reflects the shared concern that we have about that 
issue.
    Could you offer us your perspective on the FAA's 
communications and enforcement as seen at the local level and 
how you think that might be improved?
    Dr. Gonzalez. Thank you, Senator.
    We have an excellent relationship with the FAA. We 
communicate often. We meet often. The enforcement issue is one 
that we had to take on ourselves because we wanted immediacy, 
if you will.
    We kept seeing an increase in sightings of drones, UAS's, 
pilots were reporting them. Our numbers as an airport were 
growing to the point where it was just going to become a 
statistical issue. Not as an ``if,'' but a ``when.''
    So whatever we could do at our level to create a deterrence 
factor. Admittedly, being fined $500 is not a whole lot of 
deterrence, but it is what we have. And it is something that we 
coordinate with the tower a lot when these sightings happen, 
and we will continue to do so. We work with other airports. We 
are going to work with our colleagues at the State level.
    But for me interestingly, and I mentioned this before, I am 
a huge fan of the technology and the potential of the UAS. But 
I also have an overarching responsibility of providing safety 
for almost 45 million people. And all it takes is one.
    And as a result, we try and be as proactive and forward 
leaning as we possibly can to include looking for alternative 
technologies, using our own funds, pushing the envelope, if you 
will, working with our local police departments. We even work 
with our local school districts in different municipalities to 
let them know that you cannot fly a drone near an airport, that 
there are consequences. And that if we can, we will find you, 
and we will prosecute you.
    But again, it is at a very limited level.
    The Chairman. Mr. Lawrence, could you speak about the FAA's 
efforts on enforcement? And also about the testing the agency 
is doing with mitigation technology at airports to address this 
issue, as sort of a follow up to Dr. Gonzalez's answer?
    Mr. Lawrence. Sure and thank you for the opportunity to 
follow up on that as well, because Miami is one of our focus 
areas.
    And it is also one of our best local, we call them FSDO, 
but the local office down there actually is going out to homes 
around that airport, handing out flyers, informing people of 
the criticality of operating around there is. It has been a 
great joint effort to reach out. And it just goes to show how 
much work is actually being attempted to be done.
    Also as you mentioned, the research that is going on about 
the detection equipment that is out there. Airports themselves 
are a unique environment, and they are a little bit different 
than protecting a prison or some of these other fixed assets in 
the sense that aircraft are coming in from long distances at 
great altitudes. Also, there is a lot of activity going on 
electronically around airports.
    And so it was very important to do this initial testing to 
understand how these systems are going to operate, how big of 
an area they can detect, and what are all the various systems 
that are available to us, whether they be R.F., or optical, or 
radar. There are a lot of different things that we are looking 
at.
    I think we have learned a lot so far, and we are looking 
forward to reporting out a little bit later this year. And as 
it was mentioned, it is a layered approach, though. The testing 
is absolutely something we have to do. We need that 
information, but we also need our rules.
    In addition to the detection equipment, we certainly need 
to support our I.D. and tracking as we talked about here. We 
need to support the infrastructure that the FAA needs to really 
support the UTM network, the authorization system, all this 
data has to be housed somewhere. And this is a definite focus 
area for the agency right now. How do we make sure we get 
restricted areas dedicated in place? How do we make sure we are 
talking to the operators electronically so they know where they 
can and cannot operate?
    This is a major challenge to the Agency going forward.
    The Chairman. Professor Villasenor, in your testimony, you 
made some comparisons between UAS and other emerging 
technologies. You also noted the limitations of those 
comparisons based on technological or operational differences. 
We are now in the thick of the Digital Age with unmanned 
aircraft systems as only one technology.
    So the question is can you talk about other specific 
technologies where privacy has been raised as a concern and how 
the industry or government has responded in a way that 
addresses the issue without being technology-specific in the 
form of either legislation or regulation?
    Dr. Villasenor. Thank you, Chairman. That is an incredibly 
important question.
    The short answer is actually I am not aware of any specific 
situation where there is the perfect solution out there 
because, frankly, I do not think the perfect solution exists.
    But I do think the challenge is that we can easily come up 
with the kind of nightmare scenarios for all of these 
technologies with respect to privacy. And that applies not only 
to unmanned aircraft, but it applies to these, like I mentioned 
in my opening statement, these always-on consumer devices that 
have video and audio capability. It applies to autonomous 
vehicles. It applies to smart phone applications and so on.
    The challenge, I think, in addressing those is to not 
create legislative frameworks that have enormous collateral 
damage in terms of infringing or impeding completely innocuous 
non-privacy violating uses.
    So I think the solution is a couple of things. I think the 
voluntary frameworks like the NTIA stakeholder process is an 
absolutely terrific contribution to the dialogue. I think the 
education initiatives which I talked about here with respect to 
safe operations, but there can be an analogous education and 
awareness initiatives with respect to privacy.
    I also think that we do have perhaps less appreciated than 
it could be a substantial privacy framework out there already. 
Obviously, we have the Fourth Amendment with respect to 
government. We have a very significant set of protections at 
the State level with respect to invasion of privacy statutes, 
both criminal and civil. We also have unmanned aircraft 
specific language in some of those statutes.
    So for example, in the state of California, the statute for 
physical invasion of privacy was amended in the last year or 
two to specifically cite to bring it under its scope of privacy 
violations made with the use of unmanned aircraft.
    So I think there is a matrix of solutions that can be used 
to address these. But I do not think there is one sort of 
silver bullet that we could use.
    The Chairman. Well, I think we have no more members to ask 
questions and you have all covered it really well.
    I appreciate your patience today. Thank you for the great 
testimony and response to questions. This is an issue, as you 
know, that is not going away. We want to make sure we get the 
policy right going forward.
    And so, we have to do another FAA authorization. The 
current one expires at the end of September of this year. And 
so in the run up to that, we want to make sure that we are 
making informed decisions and shaping policy based on what is 
happening out there. Both in terms of addressing the wonderful 
applications that are available, but also recognizing that 
there are safety considerations that have to be dealt with, as 
mentioned, privacy and other things as well.
    So a great upside, just need to make sure that we are doing 
everything we can to manage it in the right way from this 
perspective in the oversight that this committee has.
    We will keep the hearing record open for a couple of weeks, 
and if there are Senators who want to submit questions for the 
record, they can do that. And we hope that when you all receive 
those questions that you will try and get the answers back to 
us as quickly as possible.
    With that, thank you all very much.
    And this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

                         National Association of REALTORS 
                                     Washington, DC, March 13, 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the over 1.2 million members of the National 
Association of REALTORS (NAR) and its affiliates, the Institute of 
Real Estate Management (IREM), and the REALTORS Land Institute (RLI), 
thank you for holding this hearing, ``Unmanned Aircraft Systems: 
Innovation, Integration, Successes, and Challenges.'' REALTORS were 
among the first to recognize the potential of unmanned aerial systems 
(UAS) for marketing properties, and look forward to other 
applications--including land surveying, inspections, and even repairs--
for UAS in the real estate and property management industries.
    NAR was pleased when the Federal Aviation Administration (FAA) 
released its Small UAS Rule last summer, which was an important first 
step towards integrating UAS into the National Air Space (NAS). That 
rule created a clear pathway for commercial UAS use while protecting 
safety in the NAS and on the ground. It is important that the FAA 
continue making progress with its UAS rulemaking, including regulations 
for operating UAS over crowds, beyond-visual-line-of-sight flights, and 
night flights. Real estate professionals are excited about the possible 
uses for UAS in the real estate industry, but the current regulatory 
framework stops short of providing the type of guidance and flexibility 
needed for the technology to reach its full potential.
    NAR has been active in the rulemaking process, participating in the 
FAA Micro UAS Aviation Rulemaking Committee (ARC), which released 
recommendations on rules for micro-UAS flights over people, as well as 
the National Telecommunications and Information Administration (NTIA) 
working group on privacy best practices. The Association looks forward 
to seeing the results of this work translated into Federal guidelines 
for safe and responsible UAS use in a variety of situations.
    Again, thank you for holding this hearing. NAR looks forward to 
continuing to work with Congress and the FAA to create a safe and 
reasonable regulatory environment for the commercial use of UAS.
            Sincerely,
                                          William E. Brown,
                                                    2017 President,
                                     National Association of REALTORS.

cc: Members of the Senate Commerce, Science, and Transportation 
Committee
                                 ______
                                 
               Electronic Privacy Information Center (EPIC)
                                     Washington, DC, March 13, 2017

Hon. John Thune,
Chairman,
Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write to you regarding the upcoming hearing on ``Unmanned 
Aircraft Systems: Innovation, Integration, Successes, and Challenges.'' 
\1\ We appreciate your interest in this issue. EPIC has previously 
testified before the Senate Judiciary Committee, the House Homeland 
Security Committee, and state legislatures regarding the privacy risks 
associated with drones.\2\
---------------------------------------------------------------------------
    \1\ Unmanned Aircraft Systems: Innovation, Integration, Successes, 
and Challenges, 115th Cong. (2017) S. Comm. on Commerce, Science, and 
Transportation, http://www.commerce.senate.gov/public/index.cfm/
hearings?ID=FD65111D-3DD5-472B-8C91-AEED13D00AE0 (March 15, 2017).
    \2\ Testimony of EPIC Domestic Surveillance Project Director Amie 
Stepanovich, Hearing Before the Senate Committee on the Judiciary, U.S. 
Senate, The Future of Drones in America: Law Enforcement and Privacy 
Considerations, Mar. 20 2013, https://epic.org/privacy/testimony/EPIC-
Drone-Testimony-3-13-Stepanovich.pdf; Testimony of Amie Stepanovich, 
Hearing Before the House Committee on Homeland Security, U.S. House of 
Representatives, Using Unmanned Aerial Systems Within the Homeland: 
Security Game Changer?, Jul. 19, 2012, https://epic.org/privacy/
testimony/EPIC-Drone-Testimony-7-12.pdf; Testimony of EPIC Domestic 
Surveillance Project Director Jeramie Scott, Hearing before the 
Majority of Policy Committee, Pennsylvania State Senate, Use of 
Unmanned Aerial Vehicles (Drones), Mar. 15, 2016, https://epic.org/
privacy/drones/EPIC-Drone-Testimony-20160315.pdf.
---------------------------------------------------------------------------
    EPIC is now proceeding in the U.S. Court of Appeals of the D.C. 
Circuit against the FAA for the agency's failure to establish drone 
privacy safeguards.\3\ EPIC has also pursued several open government 
matters regarding the FAA's decision making process, which appears 
intended to purposefully avoid the development of meaningful privacy 
safeguards.\4\
---------------------------------------------------------------------------
    \3\ JD Supra, EPIC Continues its Fight Against FAA for Drone 
Privacy Regulations (Mar. 6, 2017) (``The Electronic Privacy 
Information Center (EPIC) filed its 65-page brief in its case against 
the Federal Aviation Administration (FAA) this week''), 
www.jdsupra.com/legalnews/epic-continues-its-fight-against-faa-71113/; 
EPIC v. FAA, No. 16-1297 (D.C. Cir. Filed Mar. 2, 2017, https://
epic.org/privacy/litigation/apa/faa/drones/1664208-EPIC-Amended-
Brief.pdf; EPIC v. FAA: Challenging the FAA's Failure to Establish 
Drone Privacy Rules, EPIC, https://epic.org/privacy/litigation/apa/faa/
drones/.
    \4\ EPIC FOIA: Drone Industry Cozied Up to Public Officials (Dec. 
21, 2016), EPIC, https://epic.org/2016/12/epic-foia-drone-industry-
cozie.html. EPIC v. DOT, No. 16-634 (D.C. Cir. Filed Apr. 4, 2016), 
https://epic.org/foia/dot/drones/taskforce/1-Complaint.pdf; EPIC v. 
Department of Transportation--Drone Registration Task Force, EPIC, 
http://epic.org/foia/dot/drones/taskforce/.
---------------------------------------------------------------------------
    EPIC believes that strong drone privacy rules are vital for the 
safe integration of commercial drones in the National Air Space. The 
present course is simply not sustainable.
Aerial Drones: A Unique Privacy Threat
    Drones pose a unique threat to privacy. The technical and economic 
limitations to aerial surveillance change dramatically with the 
advancement of drone technology. Small, unmanned drones are already 
inexpensive; the surveillance capabilities of drones are rapidly 
advancing; and cheap storage is readily available to maintain 
repositories of surveillance data. A Pew Research Center and 
Smithsonian Magazine survey found that 63 percent of Americans objected 
to the idea of giving personal and commercial drones permission to fly 
through most U.S. airspace.\5\ However, in recent years individual 
drone use has soared, and the FAA predicts that 7 million drones will 
be sold by 2020.\6\ As drone use increases so do the risks to privacy 
and safety.
---------------------------------------------------------------------------
    \5\ Aaron Smith, U.S. Views of Technology and the Future, Pew 
Research Center, Apr. 17, 2014, http://www.pewinternet.org/2014/04/17/
us-views-of-technology-and-the-future/.
    \6\ Sally French, Drone Sales in the U.S. More Than Doubled In The 
Past Year, Market Watch, May 28, 2016, http://www.marketwatch.com/
story/drone-sales-in-the-us-more-than-doubled-in-the-past-year-2016-05-
27; FAA Aerospace Forecast: Fiscal Years 2016-2036, FAA, 2016, https://
www.faa.gov/data_research/aviation/aerospace_forecasts/media/FY2016-
36_FAA_Aerospace
_Forecast.pdf.
---------------------------------------------------------------------------
    Drones are now regularly equipped with high definition cameras that 
increase the ability of a user to conduct domestic surveillance.\7\ The 
DJI Inspire 1 is a high-end, commercially available hobbyist drone 
about the size of a small desktop printer and weighs less than seven 
pounds, yet it can transmit high definition video to an operator up to 
five kilometers away and can stream that video live to YouTube.\8\ Even 
lower-end hobbyist drones costing less than $100 can stream live video. 
The Hubsan X4 Star Pro, a drone that can fit in the palm of your hand, 
utilizes a front facing high definition camera with 720P resolution 
that can stream live video up to 300 meters away.\9\ Drones can be used 
to view individuals inside their homes and can facilitate the 
harassment and stalking of unsuspecting victims.\10\ Drones can also be 
modified with tools that can enable them to gather personal information 
using infrared cameras, heat sensors, GPS, automated license plate 
readers, and facial recognition devices.\11\
---------------------------------------------------------------------------
    \7\ Petition for Rulemaking Submitted by EPIC, Mar. 8, 2012, 
https://epic.org/apa/lawsuit/EPIC-FAA-Drone-Petition-March-8-2012.pdf; 
Univ. of Wash. Tech. and Pub. Policy Clinic, Domestic Drones: Technical 
and Policy Issues 12 (2013), https://www.law.washington.edu/clinics/
technology/reports/droneslawan policy.pdf.
    \8\ DJI, Inspire 1, http://www.dji.com/product/inspire-1/feature.
    \9\ Hubsan, X4 Star Pro, http://shop.hubsan.com/
index.php?main_page=product_info&products
_id=%20519.
    \10\ Petition for Rulemaking Submitted by EPIC, supra note 7.
    \11\ Id.; Ciara Bracken-Roche et al., Surveillance Studies Centre, 
Surveillance Drones: Privacy Implications of the Spread of Unmanned 
Aerial Vehicles (UAVs) in Canada 46, Apr. 30, 2014, http://
www.sscqueens.org/sites/default/files/Surveillance_Drones_Report.pdf; 
Mary Papenfuss, Utah Couple Arrested Over `Peeping Tom' Drone, 
Huffington Post, Feb. 17, 2017, http://www.huffingtonpost.com/entry/
peeping-tom-drone_us_58a6847fe4b045cd34c03e56.
---------------------------------------------------------------------------
    Drones also pose risks to security and cybersecurity. Close calls 
between drones and traditional aircraft have risen significantly as 
their use becomes more widespread.\12\ Furthermore, the very features 
that make drones easy to operate also make them susceptible to 
cyberattacks.\13\ Hackers have the ability to exploit weaknesses in 
drone software to take over operation of a drone and access the camera 
and microphones.\14\
---------------------------------------------------------------------------
    \12\ Alan Levin, Drone-Plane Near misses, Other Incidents Surge 46 
percent in U.S., Bloomberg, Feb. 23, 2017, https://www.bloomberg.com/
news/articles/2017-02-23/drone-plane-near-misses-other-incidents-
surged-46-in-u-s; Steve Miletich, Pilot of Drone That Struck Woman at 
Pride Parade Gets 30 Days in Jail, The Seattle Times, Feb. 24, 2017, 
http://www.seattletimes.com/seattle-news/crime/pilot-of-drone-that-
struck-woman-at-pride-parade-sentenced-to-30-days-in-jail/.
    \13\ Kacey Deamer, How Can Drones Be Hacked? Let Us Count the Ways, 
Live Science, Jun. 10, 2016, http://www.livescience.com/55046-how-can-
drones-be-hacked.html.
    \14\ Wang Wei, You Can Hijack Nearly Any Drone Mid-Flight Using 
This Tiny Gadget, The Hacker News, Oct. 27, 2016, http://
thehackernews.com/2016/10/how-to-hack-drone.html.
---------------------------------------------------------------------------
    The privacy risks of drones, as well as the safety and security 
vulnerabilities, underscore the need for the FAA to develop drone 
privacy regulations. We urge the Committee to question why the FAA has 
not yet taken steps to issue regulations on drone privacy despite prior 
Congressional directives to do so.
The FAA Has Failed to Implement the Requirements of the FAA 
        Modernization Act
    The FAA has failed to take the action mandated by Congress. The FAA 
Modernization Act required the FAA to create a Comprehensive Plan to 
integrate drones into the National Airspace and subsequently conduct a 
notice and comment rulemaking. In the Plan, the FAA identified privacy 
as an important issue to address, acknowledging that ``as demand for 
[drones] increases, concerns regarding how [drones] will impact 
existing aviation grow stronger, especially in terms of safety, 
privacy, frequency crowding, and airspace congestion.'' \15\
---------------------------------------------------------------------------
    \15\ Joint Planning and Dev. Office, Fed. Aviation Admin., Unmanned 
Aircraft Systems (UAS) Comprehensive Plan: A Report on the Nation's UAS 
Path Forward 4 (2013), https://www.faa.gov/about/office_org/
headquarters_offices/agi/reports/media/UAS_Comprehensive
_Plan.pdf.
---------------------------------------------------------------------------
    Under the FAA Modernization Act, Congress required the FAA to 
implement the recommendations of the Comprehensive Plan via a public 
rulemaking within 46 months of the enactment of the Act. The FAA 
identified privacy as an important issue directly related to domestic 
drones, yet the agency has failed to address privacy in the agency's 
only public rulemaking on drones in the National Airspace.\16\ Indeed 
it has been 60 months and the FAA has failed to implement the 
rulemaking that addresses the issues identified in the Comprehensive 
Plan, including privacy, as required by Congress.\17\
---------------------------------------------------------------------------
    \16\ Operation and Certification of Small Unmanned Aircraft 
Systems, 81 Fed. Reg. 42,063 (June 28, 2016) (codified at 14 C.F.R. 
pts. 21, 43, 61, 91, 101, 107, 119, 133, and 183).
    \17\ FAA Modernization and Reform Act of 2012, Pub. L. 112-95 
Sec. 332, 126 Stat. 73-75.
---------------------------------------------------------------------------
The FAA Has Failed to Conduct the Required Drone Privacy Report
    The FAA was ordered by Congress to conduct a drone privacy report, 
which the agency failed to do. In the 2014 Consolidated Appropriations 
Act, Congress required the FAA to conduct a drone privacy study, 
stating:

        Without adequate safeguards, expanded use of UAS and their 
        integration into the national airspace raise a host of concerns 
        with respect to the privacy of individuals. For this reason, 
        the FAA is directed to conduct a study on the implications of 
        UAS integration into national airspace on individual 
        privacy.\18\
---------------------------------------------------------------------------
    \18\ 160 Cong. Rec. 1186 (2014), https://www.congress.gov/crec/
2014/01/15/CREC-2014-01-15-bk2.pdf.

    The report specifically required the FAA to study ``how the FAA can 
address the impact of widespread use of UAS on individual privacy as it 
prepares to facilitate the integration of UAS into the national 
airspace.'' \19\ The report was to be submitted to Congress within 18 
months of enactment of that appropriations bill and completed ``well in 
advance of the FAA's schedule for developing final regulations on the 
integration of UAS into the national airspace.'' \20\ Nearly 38 months 
since the bill was enacted, the FAA has failed to produce the report. 
Furthermore, EPIC obtained documents through a Freedom of Information 
Act request that suggested that the FAA has no intention of complying 
with Congress' directive to produce a report.\21\
---------------------------------------------------------------------------
    \19\ Id.
    \20\ Id.
    \21\https://epic.org/privacy/litigation/apa/faa/drones/EPIC-16-07-
20-FAA-FOIA-20160921-Production.pdf
---------------------------------------------------------------------------
EPIC's Lawsuit, EPIC v. FAA
    Immediately after the passage of the FAA Modernization Act, EPIC 
and more than one hundred legal experts and organization petitioned the 
FAA to undertake a rulemaking to establish privacy regulations prior to 
the deployment of commercial drones in the National Airspace.\22\ More 
than two years later, the FAA responded to the petition by refusing to 
conduct a separate drone privacy rulemaking but said privacy would be 
considered in an upcoming rulemaking on small drones.\23\ However, the 
FAA later stated that privacy issues were ``beyond the scope of the 
rulemaking'' \24\ and did not consider privacy in its final rule,\25\ 
prompting EPIC to file suit.\26\ EPIC is challenging the FAA's refusal 
to consider privacy and to conduct a comprehensive drone rulemaking as 
required by Congress. The FAA has failed to explain why the agency did 
not evaluate privacy in their final rule despite the requirements of 
the FAA Modernization Act, EPIC's petition calling for the agency to 
address privacy, the FAA's own statements establishing privacy as an 
important issue to address, and the hundreds of comments that raised 
privacy issues in the small drone rulemaking.
---------------------------------------------------------------------------
    \22\ EPI Petition for Rulemaking Submitted by EPIC, supra note 7.
    \23\ Letter from Fed. Aviation Admin. to EPIC (Nov. 26, 2014), 
https://epic.org/privacy/drones/FAA-Privacy-Rulemaking-Letter.pdf.
    \24\ Operation and Certification of Small Unmanned Aircraft 
Systems, 80 Fed. Reg. 9,544 (proposed Feb. 23, 2015).
    \25\ Operation and Certification of Small Unmanned Aircraft 
Systems, 81 Fed. Reg. 42,063 (June 28, 2016) (codified at 14 C.F.R. 
pts. 21, 43, 61, 91, 101, 107, 119, 133, and 183).
    \26\ EPIC v. FAA, No. 16-1297 (D.C. Cir.); https://epic.org/
privacy/litigation/apa/faa/drones/.
---------------------------------------------------------------------------
    EPIC urges this Committee to ask the FAA why the agency has failed 
to take steps to protect the public from the privacy risks posed by 
drones. Any privacy and security risks are no longer hypothetical and 
the longer the FAA waits to issue comprehensive privacy rules, the 
longer the public is at risk.
Conclusion
    We ask that this letter be entered in the hearing record. EPIC 
looks forward to working with the Committee on these issues of vital 
importance to the American public.
            Sincerely,

/s/ Marc Rotenberg
Marc Rotenberg
EPIC President

/s/ Jeramie Scott
Jeramie Scott
EPIC National Security Counsel

/s/ Caitriona Fitzgerald
Caitriona Fitzgerald
EPIC Policy Director

/s/ Kim Miller
Kim Miller
EPIC Policy Fellow
      
                                 ______
                                 
Prepared Statement of Property Casualty Insurers Association of America
    Thank you, Mr. Chairman, Ranking Member and Members of the 
Committee for the opportunity to provide a statement on ``Unmanned 
Aircraft Systems: Innovation, Integration, Successes, and Challenges.'' 
The Property Casualty Insurers Association of America (PCI) is composed 
of nearly 1,000 member companies, representing the broadest cross 
section of insurers of any national trade association. Our members 
write more than $202 billion in annual premium and 35 percent of the 
Nation's home, auto and business insurance, reflecting the diversity 
and strength of the U.S. and global insurance markets.
    PCI members recognize the great potential of Unmanned Aircraft 
Systems (UAS) technology that will benefit policyholders in the 
expeditious settlement of claims and in post disaster property damage 
assessment. Members of Congress should encourage the FAA to lift 
operational restrictions that prohibit insurers from flying UAS at 
night, beyond the visual line of sight of the operator, and over 
individuals not involved in the UAS flight as a way to provide safe and 
efficient service to policyholders. Congress should include an explicit 
exemption for insurers from those operational restrictions. An 
exemption for insurers will be particularly important during federally 
declared disasters when property owners are eager to rebuild. It is 
critical that insurers be permitted to use UAS technology to the 
greatest extent possible following disasters so homeowners and 
businesses can begin the recovery process as soon as possible.
    PCI appreciates the Committee's continued interest in UAS 
technology, and we are pleased that you are holding this hearing. 
Insurers continue to take steps to integrate UAS technology into daily 
insurance operations for the benefit of consumers and post-disaster 
relief efforts. PCI and our members stand ready to work with Congress 
on the best way to balance safety and privacy concerns without 
needlessly limiting the utility of this technology for commercial 
entities. This statement highlights some of the many benefits of UAS 
technology for homeowners, businesses, and insurance company employees.
Practical and Economic Applications
    UAS technology enables insurers to respond more quickly to the 
needs of impacted people and businesses by assisting in catastrophe 
response and claims adjustment. After major events like Hurricane 
Sandy, the Moore Oklahoma tornadoes, and the 2016 Louisiana flooding, 
many geographic areas impacted by these disasters were initially 
inaccessible to claims adjusters. Unmanned Aircraft Systems can be 
immediately deployed to survey the damage and give some idea of an 
initial loss estimate to increase the speed of recovery assistance all 
while keeping adjusters and policyholders safely out of harm's way.
    The geographic area impacted by a catastrophe can span several 
miles. For example, the 2013 Moore tornado was an EF5 tornado that 
struck Moore, Oklahoma, and adjacent areas on the afternoon of May 20, 
2013. This disaster, with peak winds estimated at 210 mph, killed 24 
people and injured 377 others. The tornado was part of a larger weather 
system that produced several other tornadoes across the Great Plains 
over the previous two days. The tornado, 1.3 miles wide at its peak, 
touched down west of Newcastle at 2:56 p.m. CDT, staying on the ground 
for 39 minutes over a 17-mile path, crossing through a heavily 
populated section of Moore. The substantial damage from an event like 
the Moore tornado crosses city, county, and state lines. Following a 
weather event of this scale, insurer use of UAS technology helps 
expedite post-disaster recovery and the claim adjustment process for 
homeowners and businesses.
    Drones also promote safety by reducing the number of perilous roof 
inspections that create the risk of a fall. Claims adjusters may be 
called upon to inspect row-house style properties with roofs three 
stories high. In addition, dwelling structures may be unstable after a 
tornado or hurricane event. According to the National Safety Council, 
more than 30,000 people are injured each year as a result of falls 
involving ladders. Over 6,000 people die each year from falls of all 
types including from roofs, ladders, stairs, and slippery surfaces. 
Insurance industry use of UAS technology reduces the risk of injuries 
and deaths of claim adjusters and policyholders climbing ladders to 
inspect roofs.
    The P&C industry provides $11.4 billion in crop insurance and 
almost $3.7 billion in farmowners insurance. The ability to use drones 
to inspect barns, farm fields, and other agricultural machinery 
significantly increases safety and the ability to respond more quickly 
to the farming community after a severe weather event.
Privacy and Safety
    Insurers recognize and respect the privacy rights of homeowners and 
businesses. According to the National Conference of State Legislators 
(NCSL), many state legislatures have drafted legislation to protect 
their citizens from an invasion of privacy by drone operators. While it 
is important to protect privacy, it is also important that businesses 
not be inadvertently prohibited from otherwise legitimate uses of UAS 
within the scope of their business operations.
    The safe operation of UAS is essential for homeowners, businesses, 
and first responders. There have been notable media accounts of UAS 
near misses with aircraft near airports. Such instances clearly pose a 
safety threat to the flying public as well as individuals and property 
on the ground. In addition, there have been several notable instances 
of UAS flights interfering with wildfire suppression operations in 
California and Utah. Insurers strongly support safety measures to 
curtail the reckless use of UAS that puts lives and property at risk.
Conclusion
    Unmanned aircraft systems have tremendous potential to benefit 
society for a variety of purposes. Insurers may use UAS technology to 
expedite claim adjustment so that policyholders receive settlement 
checks sooner. Following a disaster, unmanned aircraft systems can be 
rapidly deployed to geographically inaccessible areas to quickly assess 
damage and determine where insurance adjusters are needed. While 
privacy and safety are important concerns, it is critical that future 
UAS related legislation and regulation not inadvertently limit the use 
of this rapidly advancing technology by insurers.
    Congress should recommend that the FAA lift operational 
restrictions for insurers that unnecessarily limit the potential use of 
UAS technology for the benefit of policyholders. Specifically, 
problematic restrictions related to flying include: (1) flying at 
night; (2) flying beyond the visual line of sight; and (3) flying over 
individuals not involved in the drone flight. These restrictions make 
it very difficult to survey property damage over a wide geographic area 
following an event like Hurricane Katrina. The FAA currently has a 
waiver process in place for certain operational restrictions. However, 
the waiver process adds an administrative burden that creates an 
unnecessary delay for policyholders who would otherwise benefit from 
expedited claims settlement.
    The current authorization of the FAA is set to expire on September 
30, 2017. Congress will consider a FAA reauthorization bill later this 
year and we request that reauthorization language includes an explicit 
exemption for insurers to operate unmanned aircraft systems. This is 
especially critical following a federally declared disaster. This 
important exemption will help homeowners and businesses begin the 
recovery process more quickly. PCI members welcome a discussion with 
members of Congress on the best path forward for integration of UAS 
technology into the national airspace.
                                 ______
                                 
             Prepared Statement of Rodin Lyasoff, CEO, A\3\
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    I applaud the Committee's interest in the public policy issues 
related to the safe integration of unmanned aircraft systems (UAS) in 
the national airspace system (NAS). Also, I commend the FAA for its 
continued leadership on this important issue.
    A\3\ is the Silicon Valley outpost of Airbus, with the aim to 
define the future of flight. Airbus is a global leader in aeronautics 
and space, with thousands of aircraft flying in the national airspace 
every day.
    As you know, the aerospace industry is leveraging advanced 
technology in interesting ways that could make our skies more safe and 
secure. From the acceleration of commercial UAS to the new advances in 
airspace management, government should expand industry collaboration to 
design flexible solutions to integrate UAS into the NAS. Today, 
thousands of operators are using UAS in the NAS to save lives during 
emergencies, optimize crop yield, inspect pipelines and waterways and 
capture images for real estate, security and TV/news. And, in a few 
years, the commercial readiness of cargo-carrying UAS and self-flying 
passenger-carrying electric aircraft will further expand the NAS to new 
users.
    By 2025, researchers estimate a million UAS flights per day, 
spanning the range from small foam aircraft designed for children to 
multi-million dollar automatic systems \1\. Without a scalable air 
traffic management system, it will be impossible to guarantee that 
millions of flights are safely coordinated and that vehicles comply 
with the operational rules dictated by federal, state, and local 
governments.
---------------------------------------------------------------------------
    \1\ Consumer Technology Association (CTA). ``UAS Could Reach 1 
Million U.S. Flights a Day in 20 Years.'' https://www.cta.tech/News/
Press-Releases/2015/May/CEA-Research-UAS-Could-Reach-1-Million-U-S-
Flights.aspx. 5 May 2015. Web.
---------------------------------------------------------------------------
The future of air traffic management
    Over the next 5 years alone, FAA must hire more than 7,400 air 
traffic controllers to both integrate UAS and address its aging 
workforce.\2\ In addition, NextGen efforts to modernize air traffic 
control could quadruple in cost beyond the estimated $40 billion 
budget. At the same time, National Aeronautics and Space Administration 
(NASA) Unmanned Traffic Management (UTM) project is in the very early 
stages of development.\3\
---------------------------------------------------------------------------
    \2\ Federal Aviation Administration. ``A Plan for the Future: 10 
Year Strategy for the Air Traffic Control Workforce.'' 2016.
    \3\ Government Accountability Office. ``Integration of Current 
Implementation Efforts with Long-term Planning for the Next Generation 
Air Transportation System.'' 22 Nov. 2010. Web.
---------------------------------------------------------------------------
    Airbus understands the complex and critical nature of managing 
traffic in the NAS. Our ventures Metron and NavBlue are leading 
providers in various air traffic management services to air navigation 
service providers (ANSPs), FAA, NASA, airlines and airports around the 
world. By leveraging our expertise and new technology, A\3\ envisions a 
real-time system providing trajectory management, deconfliction, and an 
airspace reservation system that could alleviate workforce demand while 
integrating new types of aircraft, including UAS, and their associated 
missions.
    Under this envisioned system, controllers could monitor and direct 
the thousands of vehicles in their airspace while allowing aircraft to 
fly more efficient routes without compromising safety. We encourage the 
Committee to support policies that enable:

  <bullet> Risk-based Routing: A scalable air traffic system can enable 
        broader commercial deployments while minimizing risk. In the 
        age of Big Data, we can create hyper-local risk analysis for 
        every square meter on the planet, at every moment of the day, 
        while taking into consideration routing constraints, aircraft 
        size, performance, and reliability. For example, a certified 
        UAS with the reliability of an airliner and advanced sense-and-
        avoid technology could be allowed to fly over a populated area, 
        while simpler, less reliable aircraft would be constrained to 
        sparsely populated areas. By tying vehicle risk to operational 
        airspace, governments can have fine-grained control of their 
        airspace while incentivizing operators to invest in more robust 
        vehicles and safety equipment.

  <bullet> Intelligent Routing and Deconfliction: Mature and reliable 
        algorithms exist that can deconflict thousands of 4D routes 
        with guaranteed constraints on minimum separation, while taking 
        into account weather conditions, visibility, and other factors. 
        This enables a human controller to regulate the parameters of 
        an airspace rather than the individual vehicle flight path. 
        Under this system, a single controller could thus safely manage 
        thousands of vehicles with significantly lower workload than 
        today.

  <bullet> Onboard Collision Avoidance: Modern aircraft can reliably 
        follow given flight paths with airspace routes selected free of 
        obstacles. Still, occasional component failures or 
        uncooperative traffic incursions will necessitate some onboard 
        sensing and collision avoidance technology, and the ability to 
        execute contingency actions. Take-off and landing, typically in 
        proximity to buildings and people will always require some 
        collision avoidance capabilities. While the hardware and 
        software airborne sense-and-avoid systems solutions are 
        maturing quickly, the slow pace of design standards limits the 
        pace of UAS integration in the NAS.

  <bullet> Decentralized Route Planning: Traditionally, air traffic 
        management and flight path deconfliction have taken place in 
        centralized systems which are aware of all participating 
        vehicles and solve the routing problem for everyone at once. 
        However, such systems are safety and mission critical, and 
        therefore require a high-degree of reliability, often at a 
        higher cost. The development of distributed network 
        technologies in the past decade have shown that decentralized, 
        quasi-local, consensus-based algorithms can perform as well or 
        better than their centralized equivalents. Such a system is 
        scalable and fully distributed but requires no additional 
        ground infrastructure, making it easily deployable even in very 
        remote areas.
Integrating emerging technology into the NAS
    There is a clear need for an advanced air traffic system that will 
be safe, efficient, and scalable. This system must also be capable of 
addressing the needs of new types of aircraft as they become a 
permanent part of our transportation ecosystem. Commercial UAS 
operations in the United States (US) are heavily restricted. While we 
applaud the FAA for developing commercial UAS rules under Part 107, the 
regulatory process for new types of aircraft is still not clear. These 
regulatory gaps limit development of new types of aircraft and send 
investment dollars abroad.
    While most countries look to follow the U.S. lead on regulation, 
several governments around the world are now committed to gaining first 
mover advantage and enabling new types of aircraft operations. For 
example, Germany recently certified the Volocopter, an electric 
ultralight aircraft, and China's Civil Aviation Authority issued an 
airworthiness certificate for the RX1E Ruixang, an electric passenger 
aircraft. It is becoming apparent that commercial UAS growth is 
restricted primarily by the regulatory environment, not by technology.
    At A\3\, we're building a self-flying passenger-carrying electric 
aircraft that can automatically detect and avoid obstacles and other 
aircraft. Vahana is designed to carry a single passenger and we're 
aiming to make it the first certified passenger aircraft without a 
pilot. We hope to have a complete prototype by the end of this year and 
a production capable demonstrator by 2020. Vahana's full automation 
will allow it to achieve a high level of safety. The aircraft will 
follow predetermined flight paths, with only minor deviations if 
obstacle avoidance is needed.
    Beyond developing the vehicle itself, A\3\ stands ready to assist 
in finding solutions to address the regulatory challenges that limit 
the integration of Vahana and other new types of aircraft in the NAS. 
As Congress prepares to reauthorize the FAA, we encourage the Committee 
to:

  <bullet> Advance regulations that lead to the certification of 
        automatic cargo-carrying and passenger-carrying aircraft: 
        Automatic manned aircraft currently have no clear certification 
        path in the United States. Without a certification pathway, 
        commercial development of Vahana or other new types of 
        automatic aircraft will be significantly delayed and costly.

  <bullet> Support standards for new types of aircraft: To encourage 
        development of air taxi operations, a certification basis is 
        necessary for new types of aircraft fly-by-wire systems, 
        functional software, sense-and-avoid systems and electric 
        propulsion systems. This guidance will accelerate the approval 
        and improve the safety of new types of aircraft operating in 
        the NAS.

  <bullet> Extend Beyond Visual Line of Sight (BVLOS) operations in the 
        NAS: We commend current efforts at FAA to research BVLOS 
        automatic operations under the Pathfinder program. FAA's 
        Pathfinder program is proof that government can be a champion 
        for innovation. Moving forward, government should expand BVLOS 
        testing to include new types of aircraft and work with industry 
        to develop a certification pathway for approval.
Conclusion
    A robust aviation industry underpins our economic success. An 
industry study shows that 70,000 jobs and more than $13 billion in 
economic value will be created in the first three years of integrating 
UAS in the NAS.\4\ Today, UAS and other types of new aircraft are 
already being used in agriculture, construction, energy and 
transportation without being fully integrated in the NAS. Full 
integration relies on a scalable air traffic management system and 
appropriately flexible regulations that allow for safe operation of 
these new types of aircraft.
---------------------------------------------------------------------------
    \4\ Association for Unmanned Vehicle Systems International. ``The 
Economic Impact of Unmanned Aircraft Systems Integration in the United 
States.'' N.p., Mar. 2013. Web. <http://www.auvsi.org/auvsiresources/
economicreport>.
---------------------------------------------------------------------------
    A\3\ is ready to partner with government to advance the future of 
flight and we thank the Committee for this opportunity to comment.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Earl Lawrence
    Question 1. It has come to my attention that manned aircraft 
attempting to use the Eastern Oregon Regional Airport have been 
prevented from doing so because of safety concerns with UAS using the 
same airport. Are airports able to prioritize unmanned aircraft over 
manned aircraft to the extent that manned aircraft are unable to make 
full use of an airport? If not, what can the FAA do to ensure access to 
airports is equitable between manned and unmanned aviation?
    Answer. The FAA's mission is maintaining the safest aerospace 
system in the world. All small UAS operating within existing 
regulations must give way to manned aircraft at all times, regardless 
of the type of operation. Under P.L. 112-95, Section 336, all 
recreational UAS users must notify all airports and air traffic control 
facilities prior to flying with five miles of the airport. Remote 
Pilots operating under part 107 (the small UAS rule) must have 
authorization from the FAA to operate in the controlled airspace around 
airports.
    We are unfamiliar with the specific situation you referenced at the 
Eastern Oregon Regional Airport, however if your staff provides 
additional information to the FAA's Office of Government and Industry 
Affairs, we are happy to look into it.

    Question 2. When we discuss the developing industries around UAS, 
we hear about the possibilities of UTM, or UAS traffic management, as a 
way of deconflicting unmanned air traffic from traditional manned 
aviation. Do you envision the hobbyist UAS owner and operator being a 
part of the UTM?
    Answer. The FAA is currently working with industry to develop a 
notification and authorization system as a first step toward UAS 
traffic management. This system is expected to provide both 
authorization (part 107) and notification (hobbyist) services for small 
UAS operations. However, the primary objective of a UTM system is to 
provide a low-altitude air traffic management system for non-
recreational operations. Hobby operators who operate under FAA 
regulations (part 107 or subsequent enabling rules) may be required to 
or have the option to take advantage of the anticipated opportunities 
of UTM, depending on future regulatory developments.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Earl Lawrence
    Question 1. A recent Homeland Security paper noted: ``the FAA 
estimates combined hobbyist and commercial UAS sales will rise from 2.5 
million in 2016 to 7 million by 2020.'' Missouri has a number of well 
attended amusement parks such as Six Flags of St. Louis, Silver Dollar 
City in Branson, and Words of Fun in Kansas City.
    With this projected increase in the number of drones, the safety 
and security risks presented by drones at these parks will only 
increase.
    What is the FAA doing about this potential threat?
    Answer. The FAA Extension, Safety, and Security Act of 2016 (P.L. 
114-190) requires the Secretary of Transportation to establish a 
process to allow applicants to petition FAA to prohibit or restrict the 
operation of an unmanned aircraft in close proximity to a fixed site 
facility, including amusements parks. The FAA is currently working with 
the Department to determine a way forward. Additionally, several of the 
facilities mentioned above are located in airspace that, per FAA 
regulation, already requires specific operational authorization.
    Additionally, the FAA has engaged in ``No Drone Zone'' public 
outreach campaigns to educate the public about where UAS flight is 
prohibited. We also have ``No Drone Zone'' branding materials and 
signage available on our website at www.faa.gov/uas for state or local 
governments, and other stakeholders such as amusement parks, to use at 
their discretion. Further, state and local governments may utilize 
their land-use, zoning, and traditional police powers to implement 
certain requirements on UAS. The FAA has provided guidance in this area 
in a Fact Sheet on State and Local Regulation of UAS which can also be 
found on our website at www.faa.gov/uas.

    Question 2. I understand there are many kinds of drones and many 
various purposes. Some involve small drones at low altitudes for 
delivery and other purposes, and others involve larger drones at higher 
altitudes for cargo.
    I assume a ``one size fits all'' approach won't work for the 
communications links for these different kinds of drones.
    What is being done to confirm the right spectrum solutions for 
communications links for small, low-altitude drones?
    Answer. The FAA is utilizing a risk-based approach to determine 
most UAS requirements, including those for communications links. 
Requirements for communications will stem from the risk level of the 
operation and the criticality of the link, which may dictate the use of 
protected spectrum and specific equipage versus unprotected spectrum 
and commercial off-the-shelf equipment. The FAA is exploring numerous 
solutions to determine the best path forward for spectrum concerns. We 
are working with industry, including mobile data providers, and the 
Federal Communications Commission (FCC) to assess the current spectrum 
capacity and develop solutions amenable to all parties.

    Question 3. Will it be possible for small low-altitude drones to 
use existing communications infrastructure (today's wireless networks) 
to support small, low-altitude UAS communications functions (control 
links, tracking, diagnostics, payload communications, collision 
avoidance)?
    Will this help to avoid unnecessary costs and regulatory delays?
    Answer. Mobile network providers and small UAS operators have been 
researching and testing UAS communications functions over the LTE 
network. The FAA is exploring the possibilities in consultation with 
mobile data providers and the FCC. We are working to ensure that the 
responsible data infrastructure--mobile data or otherwise--has 
sufficient capacity to support safe long-term UAS integration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Earl Lawrence
    Question 1. The FAA UAS Center of Excellence has been operational 
for almost two years, but at this point one of the anchor members and 
the largest university UAS program in the U.S., the University of 
Alaska Fairbanks, has yet to receive any funding to support UAS 
research. Can you advise when you expect to leverage the skills of all 
the core members of the ASSURE program? (ASSURE is a coalition 
comprised of twenty-three of the world's leading research institutions 
and more than a hundred leading industry/government partners. The 
mission is to provide the FAA the research they need to quickly, safely 
and efficiently integrate unmanned aerial systems into our National 
Airspace System with minimal changes to our current system.)
    Answer. The UAS Center of Excellence (COE), managed by ASSURE, is 
responsible for assigning projects based on partner competencies. The 
new Executive Director of ASSURE is from Alaska, and we're working with 
the COE to support their mission to provide the best possible UAS 
research. Alaska is best positioned for flight testing, which only one 
research project to date has required. Subsequent research projects 
utilizing flight tests may be better suited for the expertise provided 
by the University of Alaska.

    Question 2. The U.S. Army Gray Eagle Unmanned Combat Air Vehicles 
stationed at Ft. Wainwright, Alaska, are some of the most proven and 
reliable unmanned aircraft in the world. The Gray Eagles are certified 
by the military as airworthy and the pilots are certified by the 
military as well. They have a real-time first person view that allows 
the operator to see what is in front of the aircraft and avoid any 
potential collisions. So, why is the FAA requiring that the Gray Eagles 
have chase planes when they transit between Ft. Wainwright and the 
restricted airspace they use for training?
    Answer. The FAA is working with the Army to eliminate the 
requirement for a chase plane by establishing a Ground Based Sense and 
Avoid (GBSAA) system similar to what the Air Force is using at Cherry 
Point. The Army has submitted a list of bases flying the Grey Eagle 
where it wants to use GBSAA. The first COA request submitted was for 
Fort Campbell, which was approved on March 10. A subsequent request for 
Fort Riley is currently being processed, and the Army is operating with 
a chase plane in the interim.
    First Person View (FPV) as a standalone safety mitigation does not 
adequately mitigate the potential for a mid-air collision or allow the 
UAS operator to comply with the requirements of 14 CFR Sec. 91.113, 
Right-of-way. Research is ongoing by DOD and FAA to find low-cost 
detect and avoid systems that will help prevent mid-air collisions and 
allow compliance with 14 CFR Sec. 91.113.

    Question 3. Beyond visual line of sight operations will be key to 
meeting Alaska's infrastructure monitoring, hazard response, domain 
awareness, and other needs, but the infrastructure to support these 
operations is severely lacking. Will ADS-B and NextGen provide the 
infrastructure needed to conduct these operations in Alaska? If not, 
what would?
    Answer. While ADS-B may provide solutions for larger UAS, it is not 
the only solution being considered. The FAA expects initiatives like 
the Low Altitude Notification and Authorization Capability (LAANC) and 
UAS Traffic Management (UTM) to contribute to the infrastructure needed 
for these operations. The FAA also plans to launch a new Aviation 
Rulemaking Committee (ARC) made up of a diverse group of aviation, 
technology, law enforcement, and safety stakeholders that will help the 
FAA create standards for remotely identifying and tracking unmanned 
aircraft during operations. These efforts will ultimately enable the 
technological solutions needed for more routine beyond visual line-of-
sight operations (BVLOS) at lower altitudes (below 400 feet).
    The FAA is also currently evaluating potential updates to existing 
Air Traffic Management (ATM) systems that form the NextGen 
infrastructure, including ERAM (En Route Automation Modernization), 
STARS (Standard Terminal Automation Replacement System), and NAS Voice 
Switch, that will support BVLOS operations with more complex unmanned 
aircraft at higher altitudes in the future.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Earl Lawrence
    Question 1. Florida is home to many amusement and theme parks. The 
safety of the millions of guests who attend these parks annually is of 
concern to me. In the FAA Extension, Safety and Security Act of 2016, 
Congress included Section 2209, which would provide amusement parks an 
opportunity to apply for a designation which if approved by the FAA 
would close the airspace above their parks to unauthorized UAS. Where 
are you on implementing this provision?
    Answer. Many amusement and theme parks across the country are 
located in airspace that, per FAA regulation, already requires specific 
authorization for drone operations. Additionally, FAA's final rule for 
small UAS operations (Part 107) prohibits operation over people unless 
the operator has received a waiver from the FAA. And recreational UAS 
operators operating as a model aircraft must comply with the safety 
guidelines of a nationwide community-based organization as directed by 
Congress in Sec. 336 of the FAA Modernization and Reform Act of 2012.
    The FAA is currently working with the Department to determine a way 
forward on implementing Section 2209 of the FAA Extension Safety and 
Security Act of 2016, which will likely require rulemaking due to the 
discretion that DOT/FAA will be exercising in implementing the 
legislative requirements. Currently, amusement parks and other entities 
may utilize the tools described below in answer 2 to assist with the 
concern you described.

    Question 2. I believe a strong public relations campaign is needed 
to accompany any and all prohibitions on drones. Does the FAA public 
relations material note the vulnerability of amusement and theme parks 
in the same manner that they note the vulnerability of critical 
infrastructure, pipelines, roads and public gathering areas such as 
stadiums?
    Answer. The FAA has engaged in ``No Drone Zone'' public outreach 
campaigns to educate the public about where UAS flight is prohibited. 
We have also published ``No Drone Zone'' branding materials and signage 
on our website at www.faa.gov/uas for state or local governments, and 
other stakeholders such as amusement parks, to use at their discretion. 
Ski resorts and other recreational areas are making use of this 
signage, as is the National Park Service. Further, state and local 
governments may utilize their land-use, zoning, and traditional police 
powers to implement certain requirements on UAS. The FAA has provided 
guidance in this area in a Fact Sheet on State and Local Regulation of 
UAS which may also be found on our website at www.faa.gov/uas.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Earl Lawrence
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question 1. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long?
    Answer. The FAA published a digital toolkit for manufacturers, 
which includes the safety statements required by the FAA's 2016 
Reauthorization, in November 2016. Extensive outreach was conducted 
with the UAS industry, including manufacturers, to alert them of the 
requirement and that the statements were made available for UAS 
manufacturers to include in UAS packaging today. The FAA is currently 
drafting additional written guidance for manufacturers, which will be 
in the form of an Advisory Circular and is expected to be published 
this summer. The safety statements can be found at http://www.faa.gov/
uas/resources/manufacturers/.

    Question 2. Do you agree that such basic information in no way 
supplants a strong set of rules governing operations and technology?
    Answer. Safe and successful UAS integration will require a multi-
faceted approach to regulate this emerging aircraft, educate a new 
airspace user community, and integrate this technology into our 
society. No one approach will apply or resonate with everyone. 
Experienced model aircraft enthusiasts understand our airspace system, 
but many new users have no pilot or aviation experience and need to 
understand the rules of the sky. Some are flying for fun, while others 
are flying for business. The FAA recognizes that it needs to tailor its 
approach and method--whether educational, regulatory, or enforcement--
to the specific user and situation as appropriate. The Agency's 
Compliance Philosophy reflects this rationale, calling for a spectrum 
of responses that range from education in situations of ignorance to 
enforcement in situations of negligence or defiance. All of these 
approaches working in tandem will help build a strong safety culture 
within the emerging drone community. Upon request, the FAA is available 
to provide technical assistance to Congress regarding the Agency's 
authority to develop rules governing recreational UAS operation and 
technology.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                             Earl Lawrence
    Question 1. The proliferation of autonomous technology, from drones 
to self-driving vehicles, represents a major opportunity for states and 
localities to become critical testing grounds for these new 
innovations, and to begin to reap consumer and economic benefits. As 
with any new technology, we must also be mindful to ensure adequate 
safety and privacy provisions are included to protect our citizens. As 
a former Governor, I'm pleased that this Committee plans to examine at 
the important roles of both Federal and state regulators in advancing 
innovation in self-driving vehicle technology.
    Mr. Lawrence, how is the FAA working with state and local 
governments to ensure that they are able to preserve their traditional 
areas of jurisdiction, meet the privacy and safety needs of their 
communities, while still ensuring U.S. leadership in the UAS field?
    Answer. The Federal Government retains authority over the shared 
use of and access to our Nation's airspace system. Based on our 
experience with the manned aviation industry, this approach prevents 
the development of a patchwork of regulations that can stifle 
innovation for an emerging industry. However, state and local 
governments may utilize their land-use, zoning, and traditional police 
powers to implement certain requirements on UAS.
    The FAA has provided guidance to state and local governments in a 
Fact Sheet on State and Local Regulation of UAS, which can be found in 
the Resources section of our website at www.faa.gov/uas. We have also 
provided guidance specifically to law enforcement agencies for 
responding to unauthorized or unsafe UAS incidents and what their 
authorities are in such circumstances, which is also available on our 
UAS website.
    The FAA also supported the effort led by the National 
Telecommunications and Information Administration (NTIA) within the 
Department of Commerce to work with stakeholders on developing best 
practices on privacy, transparency, and accountability regarding 
commercial and private use of UAS. More information on this effort can 
be found at https://www.ntia.doc.gov/other-publication/2016/
multistakeholder-process-unmanned-aircraft-systems.
    The FAA's Drone Advisory Committee (DAC) also has a task group 
evaluating the roles and responsibilities of Federal, state, and local 
stakeholders with regard to UAS operations. That task group presented 
their initial report to the full DAC on May 3.

    Question 2. As you may know, New Hampshire is home to many small 
businesses. Innovative technologies like drones, can be a major 
positive force when it comes to empowering small businesses. Whether 
it's a real estate company taking aerial photos of a property in New 
Hampshire, a small-town broadcaster using drones to enhance news 
gathering where in the past he would have needed a helicopter, or a 
local farmer using UAS to survey crops--this technology provides 
endless opportunity for creative entrepreneurs to provide new and 
better services to the benefit of their business and their customers. 
While I'm thrilled large companies like Amazon and CNN are utilizing 
this technology, I want to make sure we're providing opportunities for 
smaller businesses to reap similar benefits as well. Waiver and 
exemption processes can be especially burdensome on small businesses. 
Can you describe how the FAA is working to make the UAS operating rules 
and application processes easy and accessible to small businesses?
    Answer. The FAA provides extensive plain language explanations of 
operating rules and application processes on its website. The Agency 
also staffs a Help Desk--both phone and e-mail--to provide members of 
the public a direct resource for questions and concerns about UAS rules 
and application process. To make the waiver and exemption processes as 
easy as possible, we provide plain language instructions, explanations, 
and examples of successful applications for anyone to use. Finally, the 
Agency also maintains the B4UFLY app for both Apple and Android users, 
which is a free mobile app designed to help non-aviators understand 
where it is and isn't safe to fly.
    On April 27, the FAA also published the first set of 238 UAS 
Facility Maps, which depict areas and altitudes near airports where UAS 
may operate safely. Remote pilots must still submit airspace 
authorization requests online to the FAA before they can operate in 
controlled airspace. However, publishing these maps will help drone 
operators, including small businesses, improve the quality of their 
Part 107 airspace authorization requests and help the FAA process the 
requests more quickly. Additional UAS Facility Maps will be published 
on an ongoing basis throughout the remainder of this year. More 
information on these UAS Facility Maps can be found at https://
www.faa.gov/uas/request_waiver/uas_facility_maps/.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Dan Sullivan to 
                          Diana Marina Cooper
    Question. In August 2016, the FAA implemented the first regulatory 
framework for commercial UAS operations, commonly known as Part 107. 
Many businesses are operating within this framework. Several hundred, 
including Alaska Aerial Media, have obtained waivers to operate outside 
of it, especially to operate at night. However, like many rapidly 
evolving technologies that have the potential to have a tremendous 
impact on our economy, commercial UAS have outpaced nascent 
regulations. I understand that the FAA was scheduled to publish a 
notice of proposed rulemaking by the end of 2016 that would permit 
additional commercial UAS operations, but that it has been put on hold 
indefinitely amidst the interagency review process. While it is 
important for all stakeholders to weigh in, is there a way for this 
Committee to help facilitate and expedite the interagency review 
process so that future rulemakings that will enable innovation and 
industry growth can move forward?
    Answer. Safety and security are of the utmost importance and 
PrecisionHawk participates in a number of advisory committees, 
including the FAA Drone Advisory Committee, NASA's UTM program, and the 
FAA Unmanned Aircraft Safety Team (UAST), that are working to ensure 
that UAS are integrated into the national airspace as safely and 
securely as possible. We also applaud the FAA for announcing on March 
27 that it will establish a remote identification Aviation Rulemaking 
Committee (ARC) to develop standards for remotely identifying and 
tracking UAS and look forward to supporting this important effort. 
However, we firmly believe that efforts to ensure safe and secure 
integration can move in parallel to the development of a permissive 
regulatory framework that will enable routine operations that are 
critical to the success of the United States commercial UAS industry, 
including those over people (as contemplated by the stalled notice of 
proposed rulemaking scheduled to be published for comment by the end of 
2016) and beyond the visual line of sight (BVLOS).
    The UAS industry stands ready to engage in an open dialogue with 
appropriate agencies to discuss potential solutions to address any 
safety or security concerns. To that end, we respectfully ask that 
Congress engage the interagency UAS Executive Committee (ExCom) 
concurrent to the remote identification ARC to ensure dialogue with 
industry addresses all safety and security concerns with the goal of 
moving the operations over people proposed rulemaking--and subsequent 
rulemakings--forward expeditiously.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                          Diana Marina Cooper
    Question 1. Ms. Cooper, one of the areas in which commercial UAS 
are already making an economic impact is agriculture, a vital sector to 
the Hoosier economy. Can you elaborate on some of the use cases for UAS 
in agriculture and comment on any regulatory hurdles that are currently 
preventing farmers and others in the agriculture industry from fully 
embracing the benefits of UAS technology?
    Answer. Agriculture is among the foremost sectors of the economy 
that is benefiting from the introduction of UAS. Farmers are using UAS 
throughout the season to monitor their crops and take critical 
decisions that affect crop health, yield, and in turn, the 
profitability of their operations. There are countless UAS applications 
within the agriculture industry, including plant counting, 
waterpooling, assessing vegetative health, and detecting nitrogen 
levels. Every day, UAS are delivering actionable data that directly 
impacts the livelihoods of farmers and fuels the American economy.
    In order to realize the full economic potential that UAS can bring 
to the agriculture sector, we must act swiftly and implement permissive 
risk-based regulations that allow routine beyond visual line of sight 
operations over farms. PrecisionHawk has conducted extensive research 
on beyond visual line of sight operations under the Pathfinder Program 
to provide the FAA with a safety case to inform the proposed rule for 
expanded operations. Much of our research has been conducted in 
agriculture settings, which typically carry lower operational risk due 
to low population density and distance from airports. These unique 
characteristics of agriculture regions--and the resulting lower 
operational risk--warrant the application of less stringent 
requirements for beyond visual line of sight operation in comparison 
with operations taking place in areas that carry an increased risk. We 
look forward to continuing to work with the FAA and to provide data to 
assist with the development of regulations for BVLOS operations, which 
we believe will bring significant value to our economy.

    Question 2. Can you also discuss your partnership with the Innovate 
Indiana Fund and the Indiana University and how it is helping fuel 
development of UAS technology that will benefit the agriculture sector?
    Answer. PrecisionHawk has strong roots in Indiana, which is our 
state of incorporation. Some of our early key employees are graduates 
of Indiana University and Indiana State University. Innovate Indiana 
Fund is an early investor in PrecisionHawk, having led our $1M Series A 
round, and having subsequently participated in our Series B and C 
financings. These investments have been instrumental in providing us 
with the necessary capital and resources to develop and commercialize a 
sophisticated end-to-end UAS platform that is ideal for the agriculture 
industry. In recent years, we have developed cooperative relationships 
with both Indiana University (through which we provided UAS equipment 
to their geology department) and Indiana State University (through 
which we conducted UAS training and demonstrations). PrecisionHawk 
provides UAS services and solutions to some of the largest agriculture 
companies in the state, and we recently opened a UAS training and 
flight servicing office in Lebanon, Indiana. Our UAS services and 
solutions are benefiting the agriculture sector by enabling farmers to 
manage their crops more effectively and efficiently while also reducing 
the environmental impact of their operations.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Diana Marina Cooper
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question 1. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long?
    Answer. PrecisionHawk has a corporate commitment to promote the 
safe integration of UAS into the national airspace, and our company 
supports the inclusion of a safety statement that informs consumers 
about safety laws. We agree that a two-year timeline is unnecessarily 
lengthy, and in fact PrecisionHawk amended its Lancaster UAS Product 
Manual as of 2016 to incorporate safety information.

    Question 2. Do you agree that such basic information in no way 
supplants a strong set of rules governing operations and technology?
    Answer. Consumer education is an important tool for promoting 
safety in operations, however educational initiatives must be augmented 
by risk-based rules that are tailored to operations. Technology also 
plays a critical role in ensuring operational safety. Unmanned traffic 
management or ``UTM'' solutions can enable us to integrate a large 
volume of UAS into the national airspace system while enhancing the 
level of safety that we enjoy today through features such as remote 
identification, authentication, tracking, situational awareness, and 
dynamic route planning. Because UTM holds immense promise in terms of 
safety and security, and in doing so, will unlock applications like 
package delivery, we respectfully request Congress to direct the FAA, 
and allocate sufficient resources, to speed up the implementation of a 
nation-wide UTM system.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                               Ben Fowke
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question 1. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long?
    Answer. At Xcel Energy, we support the joint efforts of the FAA and 
industry to ensure the safe operation of UAS technology. As I discussed 
in my testimony, the FAA should develop and implement a number of high 
priority rules pursuant to authority granted to it by Congress in last 
year's FAA reauthorization bills and other statutes. These rules will 
help protect critical infrastructure and encourage the safe, efficient 
use of this important new technology for utilities and other 
industries. A safety statement should be part of the FAA's rulemaking 
agenda and should be issued without further delay.

    Question 2. Do you agree that such basic information in no way 
supplants a strong set of rules governing operations and technology?
    Answer. As my testimony indicated, UAS technology presents a 
significant opportunity for the utility industry. It can help reduce 
the cost of maintaining our system, improve system reliability and 
enhance the safety of our operations. At the same time, UAS technology 
represents a potential threat to substations or other critical 
infrastructure if it is not properly managed and controlled. Good 
policy would encourage the appropriate use of UAS technology while 
discouraging unsafe UAS operations near critical infrastructure.
    Sound FAA regulations can help achieve both of these goals. Sound 
FAA regulations should create a streamlined process allowing utilities 
authority for beyond visual-line-of-sight operations. As stated in my 
testimony, Section 2210 of the FAA reauthorization legislation already 
allows the FAA to approve beyond visual-line-of-sight UAS operations 
for pipelines and all aspects of the electric power system. The FAA 
should develop appropriate rules that implement to Section 2210.
    Additional rules, regulations and policies should recognize that 
utilities warrant regulatory protection specific to the industry. FAA 
rules could help reduce the possibility that personal or hobbyist use 
of UAS could harm infrastructure critical to the reliability of the 
electric or gas systems. As these rules are developed, special care 
should be taken to allow this beneficial technology to enhance the 
reliable operation of America's critical natural gas and electric 
infrastructure without creating new threats to the critical 
infrastructure on which our system relies.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Richard Blumenthal 
                          to Brendan Schulman
Issue: The need to allow state and local governments to establish rules 
        and 
        regulations governing drone use--like banning armed drones
    A provision was inserted into the FAA bill last year to bar state 
and local laws that protect citizens from the dangers of drones. I led 
the effort in the Committee and fought on a bipartisan basis with many 
of my colleagues on the floor to strip that measure from the text 
before it passed the full Senate.
    In few places is the need for local rules more compelling than in 
Connecticut, where a high-profile incident in the town of Clinton in 
2015 involved a teenager arming a drone with a gun and then posting on 
YouTube a video of his homemade weapon. In response to this troubling 
incident, legislators in my state have considered banning armed drones, 
an effort I strongly support.
    Eight states have already taken action to ban weaponized drones.
    You represent the industry as a major manufacturer. In your 
testimony you contend that local rules lead to an airspace system that 
is ``less safe'' and replete with ``confusion,'' ``disdain'' for the 
law, and ``non-compliance.''
    I understand the important concept of Federal preemption in 
airspace at say 20,000 or 30,000 feet. I fail to understand why Federal 
law would preempt state law at 20 or 30 feet.

    Question 1. Should Connecticut have the right to ban armed drones?
    Answer. DJI makes its products purely for peaceful purposes, which 
is how the overwhelming majority of pilots use them, and we deplore any 
use of our drones to bring harm to anyone. There is significant history 
of differing laws among the states concerning restrictions on firearm 
ownership and use. My testimony is not intended to address this issue. 
Our concern about potentially inconsistent and conflicting local rules 
concerns the regulations pertaining to the operation of the drone 
itself: where it can be flown, when it can be flown, pilot 
requirements, speed and altitude limitations, safety equipment 
requirements such as lighting, and other rules governing the safe 
operation of drones. If these laws vary from state to state, county to 
county, and city to city, it is difficult for DJI to educate its 
customers about them, and for drone pilots to comply. This is 
especially true as drone technology becomes even more portable. The 
result of conflicting, inconsistent rules is a less safe operating 
environment for everyone.
    DJI does agree that drones raise some issues that are more local in 
nature, such as those related to privacy, and that those issues may be 
managed, governed, or administered by localities more efficiently than 
by the Federal Aviation Administration. Traditional doctrines developed 
to address the movement of people and cargo by aircraft may not be 
suitable to these new technologies, although those doctrines play a 
crucial role in creating harmonized national regulations. The 
importance of these questions, which you have recognized, is precisely 
why I am working hard to contribute to a consensus-based approach at 
the FAA's Drone Advisory Committee to the subject of the roles and 
responsibilities of government.
Issue: The need for rules governing the technical capabilities of 
        drones
    The FAA extension bill enacted last year took an important step 
forward, it required identification standards for drones, established a 
small test program to consider ways of averting the threat that drones 
can cause near airports, and required development of a traffic 
management system for drones.
    Still, there is much more to be done.
    We need standards governing the technological capabilities of 
drones: how they're built, not just how they're operated. We require 
cars go a certain speed; we also require they be built with airbags.
    Section 2124 of the FAA bill that passed the Senate required the 
FAA establish rules governing drone technology.
    Unfortunately, that section did not make it into the final bill 
that became law.
    The industry is developing some of this technology on its own, but 
the industry is not acting not with any sort of mandate.
    That's like crossing our fingers that cars get built with 
seatbelts.
    I want to ensure that the kind of language that was in section 2124 
moves forward in the next FAA bill we're likely to consider later this 
year.

    Question 2. With millions of these taking the skies, shouldn't we 
demand more safety components built into the hardware? Isn't a legal 
mandate the best way to ensure these devices are made safer?
    Answer. DJI is a leader in incorporating safety features into our 
products. For examples, we developed and implemented GPS-based 
geofencing into our products over four years ago, long before reports 
of drone sightings near airports. What we have learned from that first-
hand experience with safety features is how important it is to maintain 
flexibility and to accommodate exceptions. We have many customers doing 
pro-safety operations at airports, such as runway inspection and 
wildlife mitigation. It turns out that geographical location is a poor 
proxy for operator authorization. So while we support having these 
features, it is critical that they be developed by industry.
    This approach enables us to make these features even better, as 
soon as we can. For example, last year, we upgraded our geofencing 
system from a static system to a live system that can reflect the 
changing nature of airspace restrictions. So although we share a common 
interest in providing the latest in safety features to customers, a 
legal mandate is the wrong approach because it locks in the current 
generation of technology, overlooks the need for exceptions, prevents 
the industry from making adjustments to features as we go, and 
disincentives industry to create new and even better safety features in 
the future.
    You have noted that ``we require cars to go a certain speed.'' More 
precisely, we require drivers to obey the posted speed limit, and there 
is no speed limitation device built into cars, many of which display a 
speedometer that is well in excess of any posted speed limit in the 
United States. This reflects the important principle that the operator 
is ultimately responsible for the safe operation of the vehicle, and 
has to make decisions based on a variety of factors, including weather, 
traffic, and whether there is an emergency condition. Our safety 
features are primarily an educational tool for operators, who must 
ultimately make their own operational decisions. The best way to ensure 
safety as the number of operators grows is to continue to educate users 
on the rules and guidelines to safe operation.
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question 3. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long? Do you agree that such basic information 
in no way supplants a strong set of rules governing operations and 
technology?
    Answer. DJI is strongly committed to educating our customers on the 
rules and guidelines of safe operation. We have been including the FAA-
approved ``Know Before You Fly'' campaign safety insert in our packages 
since the early days of that program in 2015. We provide on-screen 
tutorials and a built-in flight simulator within our flight app for 
novices. We help organize local ``New Pilot Experience'' sessions which 
include discussion of the rules of safe operation. We have a Tutorials 
video channel on YouTube with instructional information on safe 
operations. We use our social media platforms, which have approximately 
3 million followers, to send out information about safety. We also 
partner with organizations such as the Academy of Model Aeronautics, to 
promote local education. Additionally, we are working on an innovative 
new educational mechanism that we hope to announce in the coming weeks. 
A product insert is only one way to educate people.
    Placing an insert into the packaging can be more complicated than 
it sounds, when products are sold into global channels, and we cannot 
speak for other manufacturers and their capabilities. While a 
reasonable amount of time should be given before product insert 
mandates become effective, we agree that two years would be more than 
enough time. We also agree that educational information should 
communicate rules that make sense and are reasonable, to encourage the 
development of a culture of compliance in which drone operators correct 
each other when they are flying unsafely. The rules should not only be 
``strong,'' they should be reasonable and be premised on mitigating 
risk as determined by science rather than sensational media headlines.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            John Villasenor
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question 1. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long?
    Answer. The FAA Extension, Safety, and Security Act of 2016 (Pub. 
L. 114-190), enacted July 15, 2016, contains a section addressing 
``Safety statements.'' More specifically, Sec. 2203(a) provides that:

        Beginning on the date that is 1 year after the date of 
        publication of the guidance under subsection (b)(1), a 
        manufacturer of a small unmanned aircraft shall make available 
        to the owner at the time of delivery of the small unmanned 
        aircraft the safety statement described in subsection (b)(2).

    Sec. 2203(b)(1), in turn, states that

        Not later than 1 year after the date of enactment of this Act, 
        the Administrator of the Federal Aviation Administration shall 
        issue guidance for implementing this section.

    In combination, the two 1-year time periods identified above mean 
that safety statements will need to be provided by no later than two 
years after enactment, i.e., by no later than July 2018.
    In contrast with the above, Sen. Blumenthal's amendment, had it 
been adopted, would have replaced each of the 1-year requirements with 
a 60-day requirement.
    In combination, this would have meant that safety statements would 
have been required by no later than 120 days after enactment.
    I will address the two time periods separately.
    First, with respect to the one-year time period for the FAA to 
issue guidance, I would certainly agree that, prior to the July 2016 
enactment of the FAA Extension, Safety, and Security Act of 2016, it 
was quite reasonable to raise the possibility of modifying the time 
limit for the FAA to issue guidance from one year after enactment to 
something shorter, such as 60 days. However, the one-year period that 
was included in the enacted legislation concludes in mid-July 2017, 
i.e., not much more than 60 days from the current (May 3, 2017) date. 
Thus, at this point, the issue of whether that period should have been 
1 year or something shorter is largely moot, since under the enacted 
legislation the FAA is required to issue the guidance by mid-July 2017.
    Second, once the guidance is issued, the enacted legislation gives 
manufacturers 1 year to put in place mechanisms to provide the safety 
statement. I can understand the desire to \1\ shorten this time period, 
as Sen. Blumenthal's amendment would have done. That said, I can also 
understand the potential complexities that would be introduced if the 
period is too short. For example, the supply chains involved in 
manufacturing and shipping commercial UAS can span multiple months. In 
mandating the inclusion of a safety statement, it is important to avoid 
inadvertently stranding significant amounts of newly noncompliant 
inventory in the supply chain.
---------------------------------------------------------------------------
    \1\ In addition to changing the time periods from one year to 90 
days, Sen. Blumenthal's amendment would have changed the language of 
Sec. 2203(a). However, in my response I am focusing here only on the 
changes in the time periods.

    Question 2. Do you agree that such basic information in no way 
supplants a strong set of rules governing operations and technology?
    Answer. Provided that a safety statement is properly drafted and 
that mechanisms for disseminating it are properly designed and 
implemented, I believe that it would not reasonably be construed as 
supplanting the rules governing operations and technology.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                         Emilio Gonzalez, Ph.D.
Issue: The need to ensure recreational drone users understand basic 
        safety
    More than 750,000 recreational drone owners have registered with 
the FAA--more than 5,000 in Connecticut.
    It's anticipated that there could be tens of millions more in the 
years to come.
    Many of these owners are teenagers or novices in handling powerful 
technology.
    And the only training and education they require is reading a few 
bullets on the FAA's site before clicking a box.
    In last year's FAA extension legislation, there was a provision 
that required manufacturers to inform consumers about safety laws 
governing drone use. The legislation gives the FAA a year to write 
guidance on the ``safety statement'' and manufacturers a year 
thereafter to provide it to consumers.
    I strongly support efforts like this, which of course in no way 
supplant the need for tough rules governing operations and 
technological specs. But even requiring inclusion of a basic safety 
statement in a reasonable time-frame was met with resistance.
    To me and I'm sure many others, two years is more than enough time 
to provide a statement. I offered an amendment that would require this 
statement be provided in 120 days of the bill's enactment--which is 
still far more than enough time. We're just talking about a few pieces 
of paper that tell consumers the law. This info is already on the FAA's 
website.
    Until then, the only education is the brief visit to the FAA site. 
And the statement that is required by law won't be included in 
packaging until the summer of 2018.

    Question. Do you agree a two-year timeline for the inclusion of a 
safety statement is too long? Do you agree that such basic information 
in no way supplants a strong set of rules governing operations and 
technology?
    Answer. I agree wholeheartedly that two years is ample time to 
comply with a requirement that can easily be accomplished by including 
the information in the product support material already provided by 
drone manufactures. I would take it one step further and require that a 
safety review and the registration process be initiated at the point of 
sale and a condition of final sale of all recreational UAVs.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                         Emilio Gonzalez, Ph.D.
    Question. Drones have a unique ability to surveille and collect a 
host of sensitive information about consumers, as detailed by a letter 
sent to this Committee by the Electronic Privacy Information Center. 
Dr. Gonzalez, should privacy be considered when integrating drones into 
the National Airspace?
    Answer. Yes, without a doubt. The safety and security risk posed by 
drones on air transportation is of paramount importance to me and other 
airport directors around the country. My top priority is the safety of 
the passengers utilizing our national airspace. However, critical 
infrastructure including airports and seaports continue to be 
vulnerable from drones and the FAA must complete and implement a plan 
to address these vulnerabilities and safely integrate drones into the 
national airspace. Managers of critical infrastructure must also be 
provided the tools, both legislative and funding, to mitigate the 
impact of these risk.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
